<html>
<title> - FEDERAL PROTECTIVE SERVICE: WILL CONTINUING CHALLENGES WEAKEN TRANSITION AND IMPEDE PROGRESS?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                      FEDERAL PROTECTIVE SERVICE:
   WILL CONTINUING CHALLENGES WEAKEN TRANSITION AND IMPEDE PROGRESS?

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 18, 2009

                               __________

                           Serial No. 111-43

                               __________

       Printed for the use of the Committee on Homeland Security

                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/




                  U.S. GOVERNMENT PRINTING OFFICE
55-247                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0760776847647274736f626b772964686a29">[email&#160;protected]</a>  
2011
                               __________

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
Bill Pascrell, Jr., New Jersey
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Eric J.J. Massa, New York
Dina Titus, Nevada
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Committee on 
  Homeland Security..............................................     3
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California:
  Prepared Statement.............................................     8

                               WITNESSES
                                Panel I

Mr. Rand Beers, Under Secretary, National Protection Programs 
  Directorate, Department of Homeland Security:
  Oral Statement.................................................     9
  Joint Prepared Statement.......................................    11
Mr. Gary W. Schenkel, Director, Federal Protective Service, 
  National Protection Programs Directorate, Department of 
  Homeland Security:
  Joint Prepared Statement.......................................    11
Mr. Robert A. Peck, Commissioner, Public Buildings Service, 
  General Services Administration:
  Oral Statement.................................................    13
  Prepared Statement.............................................    14
Mr. Mark L. Goldstein, Director, Physical Infrastructure Issues, 
  Government Accountability Office:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17

                                Panel II

Mr. David L. Wright, President, American Federation of Government 
  Employees, Local 918:
  Oral Statement.................................................    52
  Prepared Statement.............................................    54
Mr. Stephen D. Amitay, Federal Legislative Counsel, National 
  Association of Security Companies:
  Oral Statement.................................................    60
  Prepared Statement.............................................    62

                             FOR THE RECORD

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Committee on 
  Homeland Security:
  Letter From the American Federation of Government Employees 
    (AFGE Local 918--Federal Protective Service).................     4

                                APPENDIX

Questions From Chairman Bennie G. Thompson of Mississippi for 
  Rand Beers, Under Secretary, National Protection Programs 
  Directorate, Department of Homeland Security...................    71
Questions From Honorable Charles W. Dent of Pennsylvania for Rand 
  Beers, Under Secretary, National Protection Programs 
  Directorate, Department of Homeland Security...................    76
Questions From Chairman Bennie G. Thompson of Mississippi for 
  Gary W. Schenkel, Director, Federal Protective Service, 
  National Protection Programs Directorate, Department of 
  Homeland Security..............................................    77
Questions From Honorable Charles W. Dent of Pennsylvania for Gary 
  W. Schenkel, Director, Federal Protective Service, National 
  Protection Programs Directorate, Department of Homeland 
  Security.......................................................   102
Questions From Chairman Bennie G. Thompson of Mississippi for 
  Robert A. Peck, Commissioner, Public Buildings Service, General 
  Services Administration........................................   102
Question From Honorable Charles W. Dent of Pennsylvania for 
  Robert A. Peck, Commissioner, Public Buildings Service, General 
  Services Administration........................................   102
Questions From Chairman Bennie G. Thompson of Mississippi for 
  Mark L. Goldstein, Director, Physical Infrastructure Issues, 
  Government Accountability Issues...............................   103
Questions From Chairman Bennie G. Thompson of Mississippi for 
  David L. Wright, President, American Federation of Government 
  Employees--Local 918...........................................   103
Questions From Honorable Charles W. Dent of Pennsylvania for 
  David L. Wright, President, American Federation of Government 
  Employees--Local 918...........................................   105
Questions From Chairman Bennie G. Thompson of Mississippi for 
  Stephen D. Amitay, Federal Legislative Counsel, National 
  Association of Security Companies..............................   106
Questions From Honorable Charles W. Dent of Pennsylvania for 
  Stephen D. Amitay, Federal Legislative Counsel, National 
  Association of Security Companies..............................   106


     FEDERAL PROTECTIVE SERVICE: WILL CONTINUING CHALLENGES WEAKEN 
                    TRANSITION AND IMPEDE PROGRESS?

                              ----------                              


                      Wednesday, November 18, 2009

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:03 a.m., in Room 
311, Cannon House Office Building, Hon. Bennie G. Thompson 
[Chairman of the committee] presiding.
    Present: Representatives Thompson, Jackson Lee, Cuellar, 
Carney, Clarke, Richardson, Himes, King, Dent, Olson, Cao, and 
Austria.
    Chairman Thompson [presiding]. The Committee on Homeland 
Security will come to order.
    The committee is meeting today to receive testimony on 
``Federal Protective Service: Will Continuing Challenges Weaken 
Transition and Impede Progress?''
    Good morning. I would like to thank our witnesses for 
appearing before us today.
    We are here this morning to discuss the continuing 
challenges faced by the Federal Protective Service, and how 
those challenges may affect its future. The Federal Protective 
Service is responsible for protecting Federal Government 
property, personnel, visitors and customers, by providing law 
enforcement and related security services for about 9,000 
buildings that are under the control and custody of the General 
Services Administration.
    FPS responds to incidents, conducts risk assessments, 
participates in security meetings with GSA property managers 
and tenant agencies, and determines whether GSA buildings meet 
security standards established by the Interagency Security 
Committee.
    To carry out this mission, FPS currently employs about 
1,200 Federal employees. About one-half of the FPS workforce 
are Federal law enforcement security officers. But those 
officers are not responsible for providing a law enforcement 
presence at Federal facilities. On the contrary, these 
employees are dedicated to overseeing the 15,000 members of a 
contract guard force.
    For most people, the contract guards are the face of the 
Federal Protective Service. FPS officers, formerly major actors 
in Federal law enforcement, have become primarily responsible 
for administration and management of a large and growing 
network of private guards. This trend is likely to continue.
    While Congress has mandated that FPS maintain staffing 
levels of at least 1,200, GAO has found that the agency 
continues to have a high attrition rate. Like most other 
Federal agencies, FPS must address the impending retirements of 
the baby boom generation. About 30 percent of the FPS employees 
will be eligible to retire in the next 5 years.
    The impending retirements, combined with a high attrition 
rate, indicate that FPS must implement a strategic human 
capital plan. Yet GAO has found that FPS does not have a 
strategic human capital plan.
    The lack of a human capital plan could be mitigated by 
stellar oversight of its force of contract guards. But GAO has 
found that FPS does not effectively oversee training and 
performance of these guards. In fact, in one region, FPS failed 
to provide X-ray or magnetometer training to 1,500 guards since 
2004. Nonetheless, these guards were assigned to posts at 
Federal facilities.
    In addition to training and oversight challenges, GAO has 
identified substantial security vulnerabilities in the FPS 
guard program. GAO investigators were able to successfully 
carry the IED components through security checkpoints monitored 
by contract guards in 10 out of 10 Federal facilities it 
tested.
    Failures in the guard program could be mitigated by 
accurate FPS assessments of risk, and the implementation of 
countermeasures by GSA and its tenant agencies. However, GAO 
has found that FPS has only limited influence over the 
allocation of resources, because resource allocation decisions 
are a responsibility of GSA and tenant agencies.
    I think it is fair to say that the current state of FPS is 
bleak. However, the Department has put forward a transition 
plan to move FPS and implement changes throughout the agency.
    We cannot assume that relocation alone will resolve FPS's 
problems. The multi-dimensional and complex challenges faced by 
this agency have been in the making for years. The solution to 
these problems will require resources, planning, and 
commitment.
    This plan is a first step, but it cannot be the only step 
taken.
    I look forward to the testimony presented today, and I look 
forward to the actions that follow.
    [The statement of Chairman Thompson follows:]

           Prepared Statement of Chairman Bennie G. Thompson

    We are here today to discuss the continuing challenges faced by the 
Federal Protective Service and how those challenges may affect its 
future.
    The Federal Protective Service (FPS) is responsible for protecting 
Federal Government property, personnel, visitors, and customers by 
providing law enforcement and related security services for about 9,000 
buildings that are under the control and custody of the General 
Services Administration (GSA).
    FPS responds to incidents, conducts risk assessments, participates 
in security meetings with GSA property managers and tenant agencies, 
and determines whether GSA buildings meet security standards 
established by the Interagency Security Committee.
    To carry out this mission, FPS currently employs about 1,200 
Federal employees. About one-half of the FPS workforce are Federal Law 
Enforcement Security Officers (LESO). But those officers are not 
responsible for providing a law enforcement presence at Federal 
facilities. On the contrary, these employees are dedicated to 
overseeing the 15,000 members of a contract guard workforce.
    For most people, the contract guards are the face of the Federal 
Protective Service.
    FPS officers, formerly major actors in Federal law enforcement, 
have become primarily responsible for administration and management of 
a large and growing network of private guards.
    And this trend is likely to continue. While Congress has mandated 
that FPS maintain staffing levels of at least 1,200, GAO has found that 
the agency continues to have a high attrition rate.
    And like most other Federal agencies, FPS must address the 
impending retirements of the Baby-Boom generation. About 30 percent of 
FPS employees will be eligible to retire in the next 5 years.
    These impending retirements combined with a high attrition rate 
indicate that FPS must implement a strategic human capital plan. Yet 
GAO has found that FPS does not have a strategic human capital plan.
    The lack of a human capital plan could be mitigated by stellar 
oversight of its force of contract guards. But GAO has found that FPS 
does not effectively oversee training and performance of these guards. 
In fact, in one region, FPS failed to provide X-ray or magnetometer 
training to 1,500 guards since 2004. Nonetheless, these guards were 
assigned to posts at Federal facilities.
    In addition to training and oversight challenges, GAO has 
identified substantial security vulnerabilities in the FPS guard 
program. GAO investigators were able to successfully carry the IED 
components through security checkpoints monitored by contract guards in 
10 out of 10 Federal facilities it tested.
    Failures in the guard program could be mitigated by accurate FPS 
assessments of risk and the implementation of countermeasures by GSA 
and its tenant agencies. However, GAO has found that FPS's has only 
limited influence over the allocation of resources because resource 
allocation decisions are the responsibility of GSA and tenant agencies.
    I think it is fair to say that the current state of FPS is bleak.
    However, the Department has put forward a transition plan to move 
FPS and implement changes throughout the agency. We cannot assume that 
relocation alone will resolve FPS's problems.
    The multidimensional and complex challenges faced by this agency 
have been in the making for years. The solution to these problems will 
require resources, planning, and commitment.
    This plan is the first step. But it cannot be the only step taken.

    Chairman Thompson. The Chair now recognizes the Ranking 
Member of the full committee, the gentleman from New York, Mr. 
King, for an opening statement.
    Mr. King. Thank you, Mr. Chairman. Thank you for your 
courtesy. Thank you for scheduling this hearing. I welcome all 
the witnesses here today.
    Unfortunately, I will not be able to stay past 10:30. There 
is a large press conference with 9/11 victims, which will be 
held--which I will have to attend. They have come here from New 
York.
    But I am very interested in this hearing. I know that the 
Federal Protective Service is a vital component of our Nation's 
homeland security. I certainly look forward to going through 
the testimony and reviewing what is said here today.
    One of the concerns I do have, which echoes what the 
Chairman says, is the GAO reports, which did show significant 
weaknesses in the Federal Protection Services as far as 
providing the security that is needed at our Federal 
facilities.
    I also bring that up in view of the fact that, of the 
recent decision by the attorney general to hold the trial of 
Khalid Sheikh Mohammed in Manhattan, in the Southern District. 
I would be, again, very interested in the testimony as to how 
you feel the measures will be taken to protect the Federal 
facilities in Lower Manhattan, what extra steps are going to be 
taken.
    Obviously, I know you are not going to go into detail. But 
whether or not you feel that that job can be done. In that 
regard, I will be introducing a letter which recently--I guess 
it is a copy of a letter to you, Mr. Schenkel, from the 
American Federation of Government Employees, where they talk 
about severe staffing shortages in the New York region.
    So, to me, again, not saying whether that letter is 
accurate or not, but the fact these are serious issues in any 
event, but to be raised with upcoming Federal proceedings in 
New York with Khalid Sheikh Mohammed. I think they take on a 
particular significance, and I will be looking forward to you 
addressing that.
    So, with that, Mr. Chairman, again, I thank you for 
scheduling the hearing. I look forward to the testimony, and I 
regret the fact that I will probably have to leave here about 
10:30. I am sure you will be able to carry on without me, and 
your heart will not be broken.
    Chairman Thompson. It will be difficult.
    Mr. King. Thank you.
    Chairman Thompson. Thank you.
    Without objection, we will enter the letter into the 
record.
    [The information follows:]
Letter From the American Federation of Government Employees (AFGE Local 
 918--Federal Protective Service) Submitted for the Record by Ranking 
                          Member Peter T. King
                                                  October 14, 2009.
Gary W. Schenkel,
Director, Federal Protective Service, U.S. Department of Homeland 
        Security, 800 N. Capitol St. NW, Suite 500, Washington, DC 
        20002.

Subject: Region 2: Critical Staffing Levels; Poor Leadership and 
Management

    Mr. Schenkel: I write to you today to formally express my serious 
concerns about Region 2 leadership and critical staffing levels within 
New York City.
    AFGE Local 918-FPS remains extremely concerned about severely 
inefficient staffing levels in New York City and the poor leadership 
within Region 2. We find that the Federal Protective Service is in 
severe crisis in New York City and despite repeated warnings there have 
been no significant changes or actions taken to address the issues. FPS 
lacks the necessary staffing and proper leadership within New York City 
and is unable to effectively carry out its mission in the highest risk 
metropolitan area within the United States. Federal buildings in New 
York City are at great risk and urgent action is needed to address this 
situation.
    Senior leadership and managers of Region 2 have consistently 
demonstrated that they lack the necessary skill, experience, and 
initiative to ensure the protection of Federal facilities in New York 
City. AFGE Local 918 finds the Regional management decisions and 
actions, and the lack thereof on numerous occasions, to be a major 
threat to mission accomplishment. The following are some of the primary 
issues that detail AFGE Local 918's serious concerns about Region 2.
  <bullet> The staffing levels of Region 2 are critical. The Region 
        lacks adequate staffing to accomplish the mission. As one of 
        the most at-risk metropolitan locations in the country, New 
        York City staffing levels are severely inadequate. FPS does not 
        maintain 24-hour coverage in New York City or any part of the 
        Region. Yet, despite the critical staffing levels, the Region 
        continues to allow members to travel on temporary duty to 
        locations outside of the Region, fails to have a formal 
        mechanism in place to ensure coverage during employee absences 
        and lacks a formal procedure for the appropriate use and fair 
        distribution of overtime. Region 2, especially in New York 
        City, needs to ensure maximum coverage by uniformed FPS staff 
        at all times and limit the temporary assignment of staff until 
        such time as a major increase staffing is accomplished in the 
        Region. Region 2 lacks sufficient staffing to participate in 
        special details and assignments. The risk to Federal facilities 
        in New York City is just too great to allow the very few staff 
        available in New York City to be assigned to work in other 
        locations. The following demonstrate serious issues that 
        severely strain the staffing and ability for FPS to accomplish 
        its mission in Region 2.
    <bullet> The Metro New York District Director David Metzger has 
            been temporarily assigned to serve as an instructor for the 
            RAMP training program. This action will leave New York City 
            without a District Director for the period of September 15, 
            2009 through January 15, 2010. This same District Director 
            has been attending training and otherwise on leave or 
            temporary assignment and out of the District for extended 
            periods throughout the year. With staffing already at 
            critical levels in the District and the recent terrorist 
            threat against New York City which is being called the most 
            significant terror threat since September 11, 2001, we find 
            it incomprehensible that the Region would allow the Metro 
            District Director to be absent for such an extended period 
            of time. Mr. Metzger has lost touch with the day-to-day 
            operations of his command and the lack of leadership has 
            negatively impacted the effectiveness of the District.
    <bullet> In addition to the District Commander, the Region has 
            assigned an Area Commander and an inspector to RAMP 
            instructor duties outside the Region. The Region has also 
            assigned two inspectors to the G-20 detail in Pittsburgh. 
            In addition, the Region has experienced the extended 
            absence of one Metro District Inspector due to a line of 
            duty injury, a second Metro District Inspector for a 
            misconduct allegation, a third Metro District Inspector for 
            a firearms qualification issue, a fourth Metro District 
            Inspector has been detailed for many months to the Chemical 
            Security Compliance Division, a fifth Metro District 
            Inspector has been detailed for many months to Plum Island. 
            The pending retirements of a Metro District Police 
            Sergeant, Police Captain and a Physical Security Specialist 
            all contribute to the negative staffing issues that 
            continue to persist in Region 2 and particularly in New 
            York City.
    <bullet> Two recently hired Inspectors have been without a bullet-
            resistant vest for over 3 months. These Inspectors have 
            been in soft uniform performing administrative duties 
            during this time period. Despite the Local's repeated 
            inquiries and calls for urgent action, neither the 
            inspectors nor the Local have seen any indication that 
            management is taking any action to obtain the vests so 
            these inspectors can return to full uniformed duty.
    <bullet> There is an insufficient number of Field Training 
            Inspectors to ensure the success of the Field Training 
            Evaluation Program required of all new inspectors. This 
            shortage will surely delay the proper implementation of the 
            Program--resulting in otherwise qualified law enforcement 
            officers to perform administrative duties.
    <bullet> The Risk Management Branch Chief, Joseph Cuciti, and Law 
            Enforcement and Security Program Manager Terence Hoey are 
            frequently out of the office on details to FLETC, FPS 
            Headquarters, military leave and the like. The Region 2 
            Risk Management Branch is ineffective as a result.
  <bullet> On September 11, 2009, the 8th anniversary of the 9/11 
        terror attacks, Region 2, took no special actions. It was 
        business as usual in New York City and throughout the Region 
        with the Metro District pressuring staff to continue work on 
        facility security assessments, security level determinations 
        and other administrative work rather than directing highly 
        visible and vigilant patrols of Federal facilities throughout 
        the Region, especially in New York City. Despite the fact that 
        the Vice-President of the United States, the Secretary of 
        State, and the Secretary of Homeland Security were in Lower 
        Manhattan, Regional management did not so much as send out an 
        email to staff urging vigilance or marking the anniversary of 
        the attacks that had such a major impact on Region 2 and New 
        York City. Regional management should have directed all law 
        enforcement personnel to be in uniform and conducting highly 
        visible directed patrol of Federal facilities throughout the 
        Region, the suspension of non-essential administrative work by 
        law enforcement officers for the day and established a formal 
        plan in advance to ensure maximum staffing coverage. We now 
        know that terrorists linked to al Qaeda had planned to carry 
        out attacks in New York City on September 11, 2009. Region 2 
        would have been severely unprepared for any attacks. Further, 
        the President of the United States was in New York City at a 
        Federal facility in Lower Manhattan and still the Region 
        continued with business as usual. AFGE is baffled and disgusted 
        with Regional management for their lack of care or concern on 
        September 11 and for its continuing lack of attention for 
        events going on around New York City in and around Federal 
        facilities.
  <bullet> There are two Area Commanders within Metro District. Area 
        Commander Rafael Bou covers the New York City boroughs of 
        Manhattan, Brooklyn, and The Bronx while Area Commander Saul 
        Roond covers Long Island and New York City borough of Queens. 
        Both of the Area Commanders are routinely operating on the 30th 
        floor of 26 Federal Plaza at adjacent desks. Considering the 
        geographic dispersion of personnel throughout these two areas, 
        it is difficult to understand why both of these Area Commanders 
        are working in such close proximity.
  <bullet> Area Commander Rafael Bou rarely wears the class C duty 
        uniform and is routinely in plain clothes. With an inspector-
        based work force, the Area Commander is now the first-line 
        supervisor of the uniformed workforce. Mr. Bou does not seem to 
        understand that. He routinely relies on the two remaining 
        Police Sergeants to serve as the uniformed supervisor. This is 
        problematic as GS-10 Police Sergeants should not be supervising 
        GS-12 inspectors. In addition, Mr. Bou is frequently out of 
        contact with his subordinates. He rarely answers his cell 
        phone, his voice mailbox is always full and messages cannot be 
        left. He rarely replies to emails citing the fact that his 
        email folder is full, preventing him from replying. He 
        frequently is not available on the radio. He arrives and 
        departs at varying times and no one seems to know when he is in 
        or when he is out. He repeatedly claims he is retiring within 
        days but obviously by his continued presence that is false. We 
        find Mr. Bou's actions to be abhorrent and a significant risk 
        to the uniformed staff and the Federal facilities in New York 
        City.
  <bullet> Area Commander Rafael Bou serves as the ``Lead COTR'' for a 
        number of security guard contracts in the Region. He routinely 
        fails to take timely or appropriate action on issues reported 
        by inspectors. In a recent incident, an FPS Police Officer 
        reported to an inspector that he discovered a contract guard 
        had abandoned his post at a Level IV facility for at least 2 
        hours. The inspector conducted a review of security camera 
        footage which revealed the guard had left his post for a 
        majority of his tour of duty. The inspector recommended to Mr. 
        Bou that the contract guard be immediately removed from 
        performing work on the contract. Mr. Bou subsequently 
        approached the Police Officer who initially discovered the 
        incident and asked the Officer if a letter of reprimand would 
        suffice as a form of punishment to address the matter. The 
        Police Officer deferred the matter to the inspector. The guard 
        was not immediately removed as recommended and the contract 
        guard was found to have abandoned his post again on his next 
        tour of duty. The inspector reported the incident to Mr. Bou 
        and again called for the guard's removal which was completed a 
        few days later. The fact that Mr. Bou would consult with the 
        Police Officer and not the inspector on the appropriate means 
        to address this matter as well as his failure to promptly 
        address this matter in light of the recent national media 
        attention given to FPS oversight of contract guards is 
        bewildering.
  <bullet> On a separate contract guard issue, a contract security 
        guard in Manhattan was removed from performing work on a 
        contract due to the guard's failure to take appropriate action 
        to prevent and identify persons who vandalized Federal property 
        in his presence. In addition, it was determined through close 
        monitoring by a group of inspectors that the guard had serious 
        issues with following instructions and paying attention to his 
        duties. A few months later, the same individual who was removed 
        from the Manhattan contract was found to be working at two 
        Security Level IV facilities in Queens. The matter was reported 
        to Mr. Bou for action yet he failed to take action. The guard 
        continues to work as a contract security guard at Level IV 
        Federal facilities in Queens. The Local is bewildered how an 
        individual can be removed from performing work under a Federal 
        contract in one borough and yet be allowed to gain employment 
        under a separate Federal contract in another adjacent borough 
        in the same District of the same Region of FPS. Further, we 
        find it abhorrent that the matter was not immediately addressed 
        by Mr. Bou when it was brought to his attention. The matter was 
        referred to the Joint Intake Center for action but the guard 
        continues to work as a contract guard.
  <bullet> In the Upstate New York area, the limited staffing and vast 
        geographic area requires inspectors to conduct extensive 
        travel. Inspectors are expected to travel over 120 miles to 
        conduct checks of Federal facilities and contract guards. 
        Recently, inspectors were required to travel 240 miles to pick-
        up ToughBook laptop computers. They also travel the same route 
        quarterly to conduct firearms qualification. It is neither fair 
        nor safe to expect these inspectors to travel such extensive 
        distances during a tour of duty.
  <bullet> The Region has demonstrated that it has no clue when it 
        comes to processing worker compensation claims. A recent line 
        of duty injury suffered by an inspector revealed the lack of 
        knowledge by Regional management in handling these issues which 
        resulted in the delayed filing of paperwork. In meetings with 
        AFGE representatives, the Regional Director and Deputy Regional 
        Director indicated that the responsibility for the 
        administration of the program was being transferred from 
        Mission Support Chief Martin Mcrimmon to Special Assistant John 
        Natale. At a subsequent meeting, the Deputy Regional Director 
        indicated that the Mission Support Chief would again be 
        handling OWCP matters. Shortly, after that meeting Regional 
        management advised the Local that OWCP matters would again be 
        handled by Special Assistant John Natale. In order to avoid the 
        problems encountered in past line of duty cases, the Local 
        recommended that Regional management establish a standard 
        operating procedure and provide training to its supervisors on 
        handling line of duty injuries. Rather than accept the lessons 
        learned from past incidents, the Region took a lax approach to 
        the matter. They put together a cut-and-paste job of a memo 
        which they placed on the shared server drive using a Region 11 
        Standard Operating Procedure (SOP). They failed to change the 
        points of contact in the policy, leaving the Region 11 point of 
        contact and not adding a Region 2 point of contact. This lack 
        of attention to detail is indicative of the manner in which 
        Region 2 management handles all matters.
  <bullet> Region 2 Threat Management Branch distributes a daily report 
        via email to FPS HQ and Regional staff--to include non-law 
        enforcement personnel and staff of other agencies. Until recent 
        inquiry by an AFGE representative, the report routinely 
        contained the name, date of birth, social security number and 
        residence of subjects. This information is now being redacted 
        in most instances but the report continues to contain an 
        excessive amount of information to include the names of law 
        enforcement personnel taking actions, investigative and 
        operational methods and techniques employed in Regional daily 
        operations. The unauthorized disclosure of this information 
        could adversely impact the conduct of Regional law enforcement 
        and security operations or the privacy or welfare of involved 
        persons. Routinely, the synopsis of the form 3155 is cut and 
        past into the daily report with little or no modification. This 
        amounts to releasing the form 3155 each time the daily report 
        is prepared and distributed. If a daily report to non-law 
        enforcement personnel and outside Agencies is necessary, its 
        content should be minimal with very short and minimally 
        descriptive summaries of daily events. In addition, the report 
        should be reviewed for accuracy, proper format and any errors 
        prior to distribution. The frequently observed typographical 
        errors, cut-and-paste formatting errors that include use of a 
        variety of fonts on occasion and other minor errors indicate 
        that a careful review of this product before its dissemination 
        is not being conducted.
  <bullet> The Region replaced all portable radios. As a continuing 
        evidence of the Region's lack of attention to detail, only one 
        Region 2 channel was programmed into the new portable radios. 
        To date, this has not been corrected and the Region 2 portable 
        radios continue to have only a single change programmed. On a 
        related note, when the Region received new vehicles, the 
        vehicles sat in a parking garage for months before being 
        assigned. When vehicles were replaced, old vehicles sat in the 
        garage for months. There was no timely issuance or return of 
        vehicles to ensure maximum cost efficiency. The Region 2 
        Mission Support Service Branch frequently creates more problems 
        than they solve.
  <bullet> Region 2 recently hired three Area Commanders for Metro 
        District. Each of these new managers was hired from outside the 
        agency. There were no internal promotions. Two of the Area 
        Commanders have sat around for several months while they await 
        required FLETC training dates. One of the Area Commanders has 
        accumulated nearly 200 hours of leave-without-pay during his 
        tenure with FPS. The agency needs to promote from within its 
        current ranks and have an effective, formal mechanism in place 
        to develop inspectors for leadership and management positions 
        within the agency.
    AFGE Local 918-FPS has been expressing its serious concerns about 
Region 2 for several years. Our concerns have gone mainly unaddressed. 
There is a systemic problem with poor leadership and management in 
Region 2. We believe that senior Region 2 leadership lacks the 
motivation, skills, and abilities to effectively lead and manage FPS 
operations in the 21st Century. Changes in senior Regional leadership 
are necessary if Region 2 is to become an effective component of FPS.
    I would like the opportunity to discuss these issues with you and 
work together to find solutions. We remain extremely concerned about 
the critical staffing issues in New York City. I felt it necessary to 
address the staffing issue in further detail in additional 
correspondence with you and to Members of Congress. I strongly urge 
immediate action to address the management deficiencies in New York 
City.
            Sincerely,
                                           David L. Wright,
                                     President, AFGE Local 918-FPS.

    Chairman Thompson. Other Members of the committee are 
reminded that under committee rules, opening statements may be 
submitted for the record.
    [The statement of Hon. Richardson follows:]
            Prepared Statement of Honorable Laura Richardson
                           November 17, 2009
    Mister Chairman, thank you for convening this very important 
hearing today examining the continuing challenges faced by the Federal 
Protective Service. I appreciate your commitment to this vital issue. I 
would also like to thank our witnesses for being here today.
    The Federal Protective Service (FPS) provides law enforcement and 
security services for almost 9,000 Federal facilities and countless 
millions in Federal assets. The sheer scope of this kind of service 
means that we must do everything we can to ensure that they have the 
resources and organizational structure in place to effectively do their 
job and keep our many buildings and employees safe in the face of the 
many threats to their security.
    The reports regarding lapses in security due to carelessness, 
negligence, and lack of training is distressing, to say the very least. 
We are relying on FPS for the security of so many people and places--
and too many reports of this nature indicate an epidemic, not an 
isolated incident. And considering that one of the buildings breached 
was a House office building right across the street from the Capitol, 
an important symbol of our Nation and an irresistible target for 
terrorists, I would think that is a clear sign that change is needed.
    As the representative of the 37th Congressional District in 
California which is a target-rich area for terrorists due to its close 
proximity to the Ports of Los Angeles and Long Beach, I have a 
particular interest in ensuring that this agency has the resources and 
structure in place to not only adequately handle its duties but to 
excel. Therefore, it is of particular import to me that the Federal 
Protective Services is doing the best job it possibly can.
    The transfer of FPS from Immigration and Customs Enforcement to the 
National Protection and Programs Directorate will most certainly have 
an effect on FPS' governance, function, and accountability. With so 
much at stake, we must ensure that this transition is as smooth and 
seamless as it possibly can be. Too much time has passed already since 
the problems within FPS have been identified. I look forward to hearing 
the ideas and recommendations of our distinguished panel of witnesses 
as to how we can improve this Service and further secure our Nation 
against threats.
    Thank you again, Mr. Chairman, for convening this hearing. I yield 
back my time.

    Chairman Thompson. I now welcome our first panel of 
witnesses.
    Our first witness is Mr. Rand Beers, the Under Secretary 
for the National Protection and Programs Directorate. Mr. Beers 
oversees the operation of the directorate's subcomponents: 
Cybersecurity and communications; infrastructure protection; 
risk management and analysis; and the United States visitors 
and immigration status indicator technology, commonly referred 
to as US-VISIT program.
    Soon, he will be adding FPS to this list of subcomponents 
under his direction. I do not know what else after that, Mr. 
Beers, but I am sure you will handle it.
    Our second witness is Mr. Gary Schenkel, the appointed 
director of Federal Protective Service in March 2007. Prior to 
joining the FPS, he served as assistant Federal security 
director for the Transportation Security Administration at 
Chicago Midway Airport.
    Welcome.
    Our third witness is Mr. Robert Peck, the commissioner of 
Public Buildings Service at the General Services 
Administration. As commissioner, Mr. Peck is responsible for 
design, construction, and leasing of 354 million square feet of 
Government property.
    Welcome, Mr. Peck.
    Our final witness on this panel is Mr. Mark Goldstein, who 
is the director of the Physical Infrastructure Issues team at 
the Government Accountability Office. Mr. Goldstein is 
responsible for GAO's work in the areas of Government 
facilities and telecommunications.
    I also welcome you here today, Mr. Goldstein.
    Without objection, the witnesses' full statements will be 
inserted in the record. I now ask each witness to summarize his 
statement for 5 minutes.
    Mr. Beers, however, will make a single statement for both 
FPS and NPPD. Mr. Schenkel will participate in the question-
and-answer segment of the hearing. We look forward to hearing 
his responses under Members' questions.
    I now recognize Secretary Beers.

 STATEMENT OF RAND BEERS, UNDER SECRETARY, NATIONAL PROTECTION 
     PROGRAMS DIRECTORATE, DEPARTMENT OF HOMELAND SECURITY

    Mr. Beers. Thank you, Mr. Chairman. Thank you, and Ranking 
Member King, and the other Members of the committee for 
inviting us to appear before you today to discuss the 
transition of the Federal Protective Service into the National 
Protection and Programs Directorate.
    We want to talk today about a number of those things. But I 
also want to acknowledge Director Schenkel here, and Bob Peck 
from GSA and Mark Goldstein from GAO, whom we work closely 
with. Both gentlemen are contributing importantly to the work 
of FPS.
    Let me start by saying that Secretary Napolitano and I have 
an enormous appreciation and tremendous respect for the work 
that FPS does every day all over the country.
    As you are aware, FPS was transferred to the National 
Protection and Programs Directorate on October 28 of this year 
with the signing of the Fiscal Year 2010 Department of Homeland 
Security Act. The protection of Federal facilities and their 
occupants is a critical mission.
    We at DHS need to ensure that FPS has the resources and the 
infrastructure to accomplish that mission. This is a charge 
which Secretary Napolitano has levied on us, and one which we 
take very seriously.
    For the past 6 months with respect to this transition, NPPD 
has worked closely with the Federal Protective Service and the 
Immigration and Customs Enforcement Agency to ensure an orderly 
transition. We will be happy to elaborate on that in the 
question period.
    Additionally, I believe that we have made important 
progress in addressing a number of the GAO recommendations. But 
clearly, more work needs to be done.
    With respect to that, as the committee is aware, since its 
transfer to DHS in 2003, FPS has been the subject of five GAO 
audits that have resulted in 20 recommendations for improving 
management and operations.
    With respect to those 20 recommendations, five have been 
addressed and closed; 10 related to facility protection, 
finance, and human capital planning are currently actively 
being worked; and five are tied directly to the implementation 
of FPS's Risk Assessment and Management Program, or RAMP, and 
will likely remain open until RAMP, which is now in its initial 
operating status, is fully operational in 2011.
    I would also like to address some of the major areas 
identified recently by GAO as needing improvement and review 
some of the actions and initiatives taken by FPS to make these 
changes.
    First, with respect to human capital, FPS has made 
improvements in its human capital management since the June 
2008 GAO report recommended that FPS develop and implement a 
strategic approach to manage staffing resources. FPS has 
refined and is using a strategic staff allocation model to 
manage its staffing resources. Director Schenkel can fill you 
in on the details of that.
    FPS has also enhanced its capability to identify and report 
personnel strength levels, allowing FPS to better manage 
resource levels. FPS's accomplishment led GAO to close this 
recommendation last month. In addition to this major 
accomplishment, FPS has used its human capital management plan 
to make important progress in recruiting, training, and 
allocating personnel during the past 18 months.
    Further, I would note that NPPD and FPS human capital 
management functions have been combined just this last week. 
This moves us, I think, into an integration that builds on the 
momentum, quite frankly, that FPS has already made and fully 
integrates NPPD's human capital processes to improve the 
overall approach to management of staffing resources.
    Second, with respect to finance, GAO has offered 
recommendations for improving FPS's financial processes. FPS, I 
think, has made some important improvements in this area. With 
Congressional support and guidance, FPS has improved its 
business processes and its enhanced financial functions to pay 
huge dividends. In the National Capital Region alone, for 
example, an improved procurement process for contracted guard 
services resulted in a $5.5 million cost reduction in 2008. 
These savings were passed directly to the agency client.
    Additionally, FPS has eliminated a backlog of 2,200 
invoices totaling $92 million, some of which predated the 
creation of DHS. FPS has consolidated and centralized the 
entire invoice payment process. Since the beginning of 2008--
fiscal year 2008--has paid 95 percent of all invoices within 30 
days. In its most recent month, the percentage rose to 99.5 
percent.
    I think this is a mark of the seriousness with which we 
have taken the recommendations, and the efforts that FPS has 
undertaken to move forward.
    The third point I want to make is with respect to contract 
guard oversight. FPS has been developing detailed performance 
measures that are directly linked to the 2008 strategic plan. 
In fiscal year 2010, FPS will formalize these performance 
measures.
    FPS has been developing a draft set of more than 80 
potential measures that are aligned to FPS programs to 
determine FPS's progress toward meeting the goals and 
objectives in that strategic plan.
    Furthermore, FPS is currently developing additional 
information collection and analysis tools to allow these 
comprehensive measures to be fully implemented.
    Specifically to address these, FPS has responded by first 
identifying contract guards with expired certifications and 
qualifications, and brought them into compliance with contract 
provisions--or removed them. Second, it has required contract 
guards to complete additional training in magnetometer and X-
ray screening operations and techniques.
    Third, it has authorized the use of overtime to increase 
the frequency of contract guard post inspections. Finally, we 
have established a National study group to determine what the 
causes of these lapses were and what more might be done.
    Finally, FPS has established a covert testing working group 
and set up a covert testing plan to complement these other 
overall efforts.
    In conclusion, transition of FPS advances Secretary 
Napolitano's strategic vision and her commitment to align the 
functions within the Department of Homeland Security in a 
manner that leverages DHS's resources and competencies.
    Director Schenkel and I would be happy to answer any of 
your questions. Thank you very much.
    [The joint statement of Mr. Beers and Mr. Schenkel 
follows:]

        Joint Prepared Statement of Rand Beers and Gary Schenkel
                           November 18, 2009

    Chairman Thompson, Ranking Member King, and Members of the 
committee, thank you for inviting me to appear before you today to 
discuss the transition of the Federal Protective Service (FPS). As you 
are aware, FPS transferred from U.S. Immigration and Customs 
Enforcement (ICE) to the National Protection and Programs Directorate 
(NPPD) on October 28, 2009, with the signing of the Fiscal Year 2010 
Department of Homeland Security Act (Pub. L. 111-83). This move 
advances Secretary Napolitano's strategic vision and her commitment to 
align functions within the Department of Homeland Security (DHS) in a 
manner that leverages the Department's resources and competencies to 
maximize FPS' contributions to the Department and its value to the 
Nation.
    For the past 6 months, NPPD has worked closely with FPS and ICE to 
ensure an orderly and seamless transition. I have an enormous 
appreciation and tremendous respect for FPS's work. The protection of 
Federal facilities and their occupants is critical, and we need to 
ensure that FPS has the resources and infrastructure to accomplish that 
mission. FPS Director Schenkel and I take our responsibility to provide 
such resources and infrastructure very seriously; this framed our 
transition plan, guided us throughout the transition period, and will 
continue to inform our decisions as we move forward.

                           GAO AUDIT SUMMARY

    Since its transfer to DHS in 2003, the FPS has been the subject of 
five Government Accountability Office (GAO) audits that have resulted 
in 20 recommendations for improving its management and operations. The 
disposition of the 20 recommendations is as follows:
  <bullet> Five have been addressed and closed.
  <bullet> Ten related to facility protection, finance, and human 
        capital planning and are being actively worked.
  <bullet> Five are tied directly to the implementation of FPS's Risk 
        Assessment and Management Program (RAMP), and likely will 
        remain open until RAMP is fully operational in 2011.
    I would like to address some of the major areas identified by GAO 
as needing improvement--human capital, finance, and contract guard 
oversight--as well as review some of the actions and initiatives taken 
by FPS to make these changes.

Human Capital
    FPS has made improvements in its human capital management since a 
June 2008 GAO report recommended that FPS develop and implement a 
strategic approach to manage staffing resources. FPS refined, and is 
using, a strategic staff allocation model to manage its staffing 
resources. It has also enhanced regional and headquarters capabilities 
to identify and report personnel strength levels, allowing FPS to 
achieve and maintain optimum resource levels. FPS's accomplishments and 
improvements in this area led GAO to close this recommendation last 
month.
    In addition to this major accomplishment, FPS has used its human 
capital management plan to make remarkable progress in recruiting, 
training, and allocating personnel during the past 18 months. At the 
beginning of 2008, as a result of budget requirements, FPS was directed 
to reduce its staff from 1,100 to 950 employees. FPS immediately 
developed an action plan to bring about those reductions while still 
accomplishing its critical mission. To save the jobs of a large number 
of valued employees, FPS identified programs that would reimburse FPS 
for assignments of a substantial number of positions. Three months 
later, the enactment of the Fiscal Year 2008 Omnibus Act required FPS 
to increase its strength by 150 additional law enforcement personnel, 
rather than reduce its staff to 950. FPS aggressively changed course 
and conducted the most successful recruiting and selection campaign in 
FPS history.
    Further, just this week I combined NPPD and FPS human capital 
management functions. This move capitalizes on the momentum made by FPS 
in the human capital area and fully integrates NPPD's human capital 
processes to improve the overall strategic approach to its management 
of staffing resources.

Finance
    GAO has offered recommendations for improving FPS's financial 
processes, and FPS has made important improvements. With Congress' 
support and guidance, FPS has employed a strategic approach to improve 
its business processes, and its significantly enhanced financial 
functions have paid huge dividends. In the National Capital Region 
alone, an improved procurement process for guard services resulted in 
reducing the cost of three new security guard contracts by $5.5 million 
in fiscal year 2008, savings that were passed directly to the agency 
client. An especially noteworthy accomplishment was the elimination of 
a backlog of 2,200 invoices totaling $92 million, some of which pre-
dated the creation of DHS. To improve FPS' invoice payment processes, 
FPS consolidated the entire process by requiring that all invoices be 
sent to a central location. Since the beginning of fiscal year 2008, 
FPS has paid 95 percent of all invoices within 30 days, and, in the 
most recent month, the percentage of payments paid within 30 days rose 
to 99.5 percent.
    FPS continues to refine its financial business processes. This 
year, it developed and implemented an activity-based cost model that 
captures obligations and expenses and links them directly to the 
appropriate line of business, activity, and cost center. The model is 
still being tested, but early results indicate that it will allow us to 
analyze security costs by facility, risk level, and performance. This 
capability will assist in developing and evaluating potential 
alternative fee methodologies that align costs of services required for 
designated security levels.

Contract Guard Oversight
    During the past year, FPS has been developing detailed performance 
measures that are directly linked to its strategic plan, which was 
issued in 2008. FPS has developed a draft set of more than 80 potential 
measures that are aligned to FPS programs and can provide information 
to determine FPS progress toward meeting the goals and objectives in 
the strategic plan. FPS is now testing and refining the highest 
priority measures to ensure their feasibility and accuracy. Based on 
this testing, FPS will establish comprehensive performance measures in 
fiscal year 2010. Further, FPS is currently developing additional 
information collection and analysis tools to allow these comprehensive 
measures to be fully implemented.
    To specifically address the most recent oversight issues reported 
by GAO, FPS has responded to improve oversight of it contract guard 
force. For example, within hours of learning of lapses in screening 
procedures in selected facilities, FPS:
  <bullet> Established a National study group to determine the causes 
        of the lapses and to recommend measures to prevent their 
        recurrence;
  <bullet> Authorized overtime to increase the frequency of contract 
        guard post inspections;
  <bullet> Required contract guards to complete additional training in 
        magnetometer and X-ray screening operations and techniques; and
  <bullet> Identified contract guards with expired certifications and 
        qualifications and brought them into compliance with contract 
        provisions or removed them.
    In addition to these measures, FPS established a Covert Testing 
Working Group and tasked its members to develop a Covert Testing 
Program to enhance and complement on-going overt efforts to improve 
oversight and promote attentiveness and professionalism of the contract 
guard force. The working group has developed a draft program that will 
contribute to a multi-faceted approach to achieve FPS strategic goals 
effectively and efficiently and to ensure secure facilities and safe 
occupants. This approach will be integrated with FPS' formal program 
review process, which facilitates data analysis management and 
consistent follow-up to ensure that corrective actions and identified 
policy and training deficiencies are adequately addressed and resolved. 
We anticipate that the new policy directive to implement the program 
will be in place no later than December 11, 2009.
    I thank you for your time today. I appreciate the opportunity to 
discuss the Federal Protective Service's transition and progress. I 
will be happy to answer any questions from the committee.

    Chairman Thompson. Thank you for your testimony.
    I now recognize Commissioner Peck to summarize his 
statement for 5 minutes.

  STATEMENT OF ROBERT A. PECK, COMMISSIONER, PUBLIC BUILDINGS 
            SERVICE, GENERAL SERVICES ADMINISTRATION

    Mr. Peck. Thank you, Mr. Chairman and Ranking Member, 
Congressman King. Thank you for inviting GSA to come to this 
hearing this morning.
    Mr. Chairman, you noted the range of our buildings, 354 
million square feet of buildings that house 1 million Federal 
tenants all around the country. I think what I would like to do 
most is to put the issue of security in context.
    We always say that we have no more important mission in 
GSA, a mission which we share with the Federal Protective 
Service, of providing for the security of the people who work 
in our Federal buildings, and for the citizens who come to 
visit.
    It is important to note that this is an incredibly 
difficult undertaking, because our buildings, by and large, are 
not high-security installations in the traditional sense of a 
place where you can surround it with double concertina wire and 
high-intensity lighting, and keep everybody out.
    On the contrary, we invite the public into our buildings. 
They paid for the buildings. The people who work in those 
buildings serve the public. So, it is a balance that we have to 
maintain, and it makes security quite a bit more difficult than 
it is in other contexts.
    Second, in our buildings we have agencies with a wide range 
of responsibilities--and, commensurately, a wide range of 
threats against them--from law enforcement agencies, courts, 
U.S. attorneys' offices, to agencies like Social Security and 
CIS, who are there to serve people who have business to conduct 
with the Government.
    Security is something that happens in a continuum, 
beginning with intelligence, with the efforts of our military 
overseas to disrupt those foreign threats against us, and 
moving into technology in our buildings, and also the human 
assets, which is the focus mostly of your hearing today. But it 
is important for us to work on, and we are working with FPS and 
other Federal agencies on defining what the threats are, and 
what are those threats that we can reasonably and most 
effectively mitigate by measures in our buildings.
    As I said, some measures against threats have to be taken 
outside our buildings. Then, there are those threats which we 
need to accept, in a way, as a risk of doing business in a 
democracy. All of that makes this a very complicated job, and a 
job which requires a look at each and every Federal facility as 
a separate security issue.
    The question of what we do when we get down to what I often 
refer to as the last line of defense, the human assets we have 
in the buildings, which are mostly contract guards, but also 
Federal Protective Service officers.
    There are lots of issues which we are going to bring up 
today. They have to do with training. They have to do with 
costs. Whether the guards that we employ are Federal employees 
or private sector, we need to consider how much money it is 
going to cost us.
    I think there may be opportunities in which we can find 
that we need fewer human assets on site, and replace them 
possibly with more roving patrols and with different sorts of 
technology and different sorts of access procedures to our 
buildings.
    I would just tell you, we are working as hard as we can 
with the Federal Protective Service. We have liaisons in each 
one of our 11 regions, who are specifically dedicated to 
working with the Federal Protective Service on doing asset 
security risk analyses on our buildings, and working day-to-day 
to make sure that security is done as seamlessly as possible.
    Two days ago, we held a--Federal Protective Service, which 
runs the Interagency Security Committee--held a conference in 
which we discussed the physical standards which apply to the 
construction and renovation of our buildings. We had some very 
good conversations about the issues I have raised here about 
balancing security openness and mitigating our threats in the 
most effective way.
    Finally I will just say, I will defer mostly to the 
Department of Homeland Security and FPS on the issue that 
Congressman King raised about the upcoming trial in New York. I 
will just--I will note that we have had terrorist trials in 
that venue before. As you know, Congressman, the State and the 
city also have courts nearby. We have a lot of assets that we 
rely on, quite frankly, from the city of New York and the 
State. But we also do have Federal assets. We do have a pretty 
robust Federal Protective Service presence in New York City.
    The physical arrangement of the courthouse and lockup near 
there, the detention center near there, I believe are among the 
things that made us decide that this is a venue that we can 
protect. But it will require more assets. It will require some 
inconvenience to employees and visitors and drivers in New York 
City.
    Thank you, and I am happy to answer any questions, 
obviously.
    [The statement of Mr. Peck follows:]

                  Prepared Statement of Robert A. Peck
                           November 18, 2009

    Good morning Chairman Thompson, Ranking Member King, and Members of 
this committee. My name is Robert A. Peck and I am the Commissioner of 
the General Services Administration's (GSA's) Public Buildings Service 
(PBS). Thank you for inviting me to appear before you today to discuss 
GSA's role and expectations in the security of our facilities.
    We have no more important responsibility than safeguarding our 
roughly 1 million Federal tenants, housed in GSA facilities, and their 
visitors in a manner that reflects the values of American democracy and 
the responsibility of our Government to be open to the citizens it 
serves. Our buildings must be secure and at the same time must also be 
inviting and a good neighbor in their communities. This is a tall 
order.
    GSA's PBS is one of the largest and most diversified public real 
estate organizations in the world. Our real estate inventory consists 
of over 8,600 owned and leased assets with nearly 354 million square 
feet of space across all 50 States, 6 territories, and the District of 
Columbia. Our portfolio is composed primarily of office buildings, 
courthouses, land ports of entry, and warehouses. GSA's goal is to 
manage these assets efficiently, while delivering and maintaining 
superior workplaces at best value to our client agencies and the 
American taxpayer. Achieving this goal requires a complete 
understanding of the threats facing our facilities, the accurate and 
timely identification of vulnerabilities, and a clear understanding of 
the tools available to us to overcome the vulnerabilities and counter 
the threats.
    We rely on the Federal Protective Service (FPS) to conduct risk 
assessments of our facilities. These assessments and additional input 
from FPS help inform how we design, acquire, and run our buildings.
    Like all executive branch agencies, GSA and FPS are subject to the 
security standards established by the Interagency Security Committee 
(ISC). The ISC's membership includes representatives from more than 40 
Executive departments and agencies, in addition to the U.S. Courts.
    GSA is the only Federal agency whose mission is real property 
management that is represented in the ISC. Through our participation, 
we ensure that the real property perspective is included in all 
standards. Specifically, PBS engages representatives from all 
disciplines in developing our input: Leasing specialists, architects, 
engineers, portfolio management professionals, customer service 
representatives, child care center specialists, and building management 
officials.
    We are encouraged that the ISC is working to develop new standards 
that are moving in a direction that allows greater flexibility about 
risk-based allocation. At GSA, we firmly believe in the need for risk-
based allocation of resources throughout our portfolio. Even in the 
area of physical security, this is particularly important. Funding and 
efforts must first be focused on the highest risk facilities, and 
against the highest risk threats.
    GSA remains committed to providing our customers with a 
comprehensive work environment to allow them to complete their mission. 
We work continuously with FPS to assess, support, and safeguard our 
Federal facilities. I met recently with FPS leadership in Kansas City 
to advance the risk-based allocation approach to security.
    In closing, I'd like to reiterate that PBS is committed to 
providing our customers with the most effective working environments we 
can. Current standards dictate security measures that applied across a 
broad range of facilities. Integrating a new risk-based approach 
provides us with the most flexibility to address site-specific 
conditions and balance necessary security measures with openness of our 
public buildings.
    I look forward to working with the committee as we continue to make 
great strides in this area. Thank you for allowing me to testify before 
you today. I welcome any questions you might have.

    Chairman Thompson. Thank you for your testimony.
    I now recognize Director Goldstein to summarize his 
statement for 5 minutes.

      STATEMENT OF MARK L. GOLDSTEIN, DIRECTOR, PHYSICAL 
    INFRASTRUCTURE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Goldstein. Thank you, Mr. Chairman and Members of the 
committee.
    Thank you for the opportunity to testify on the Federal 
Protective Service and its progress in meeting its mission of 
protecting Federal buildings, employees, and citizens.
    As you know, FPS, within the Department of Homeland 
Security, is responsible for providing law enforcement and 
related security services for nearly 9,000 Federal facilities.
    In 2004, GAO identified a set of key protection practices 
from the collective practices of Federal agencies in the 
private sector, which included allocation of resources, using 
risk management, strategic management of human capital, 
leveraging technology, information sharing and coordination, 
and performance measurement and testing.
    My testimony today is based on a GAO report being released, 
as well as past reports and testimonies, and discusses 
limitations FPS faces in protecting GSA buildings and resulting 
vulnerabilities, and actions that FPS was taking.
    To perform this work, we used the key practices as our 
criteria, visited a number of GSA buildings, surveyed tenant 
agencies, analyzed pertinent laws, and also conducted covert 
testings at 10 judgmentally selected, high-security buildings 
in four cities.
    FPS's approach to securing GSA buildings reflects some 
aspects of key protection practices. However, GAO found 
limitations in each area and identified vulnerabilities.
    More specifically, FPS faces obstacles in allocating 
resources using risk management. FPS uses an outdated risk 
assessment tool and a subjective, time-consuming process to 
assess risk. In addition, resource allocation decisions are the 
responsibility of GSA and tenant agencies. This leads to 
uncertainty about whether risks are being mitigated.
    Also, FPS continues to struggle with funding challenges 
that impede its ability to allocate resources effectively, and 
a lack of equity remains in the fees paid by tenants.
    Second, FPS does not have a strategic human capital 
management plan to guide its current and future workforce 
planning efforts, making it difficult to discern how effective 
its transition to an inspector-based workforce will be.
    Furthermore, because contract guards were not properly 
trained and did not comply with post orders, GAO investigators 
concealing components for an improvised explosive device passed 
undetected by FPS guards at 10 of 10 high-security facilities 
in four major cities. Many contract guards lack required 
certifications to stand post in Federal facilities.
    Third, FPS lacks a systematic approach for leveraging 
technology, and inspectors do not provide tenant agencies with 
an analysis of alternative technologies, the cost and the 
associated reduction in risk. As a result, there is limited 
assurance that the recommendations inspectors make are the best 
available alternatives, and tenant agencies must make resource 
allocation decisions without key information.
    Fourth, FPS has developed information-sharing and 
coordination mechanisms with GSA and tenant agencies, but there 
is inconsistency in the type of information shared and the 
frequency of coordination.
    Fifth, FPS lacks a reliable data management system for 
accurately tracking performance measurement and testing. 
Without such a system, it is difficult for FPS to evaluate and 
improve the effectiveness of its efforts, allocate resources, 
or make informed risk management decisions.
    FPS is taking steps to better protect GSA buildings. For 
example, FPS is developing a new risk assessment program, and 
has recently focused on improving the oversight of its contract 
guard program. Additionally, GAO has recommended that FPS 
implements specific actions to make greater use of key 
practices and otherwise improve security.
    However, FPS has not completed many related corrective 
actions, and FPS faces implementation challenges to achieve 
those objectives, as well.
    Nonetheless, adhering to key practices and implementing 
GAO's recommendations in specific areas would enhance FPS's 
chances for future success, and could position FPS to become a 
leader and benchmark agency for facility protection in the 
Federal Government.
    This concludes my statement. I would be happy to answer any 
questions the committee may have.
    [The statement of Mr. Goldstein follows:]

                Prepared Statement of Mark L. Goldstein
                           November 18, 2009

                             GAO HIGHLIGHTS

    Highlights of GAO-10-236T, a testimony to the Chairman, Committee 
on Homeland Security, House of Representatives.

Why GAO Did This Study
    The Federal Protective Service (FPS) within the Department of 
Homeland Security (DHS) is responsible for providing law enforcement 
and related security services for nearly 9,000 Federal facilities under 
the control and custody of the General Services Administration (GSA). 
In 2004 GAO identified a set of key protection practices from the 
collective practices of Federal agencies and the private sector, which 
included allocation of resources using risk management, strategic 
management of human capital, leveraging of technology, information 
sharing and coordination, and performance measurement and testing.
    This testimony is based on past reports and testimonies and 
discusses: (1) Limitations FPS faces in protecting GSA buildings and 
resulting vulnerabilities; and (2) actions FPS is taking. To perform 
this work, GAO used its key practices as criteria, visited a number of 
GSA buildings, surveyed tenant agencies, analyzed pertinent laws and 
DHS and GSA documents, conducted covert testing at 10 judgmentally 
selected high-security buildings in four cities, and interviewed 
officials from DHS, GSA, and tenant agencies, and contractors and 
guards.

What GAO Recommends
    GAO makes no new recommendations in this testimony. DHS concurred 
with GAO's past recommendations for FPS, but FPS has not completed many 
related corrective actions.

   HOMELAND SECURITY.--GREATER ATTENTION TO KEY PRACTICES WOULD HELP 
         ADDRESS SECURITY VULNERABILITIES AT FEDERAL BUILDINGS

What GAO Found
    FPS's approach to securing GSA buildings reflects some aspects of 
key protection practices; however, GAO found limitations in each area 
and identified vulnerabilities. More specifically:
  <bullet> FPS faces obstacles in allocating resources using risk 
        management. FPS uses an outdated risk assessment tool and a 
        subjective, time-consuming process to assess risk. In addition, 
        resource allocation decisions are the responsibility of GSA and 
        tenant agencies. This leads to uncertainty about whether risks 
        are being mitigated. Also, FPS continues to struggle with 
        funding challenges that impede its ability to allocate 
        resources effectively.
  <bullet> FPS does not have a strategic human capital management plan 
        to guide its current and future workforce planning efforts, 
        making it difficult to discern how effective its transition to 
        an inspector-based workforce will be. Furthermore, because 
        contract guards were not properly trained and did not comply 
        with post orders, GAO investigators concealing components for 
        an improvised explosive device passed undetected by FPS guards 
        at 10 of 10 high-security facilities in four major cities.
  <bullet> FPS lacks a systematic approach for leveraging technology, 
        and inspectors do not provide tenant agencies with an analysis 
        of alternative technologies, their cost, and the associated 
        reduction in risk. As a result, there is limited assurance that 
        the recommendations inspectors make are the best available 
        alternatives, and tenant agencies must make resource allocation 
        decisions without key information.
  <bullet> FPS has developed information sharing and coordination 
        mechanisms with GSA and tenant agencies, but there is 
        inconsistency in the type of information shared and the 
        frequency of coordination.
  <bullet> FPS lacks a reliable data management system for accurately 
        tracking performance measurement and testing. Without such a 
        system, it is difficult for FPS to evaluate and improve the 
        effectiveness of its efforts, allocate resources, or make 
        informed risk management decisions.
    FPS is taking actions to better protect GSA buildings, in part as a 
result of GAO's recommendations. For example, FPS is developing a new 
risk assessment program and has recently focused on improving oversight 
of its contract guard program. Additionally, GAO has recommended that 
FPS implement specific actions to make greater use of key practices and 
otherwise improve security. However, FPS has not completed many related 
corrective actions and FPS faces implementation challenges as well. 
Nonetheless, adhering to key practices and implementing GAO's 
recommendations in specific areas would enhance FPS's chances for 
future success, and could position FPS to become a leader and benchmark 
agency for facility protection in the Federal Government.
    Mr. Chairman and Members of the committee: We are pleased to be 
here to discuss the Federal Protective Service's (FPS) efforts to 
ensure the protection of the more than 1 million Government employees, 
as well as members of the public, who work in and visit the nearly 
9,000 Federal facilities that are under the control and custody of the 
General Services Administration (GSA). There has not been a large-scale 
attack on a domestic Federal facility since the terrorist attacks of 
September 11, 2001, and the 1995 bombing of the Alfred P. Murrah 
Federal Building in Oklahoma City. Nevertheless, the shooting death 
this past year of a guard at the U.S. Holocaust Memorial Museum--though 
not a Federal facility--demonstrates the continued vulnerability of 
public buildings. Moreover, the challenge of protecting Federal real 
property is one of the major reasons for GAO's designation of Federal 
real property management as a high-risk area.\1\
---------------------------------------------------------------------------
    \1\ GAO, High Risk Series: An Update, GAO-09-271 (Washington, DC: 
Jan. 1, 2009).
---------------------------------------------------------------------------
    FPS--within the Department of Homeland Security (DHS)--is 
authorized to protect the buildings, grounds, and property that are 
under the control and custody of GSA, as well as the persons on the 
property; to enforce Federal laws and regulations aimed at protecting 
GSA buildings and persons on the property; and to investigate offenses 
against these buildings and persons.\2\ FPS conducts its mission by 
providing security services through two types of activities: (1) 
Physical security activities--conducting building risk assessments of 
facilities and recommending countermeasures aimed at preventing 
incidents at facilities--and (2) law enforcement activities--
proactively patrolling facilities, responding to incidents, conducting 
criminal investigations, and exercising arrest authority. To accomplish 
its mission of protecting Federal facilities, FPS currently has a 
budget \3\ of around $1 billion, nearly 1,200 full-time employees, and 
about 15,000 contract security guards deployed at Federal facilities 
across the country.
---------------------------------------------------------------------------
    \2\ 40 U.S.C.  1315.
    \3\ Funding for FPS is provided through revenues and collections of 
security fees charged to building tenants in FPS-protected property. 
The revenues and collections are credited to FPS's appropriation and 
are available until expended for the protection of Federally-owned and 
leased buildings and for FPS's operations.
---------------------------------------------------------------------------
    We have identified a set of key facility protection practices from 
the collective practices of Federal agencies and the private sector to 
provide a framework for guiding agencies' protection efforts and 
addressing challenges.\4\ The key practices essentially form the 
foundation of a comprehensive approach to building protection. We have 
used these key practices to evaluate how FPS protects GSA buildings and 
will focus on the following five key practices for this testimony:\5\
---------------------------------------------------------------------------
    \4\ GAO, Homeland Security: Further Actions Needed to Coordinate 
Federal Agencies' Facility Protection Efforts and Promote Key 
Practices, GAO-05-49 (Washington, DC: Nov. 30, 2004).
    \5\ We did not include the key practice of aligning assets to 
mission because GSA, not FPS, controls the asset inventory.
---------------------------------------------------------------------------
  <bullet> Allocation of resources using risk management.--Identify 
        threats, assess vulnerabilities, and determine critical assets 
        to protect, and use information on these and other elements to 
        develop countermeasures and prioritize the allocation of 
        resources as conditions change.
  <bullet> Strategic management of human capital.--Manage human capital 
        to maximize Government performance and ensure accountability in 
        asset protection through, for example, recruitment of skilled 
        staff, training, and retention.
  <bullet> Leveraging of technology.--Select technologies to enhance 
        asset security through methods like access control, detection, 
        and surveillance systems. This involves not only using 
        technology, but also ensuring positive returns on investments 
        in the form of reduced vulnerabilities.
  <bullet> Information sharing and coordination.--Establish means of 
        coordinating and sharing security and threat information 
        internally, within large organizations, and externally, with 
        other Government entities and the private sector.
  <bullet> Performance measurement and testing.--Use metrics, such as 
        implementation timelines, and active testing, such as 
        unannounced on-site assessments, to ensure accountability for 
        achieving program goals and improving security at facilities.
    This testimony is based on past reports and testimonies \6\ and 
discusses: (1) Limitations FPS faces in protecting GSA buildings and 
resulting vulnerabilities and (2) actions FPS is taking to address 
challenges. Work for these past reports and testimonies included using 
our key practices as a framework for assessing facility protection 
efforts by FPS management and at individual buildings. We also visited 
FPS regions and selected GSA buildings to assess FPS activities first-
hand. We surveyed a sample of 1,398 Federal officials who work in GSA 
buildings in FPS's 11 regions and are responsible for collaborating 
with FPS on security issues. Additionally, we reviewed training and 
certification data for 663 randomly selected guards in 6 of FPS's 11 
regions. Because of the sensitivity of some of the information in our 
prior work, we cannot specifically identify the locations of the 
incidents discussed. We also conducted covert testing at 10 
judgmentally selected high-risk facilities in four cities. For all of 
our work, we reviewed related laws and directives, interviewed 
officials, and analyzed documents and data from DHS and GSA, and 
interviewed tenant agency representatives, contractors, and guards. The 
previous work on which this testimony is based was conducted in 
accordance with generally accepted Government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
---------------------------------------------------------------------------
    \6\ This testimony draws upon five primary sources. We reported on 
FPS's allocation of resources using risk management, leveraging of 
technology, and information sharing and coordination in GAO, Homeland 
Security: Greater Attention to Key Practices Would Improve the Federal 
Protective Service's Approach to Facility Protection, GAO-10-142 
(Washington, DC: Oct. 23, 2009). We reported on FPS's strategic 
management of human capital in GAO, Homeland Security: Federal 
Protective Service Has Taken Some Initial Steps to Address Its 
Challenges, but Vulnerabilities Still Exist, GAO-09-1047T (Washington, 
DC: Sept. 23, 2009); GAO, Homeland Security: Preliminary Results Show 
Federal Protective Service's Ability to Protect Federal Facilities Is 
Hampered By Weaknesses in Its Contract Security Guard Program, GAO-09-
859T (Washington, DC: July 8, 2009); and GAO, Homeland Security: 
Federal Protective Service Should Improve Human Capital Planning and 
Better Communicate with Tenants, GAO-09-749 (Washington, DC: July 30, 
2009). We reported on FPS's performance management and testing in GAO, 
Homeland Security: The Federal Protective Service Faces Several 
Challenges That Hamper Its Ability to Protect Federal Facilities, GAO-
08-683 (Washington, DC: June 11, 2008).
---------------------------------------------------------------------------
      FPS FACES CHALLENGES IN MANY AREAS, RAISING CONCERNS ABOUT 
                            VULNERABILITIES

Risk Management Approach Is Inadequate and Has Limitations
    FPS assesses risk and recommends countermeasures to GSA and tenant 
agencies; however, FPS's ability to influence the allocation of 
resources using risk management is limited because resource allocation 
decisions are the responsibility of GSA and tenant agencies, which may 
be unwilling to fund the countermeasures FPS recommends. We have found 
that under the current risk management approach, the security equipment 
that FPS recommends and is responsible for acquiring, installing, and 
maintaining may not be implemented if tenant agencies are unwilling to 
fund it.\7\ For example, in August 2007 FPS recommended a security 
equipment countermeasure--the upgrade of a surveillance system shared 
by two high-security locations that, according to FPS officials, would 
cost around $650,000. While members of one building security committee 
(BSC) told us they approved spending between $350,000 and $375,000 to 
fund their agencies' share of the countermeasure, they said that the 
BSC of the other location would not approve funding; therefore, FPS 
could not upgrade the system it had recommended. In November 2008 FPS 
officials told us that they were moving ahead with the project by 
drawing on unexpended revenues from the two locations' building-
specific fees and the funding that was approved by one of the BSCs. 
Furthermore, FPS officials, in May 2009, told us that all cameras had 
been repaired and all monitoring and recording devices had been 
replaced, and that the two BSCs had approved additional upgrades and 
that FPS was implementing them. As we reported in June 2008, we have 
found other instances in which recommended security countermeasures 
were not implemented at some of the buildings we visited because BSC 
members could not agree on which countermeasures to implement or were 
unable to obtain funding from their agencies.\8\
---------------------------------------------------------------------------
    \7\ GAO-10-142.
    \8\ GAO-08-683.
---------------------------------------------------------------------------
    Compounding this situation, FPS takes a building-by-building 
approach to risk management, using an outdated risk assessment tool to 
create building security assessments (BSA), rather than taking a more 
comprehensive, strategic approach and assessing risks among all 
buildings in GSA's inventory and recommending countermeasure priorities 
to GSA and tenant agencies. As a result, the current approach provides 
less assurance that the most critical risks at Federal buildings across 
the country are being prioritized and mitigated. Also, GSA and tenant 
agencies have concerns about the quality and timeliness of FPS's risk 
assessment services and are taking steps to obtain their own risk 
assessments. For example, GSA officials told us they have had 
difficulties receiving timely risk assessments from FPS for space GSA 
is considering leasing. These risk assessments must be completed before 
GSA can take possession of the property and lease it to tenant 
agencies. An inefficient risk assessment process for new lease projects 
can add costs for GSA and create problems for both GSA and tenant 
agencies that have been planning for a move. Therefore, GSA is updating 
a risk assessment tool that it began developing in 1998, but has not 
recently used, to better ensure the timeliness and comprehensiveness of 
these risk assessments. GSA officials told us that in the future they 
may use this tool for other physical security activities, such as 
conducting other types of risk assessments and determining security 
countermeasures for new facilities. Additionally, although tenant 
agencies have typically taken responsibility for assessing risk and 
securing the interior of their buildings, assessing exterior risks will 
require additional expertise and resources. This is an inefficient 
approach considering that tenant agencies are paying FPS to assess 
building security.
    Finally, FPS continues to struggle with funding challenges that 
impede its ability to allocate resources to more effectively manage 
risk. FPS faces challenges in ensuring that its fee-based funding 
structure accounts for the varying levels of risk and types of services 
provided at Federal facilities. FPS funds its operations through 
security fees charged to tenant agencies. However, FPS's basic security 
fee, which funds most of its operations, does not account for the risk 
faced by specific buildings, the level of service provided, or the cost 
of providing services, raising questions about equity.\9\ FPS charges 
Federal agencies the same basic security fee regardless of the 
perceived threat to a particular building or agency. In fiscal year 
2009, FPS charged 66 cents per square foot for basic security. Although 
FPS categorizes buildings according to security levels based on its 
assessment of each building's risk and size, this assessment does not 
affect the security fee FPS charges. For example, Level I facilities 
typically face less risk because they are generally small storefront-
type operations with a low level of public contact, such as a Social 
Security Administration office. However, these facilities are charged 
the same basic security fee of 66 cents per square foot as a Level IV 
facility that has a high volume of public contact and may contain high-
risk law enforcement and intelligence agencies and highly sensitive 
Government records. We also have reported that basing Government fees 
on the cost of providing a service promotes equity, especially when the 
cost of providing the service differs significantly among different 
users, as is the case with FPS. In our June 2008 report, we recommended 
that FPS improve its use of the fee-based system by developing a method 
to accurately account for the cost of providing security services to 
tenant agencies and ensuring that its fee structure takes into 
consideration the varying levels of risk and service provided at GSA 
facilities.\10\ We also recommended an evaluation of whether FPS's 
current use of a fee-based system or an alternative funding mechanism 
is the most appropriate manner to fund the agency. While DHS agreed 
with these recommendations, FPS has not fully implemented them.
---------------------------------------------------------------------------
    \9\ Some of the basic security services covered by this fee include 
law enforcement activities at GSA facilities, preliminary 
investigations, the capture and detention of suspects, and completion 
of BSAs.
    \10\ GAO-08-683.
---------------------------------------------------------------------------
Improvements Needed in Human Capital Planning and Contract Guard 
        Management
    FPS does not have a strategic human capital plan to guide its 
current and future workforce planning efforts, including effective 
processes for training, retention, and staff development. Instead, FPS 
has developed a short-term hiring plan that does not include key human 
capital principles, such as determining an agency's optimum staffing 
needs. Moreover, FPS has been transitioning to an inspector-based 
workforce, thus eliminating the police officer position and relying 
primarily on FPS inspectors for both law enforcement and physical 
security activities. FPS believes that this change will ensure that its 
staff has the right mix of technical skills and training needed to 
accomplish its mission. However, FPS's ability to provide law 
enforcement services under its inspector-based workforce approach may 
be diminished because FPS will rely on its inspectors to provide these 
services and physical security services simultaneously. In the absence 
of a strategic human capital plan, it is difficult to discern how 
effective an inspector-based workforce approach will be. The lack of a 
human capital plan has also contributed to inconsistent approaches in 
how FPS regions and headquarters are managing human capital activities. 
For example, FPS officials in some of the regions we visited said they 
implement their own procedures for managing their workforce, including 
processes for performance feedback, training, and mentoring. 
Additionally, FPS does not collect data on its workforce's knowledge, 
skills, and abilities. These elements are necessary for successful 
workforce planning activities, such as identifying and filling skill 
gaps and succession planning. We recently recommended that FPS improve 
how it collects data on its workforce's knowledge, skills, and 
abilities to help it better manage and understand current and future 
workforce needs; and use these data in the development and 
implementation of a long-term strategic human capital plan that 
addresses key principles for effective strategic workforce 
planning.\11\ DHS concurred with our recommendations.
---------------------------------------------------------------------------
    \11\ GAO-09-749.
---------------------------------------------------------------------------
    Furthermore, FPS did not meet its fiscal year 2008 mandated 
deadline of increasing its staffing level to no fewer than 1,200 full-
time employees by July 31, 2008, and instead met this staffing level in 
April 2009.\12\ FPS's staff has steadily declined since 2004 and 
critical law enforcement services have been reduced or eliminated. For 
example, FPS has eliminated its use of proactive patrol to prevent or 
detect criminal violations at many GSA buildings. According to some FPS 
officials at regions we visited, not providing proactive patrol has 
limited its law enforcement personnel to a reactive force.\13\ 
Additionally, officials stated that in the past, proactive patrol 
permitted its police officers and inspectors to identify and apprehend 
individuals that were surveilling GSA buildings. In contrast, when FPS 
is not able to patrol Federal buildings, there is increased potential 
for illegal entry and other criminal activity. In one city we visited, 
a deceased individual had been found in a vacant GSA facility that was 
not regularly patrolled by FPS. FPS officials stated that the deceased 
individual had been inside the building for approximately 3 months.
---------------------------------------------------------------------------
    \12\ This mandate in DHS's fiscal year 2008 appropriation act was 
effective for fiscal year 2008 only, since mandates in annual 
appropriation acts are presumed to be applicable for that fiscal year 
unless specified to the contrary. DHS's appropriation act for fiscal 
year 2009 also mandated that FPS have no fewer than 1,200 full-time 
employees. See Pub. L. No. 110-161, Div. E, 121 Stat. 1844, 2051-2052 
(2007) and Pub. L. No. 110-329, Div D. 1222 Stat. 3574, 3659-3660 
(2008).
    \13\ GAO-08-683.
---------------------------------------------------------------------------
    FPS does not fully ensure that its contract security guards have 
the training and certifications required to be deployed to a GSA 
building.\14\ We have noted that the effectiveness of a risk management 
approach depends on the involvement of experienced and professional 
security personnel.\15\ Further, that the chances of omitting major 
steps in the risk management process increase if personnel are not well 
trained in applying risk management. FPS requires that all prospective 
guards complete about 128 hours of training including 8 hours of X-ray 
and magnetometer training. However, in one region, FPS has not provided 
the X-ray or magnetometer training to its 1,500 guards since 2004. 
Nonetheless, these guards are assigned to posts at GSA buildings. X-ray 
training is critical because guards control access points at buildings. 
Insufficient X-ray and magnetometer training may have contributed to 
several incidents at GSA buildings in which guards were negligent in 
carrying out their responsibilities. For example, at a Level IV \16\ 
Federal facility in a major metropolitan area, an infant in a carrier 
was sent through an X-ray machine due to a guard's negligence.\17\ 
Specifically, according to an FPS official in that region, a woman with 
her infant in a carrier attempted to enter the facility, which has 
child care services. While retrieving her identification, the woman 
placed the carrier on the X-ray machine. Because the guard was not 
paying attention and the machine's safety features had been 
disabled,\18\ the infant in the carrier was sent through the X-ray 
machine. FPS investigated the incident and dismissed the guard; 
however, the guard subsequently sued FPS for not providing the required 
X-ray training. The guard won the suit because FPS could not produce 
any documentation to show that the guard had received the training, 
according to an FPS official. In addition, FPS officials from that 
region could not tell us whether the X-ray machine's safety features 
had been repaired. Additionally, we found that FPS does not have a 
fully reliable system for monitoring and verifying guard training and 
certification requirements. We reviewed 663 randomly selected guard 
records and found that 62 percent of the guards had at least one 
expired certification, including a declaration that guards have not 
been convicted of domestic violence, which make them ineligible to 
carry firearms.
---------------------------------------------------------------------------
    \14\ GAO-09-859T.
    \15\ GAO-05-49.
    \16\ At the time of our review, a Level IV facility had more than 
450 Federal employees, more than 150,000 square feet, a high volume of 
public contact, and tenant agencies that could include high-risk law 
enforcement and intelligence agencies, courts, judicial offices, and 
highly sensitive Government records.
    \17\ X-ray machines are hazardous because of the potential 
radiation exposure. In contrast, magnetometers do not emit radiation 
and are used to detect metal.
    \18\ With this safety feature disabled, the X-ray machine's belt 
was operating continuously although the guard was not present.
---------------------------------------------------------------------------
    We also found that some guards were not provided building-specific 
training, such as what actions to take during a building evacuation or 
a building emergency.\19\ This lack of training may have contributed to 
several incidents where guards neglected their assigned 
responsibilities. For example,
---------------------------------------------------------------------------
    \19\ GAO-09-859T.
---------------------------------------------------------------------------
  <bullet> at a Level IV facility, the guards did not follow evacuation 
        procedures and left two access points unattended, thereby 
        leaving the facility vulnerable;
  <bullet> at a Level IV facility, the guard allowed employees to enter 
        the building while an incident involving suspicious packages 
        was being investigated; and,
  <bullet> at a Level III facility,\20\ the guard allowed employees to 
        access the area affected by a suspicious package, which was 
        required to be evacuated.
---------------------------------------------------------------------------
    \20\ At the time of our review, a Level III facility had between 
151 and 450 Federal employees, 80,000 to 150,000 square feet, and a 
moderate to high volume of public contact.
---------------------------------------------------------------------------
    FPS has limited assurance that its guards are complying with post 
orders.\21\ It does not have specific National guidance on when and how 
guard inspections should be performed. FPS's inspections of guard posts 
at GSA buildings are inconsistent and the quality varied in the six 
regions we examined. We also found that guard inspections are typically 
completed by FPS during regular business hours and in locations where 
FPS has a field office, and seldom on nights or weekends. However, on 
an occasion when FPS officials conducted a post inspection at night, 
they found a guard asleep at his post after taking a pain-killer 
prescription drug. FPS also found other incidents at high-security 
facilities where guards neglected or inadequately performed their 
assigned responsibilities. For example, a guard failed to recognize or 
did not properly X-ray a box containing handguns at the loading dock at 
a facility. FPS became aware of the situation because the handguns were 
delivered to FPS.
---------------------------------------------------------------------------
    \21\ GAO-09-859T.
---------------------------------------------------------------------------
    Because guards were not properly trained and did not comply with 
post orders, our investigators--with the components for an improvised 
explosive device (IED) concealed on their persons--passed undetected 
through access points controlled by FPS guards at 10 of 10 Level IV 
facilities in four major cities where GAO conducted covert tests.\22\ 
The specific components for this device, items used to conceal the 
device components, and the methods of concealment that we used during 
our covert testing are classified, and thus are not discussed in this 
testimony. Of the 10 Level IV facilities our investigators penetrated, 
8 were Government-owned and 2 were leased facilities. The facilities 
included district offices of a U.S. Senator and a U.S. Representative 
as well as agencies of the Departments of Homeland Security, 
Transportation, Health and Human Services, Justice, State, and others. 
The two leased facilities did not have any guards at the access control 
points at the time of our testing. Using publicly available 
information, our investigators identified a type of device that a 
terrorist could use to cause damage to a Federal facility and threaten 
the safety of Federal workers and the general public. The device was an 
IED made up of two parts--a liquid explosive and a low-yield 
detonator--and included a variety of materials not typically brought 
into a Federal facility by employees or the public. Although the 
detonator itself could function as an IED, investigators determined 
that it could also be used to set off a liquid explosive and cause 
significantly more damage. To ensure safety during this testing, we 
took precautions so that the IED would not explode. For example, we 
lowered the concentration level of the material.\23\ To gain entry into 
each of the 10 Level IV facilities, our investigators showed a photo 
identification (a State driver's license) and walked through the 
magnetometers without incident. Our investigators also placed their 
briefcases with the IED material on the conveyor belt of the X-ray 
machine, but the guards detected nothing. Furthermore, our 
investigators did not receive any secondary searches from the guards 
that might have revealed the IED material that they brought into the 
facilities. At security checkpoints at 3 of the 10 facilities, our 
investigators noticed that the guard was not looking at the X-ray 
screen as some of the IED components passed through the machine. A 
guard questioned an item in the briefcase at one of the 10 facilities 
but the materials were subsequently allowed through the X-ray machines. 
At each facility, once past the guard screening checkpoint, our 
investigators proceeded to a restroom and assembled the IED. At some of 
the facilities, the restrooms were locked. Our investigators gained 
access by asking employees to let them in. With the IED completely 
assembled in a briefcase, our investigators walked freely around 
several floors of the facilities and into various Executive and 
Legislative branch offices, as described above.
---------------------------------------------------------------------------
    \22\ GAO-09-859T.
    \23\ Tests that we performed at a National laboratory in February 
2006 and July 2007 demonstrated that a terrorist using these devices 
could cause severe damage to a Federal facility and threaten the safety 
of Federal workers and the general public. Our investigators obtained 
the components for these devices at local stores and over the internet 
for less than $150.
---------------------------------------------------------------------------
Systematic Approach for Cost-Effectively Leveraging Technology Is 
        Lacking
    Leveraging technology is a key practice over which FPS has somewhat 
more control, but FPS does not have a comprehensive approach for 
identifying, acquiring, and assessing the cost-effectiveness of the 
security equipment that its inspectors recommend. Individual FPS 
inspectors have considerable latitude in determining which technologies 
and other countermeasures to recommend, but the inspectors receive 
little training and guidance in how to assess the relative cost-
effectiveness of these technologies or determine the expected return on 
investment. FPS officials told us that inspectors make technology 
decisions based on the initial training they receive, personal 
knowledge and experience, and contacts with vendors. FPS inspectors 
receive some training in identifying and recommending security 
technologies as part of their initial FPS physical security training. 
Since FPS was transferred to DHS in 2003, its refresher training 
program for inspectors has primarily focused on law enforcement. 
Consequently, inspectors lack recurring technology training. 
Additionally, FPS does not provide inspectors with specialized guidance 
and standards for cost-effectively selecting technology. In the absence 
of specific guidance, inspectors follow the Department of Justice 
minimum countermeasure standards \24\ and other relevant Interagency 
Security Committee standards,\25\ but these standards do not assist 
users in selecting cost-effective technologies. Moreover, the document 
that FPS uses to convey its countermeasure recommendations to GSA and 
tenant agencies--the BSA executive summary--includes cost estimates but 
no analysis of alternatives. As a result, GSA and tenant agencies have 
limited assurance that the investments in technologies and other 
countermeasures that FPS inspectors recommend are cost-effective, 
consistent across buildings, and the best available alternatives.
---------------------------------------------------------------------------
    \24\ U.S. Department of Justice, Vulnerability Assessment of 
Federal Facilities, (Washington, DC, June 28, 1995). The Department of 
Justice standards recommend minimum security measures for Federal 
buildings.
    \25\ Following the Oklahoma City bombing, Executive Order 12977 
called for the creation of an interagency security committee to address 
the quality and effectiveness of physical security requirements for 
Federal facilities by developing and evaluating security standards. The 
Interagency Security Committee has representation from all major 
Federal departments and agencies.
---------------------------------------------------------------------------
    For example, at one location we visited, an explosives detection 
dog was used to screen mail that is distributed elsewhere.\26\ In 2006, 
FPS had recommended, based on the results of its risk analysis, the use 
of this dog and an X-ray machine, although at the time of our visit 
only the dog was being used. Moreover, the dog and handler work 12-hour 
shifts Monday through Friday when most mail is delivered and shipped, 
and the dog needs a break every 7 minutes. The GSA regional security 
officials \27\ we spoke with questioned whether this approach was more 
effective and efficient than using an on-site enhanced X-ray machine 
that could detect biological and chemical agents as well as explosives 
and could be used anytime. In accordance with its policies, FPS 
conducted a BSA of the site in 2008 and determined that using an 
enhanced X-ray machine and an explosives detection dog would bring the 
projected threat rating of the site down from moderate to low. FPS 
included estimated one-time installation and recurring costs in the BSA 
and executive summary, but did not include the estimated cost and risk 
of the following mail screening options: (1) Usage of the dog and the 
additional countermeasure; (2) usage of the additional countermeasure 
only; and (3) usage of the dog only. Consequently, tenant agency 
representatives would have to investigate the cost and risk 
implications of these options on their own to make an informed resource 
allocation decision.
---------------------------------------------------------------------------
    \26\ GAO-10-142.
    \27\ In 2006 GSA established the Building Security and Policy 
Division within its Public Buildings Service to oversee its security 
operations and policies and liaise with FPS. Additionally, the division 
developed the Regional Security Network, which consists of several 
staff per GSA region to further enhance coordination with FPS at the 
regional and building levels, and to carry out GSA security policy in 
collaboration with FPS and tenant agencies.
---------------------------------------------------------------------------
Information Sharing and Coordination Practices Lack Consistency
    It is critical that FPS--as the provider of law enforcement and 
related security services for GSA buildings--and GSA--as the manager of 
these properties--have well-established lines of communication with 
each other and with tenant agencies to ensure that all parties are 
aware of the ever-changing risks in a dynamic threat environment and 
that FPS and GSA are taking appropriate actions to reduce 
vulnerabilities. While FPS and GSA top management have established 
communication channels, the types of information shared at the regional 
and building levels are inconsistent, and overall, FPS and GSA disagree 
over what information should be shared. For example, the memorandum of 
agreement between DHS and GSA specifies that FPS will provide quarterly 
briefings at the regional level, but FPS had not been providing them 
consistently across all regions. FPS resumed the practice in October 
2008, however, GSA security officials said that these briefings mostly 
focused on crime statistics and did not constitute comprehensive threat 
analyses. Additionally, FPS is only required to meet formally with GSA 
property managers and tenant agencies as part of the BSA process--an 
event that occurs every 2 to 5 years, depending on a building's 
security level. We identified information sharing gaps at several Level 
III and IV sites that we visited, and found that in some cases these 
deficiencies led to decreased security awareness and increased 
risk.\28\
---------------------------------------------------------------------------
    \28\ GAO-10-142.
---------------------------------------------------------------------------
  <bullet> At one location, we observed during our interview with the 
        building security committee (BSC) that the committee members 
        were confused about procedures for screening visitors who are 
        passengers in employees' cars that enter the building via the 
        parking garage. One of the tenants recounted an incident in 
        which a security guard directed the visitor to walk through the 
        garage to an appropriate screening station. According to the 
        GSA property manager, this action created a safety hazard. The 
        GSA property manager knew the appropriate screening procedure, 
        but told us there was no written policy on the procedure that 
        members could access. Additionally, BSC members told us that 
        the committee met as needed.
  <bullet> At one location, FPS had received inaccurate square footage 
        data from GSA and had therefore overcharged the primary tenant 
        agency for a guard post that protected space shared by all the 
        tenants. According to the GSA property manager, once GSA was 
        made aware of the problem, the agency obtained updated 
        information and worked with the tenant agencies to develop a 
        cost-sharing plan for the guard post, which made the primary 
        tenant agency's security expenses somewhat more equitable. BSC 
        members told us that the committee met regularly.
  <bullet> At one location, members of a BSC told us that they met as 
        needed, although even when they hold meetings, one of the main 
        tenant agencies typically does not participate. GSA officials 
        commented that this tenant adheres to its agency's building 
        security protocols and does not necessarily follow GSA's tenant 
        policies and procedures, which GSA thinks creates security 
        risks for the entire building.
  <bullet> At one location, tenant agency representatives and officials 
        from FPS told us they met regularly, but GSA officials told us 
        they were not invited to these meetings. GSA officials at this 
        location told us that they invite FPS to their property 
        management meetings for that location, but FPS does not attend. 
        GSA officials also said they do not receive timely incident 
        information for the site from FPS and suggested that increased 
        communication among the agencies would help them be more 
        effective managers of their properties and provide tenants with 
        better customer service.
  <bullet> At one location, GSA undertook a major renovation project 
        beginning in April 2007. FPS, GSA, and tenant agency 
        representatives did not all meet together regularly to make 
        security preparations or manage security operations during 
        construction. FPS officials told us they had not been invited 
        to project meetings, although GSA officials told us that they 
        had invited FPS and that FPS attended some meetings. In May 
        2008, FPS discovered that specific surveillance equipment had 
        been removed. As of May 2009, FPS officials told us they did 
        not know who had removed the equipment and were working with 
        tenant agency representatives to recover it. However in June 
        2009 tenant agency representatives told us that they believed 
        FPS was fully aware that the equipment had been removed in 
        December 2007.\29\
---------------------------------------------------------------------------
    \29\ In June 2009 tenant agency representatives told us that at all 
times, they had been aware of the location of the equipment and assured 
proper safeguarding of the equipment during the reconstruction process.
---------------------------------------------------------------------------
    Additionally, we conducted a survey of GSA tenant agencies and 
found that they had mixed views about some of the services they pay FPS 
to provide.\30\ Notably, the survey results indicated that the roles 
and responsibilities of FPS and tenant agencies are unclear, primarily 
because on average about one-third of tenant agencies could not comment 
on how satisfied or dissatisfied they were with FPS's level of 
communication of its services, partly because they had little to no 
interaction with FPS officers. Although FPS plans to implement 
education and outreach initiatives to improve customer service to 
tenant agencies, it will face challenges because of its lack of 
complete and accurate contact data. During the course of our review, we 
found that approximately 53 percent of the e-mail addresses and 27 
percent of the telephone numbers for designated points of contacts were 
missing from FPS's contact database and the database required a 
substantial amount of revising. Complete and accurate contact 
information for FPS's customers is critical for information sharing and 
an essential component of any customer service initiative. Therefore, 
to improve its services to GSA and tenant agencies, we recommended that 
FPS collect and maintain an accurate and comprehensive list of all 
facility-designated points of contact, as well as a system for 
regularly updating this list; and develop and implement a program for 
education and outreach to GSA and tenant agencies to ensure they are 
aware of the current roles, responsibilities, and services provided by 
FPS.\31\ DHS concurred with our recommendations.
---------------------------------------------------------------------------
    \30\ GAO-09-749.
    \31\ GAO-09-749.
---------------------------------------------------------------------------
    Furthermore, while FPS and GSA acknowledge that the two 
organizations are partners in protecting and securing GSA buildings, 
FPS and GSA fundamentally disagree over how much of the information in 
the BSA should be shared. Per the memorandum of agreement, FPS is 
required to share the BSA executive summary with GSA and FPS believes 
that this document contains sufficient information for GSA to make 
decisions about purchasing and implementing FPS's recommended 
countermeasures. However, GSA officials at all levels cite limitations 
with the BSA executive summary saying, for example, that it does not 
contain enough contextual information on threats and vulnerabilities to 
support FPS's countermeasure recommendations and justify the expenses 
that GSA and tenant agencies would incur by installing additional 
countermeasures. Moreover, GSA security officials told us that FPS does 
not consistently share BSA executive summaries across all regions. 
Instead, GSA wants to receive BSAs in their entirety so that it can 
better protect GSA buildings and the tenants who occupy them. According 
to GSA, building protection functions are an integral part of its 
property preservation, operation, and management responsibilities.
    In a post-September 11 era, it is vital that Federal agencies work 
together to share information to advance homeland security and critical 
infrastructure protection efforts. Information is a crucial tool in 
fighting terrorism, and the timely dissemination of that information to 
the appropriate Government agency is absolutely critical to maintaining 
the security of our Nation. The ability to share security-related 
information can unify the efforts of Federal agencies in preventing or 
minimizing terrorist attacks. However, in the absence of comprehensive 
information-sharing plans, many aspects of homeland security 
information sharing can be ineffective and fragmented. In 2005, we 
designated information sharing for homeland security as a Government-
wide high-risk area because of the significant challenges faced in this 
area \32\--challenges that are still evident today. It is critical that 
FPS and GSA--which both have protection functions for GSA buildings, 
their occupants, and those who visit them--reach consensus on sharing 
information in a timely manner to support homeland security and 
critical infrastructure protection efforts.
---------------------------------------------------------------------------
    \32\ GAO, High-Risk Series: An Update, GAO-05-207 (Washington, DC: 
Jan. 1, 2005).
---------------------------------------------------------------------------
    We recently recommended that FPS reach consensus with GSA on what 
information contained in the BSA is needed for GSA to fulfill its 
responsibilities related to the protection of Federal buildings and 
occupants, and accordingly, establish internal controls to ensure that 
shared information is adequately safeguarded; guidance for employees to 
use in deciding what information to protect with sensitive but 
unclassified designations; provisions for training on making 
designations, controlling, and sharing such information with GSA and 
other entities; and a review process to evaluate how well this 
information sharing process is working, with results reported to the 
Secretary of Homeland Security.\33\ While DHS concurred with this 
recommendation, we are concerned that the steps it described in its 
response were not comprehensive enough to address the intent of the 
recommendation. For example, DHS did not explicitly commit to reaching 
consensus with GSA in identifying building security information that 
can be shared, or to the steps we outlined in our recommendation--steps 
that in our view comprise a comprehensive plan for sharing and 
safeguarding sensitive information. Therefore, it is important that FPS 
engage GSA in identifying what building security information can be 
shared and follow the information sharing and safeguarding steps we 
included in our recommendation to ensure that GSA acquires the 
information it needs to protect the 9,000 buildings under its control 
and custody, the Federal employees who work in them, and those who 
visit them.
---------------------------------------------------------------------------
    \33\ GAO-10-142.
---------------------------------------------------------------------------
Performance Measurement Is Limited
    We have reported that FPS is limited in its ability to assess the 
effectiveness of its efforts to protect GSA buildings.\34\ To determine 
how well it is accomplishing its mission to protect GSA buildings, FPS 
has identified some output measures that are a part of the Office of 
Management and Budget's Performance Assessment Rating Tool. These 
measures include determining whether security countermeasures have been 
deployed and are fully operational, the amount of time it takes to 
respond to an incident, and the percentage of BSAs completed on time. 
Some of these measures are also included in FPS's Federal facilities 
security index, which is used to assess its performance. However, FPS 
has not developed outcome measures to evaluate the net effect of its 
efforts to protect GSA buildings. While output measures are helpful, 
outcome measures are also important because they can provide FPS with 
broader information on program results, such as the extent to which its 
decision to move to an inspector-based workforce will enhance security 
at GSA facilities or help identify the security gaps that remain at GSA 
facilities and determine what action may be needed to address them. In 
addition, FPS does not have a reliable data management system that will 
allow it to accurately track these measures or other important measures 
such as the number of crimes and other incidents occurring at GSA 
facilities. Without such a system, it is difficult for FPS to evaluate 
and improve the effectiveness of its efforts to protect Federal 
employees and facilities, allocate its limited resources, or make 
informed risk management decisions. For example, weaknesses in one of 
FPS's countermeasure tracking systems make it difficult to accurately 
track the implementation status of recommended countermeasures such as 
security cameras and X-ray machines. Without this ability, FPS has 
difficulty determining whether it has mitigated the risk of GSA 
facilities to crime or a terrorist attack.
---------------------------------------------------------------------------
    \34\ GAO-08-683.
---------------------------------------------------------------------------
fps is taking steps to better protect gsa buildings, but has not fully 
          implemented actions and faces significant challenges
    While FPS is taking some actions in each of the key practice areas 
to improve its ability to better protect GSA buildings. Additionally, 
GAO has recommended that FPS implement specific actions to promote 
greater usage of key protection practices and otherwise improve 
security. However, FPS has not completed many related corrective 
actions and FPS faces implementation challenges as well.

FPS Is Developing a New Program to Assess Risk, Manage Human Capital, 
        and Measure Performance
    FPS is developing the Risk Assessment and Management Program 
(RAMP), which could enhance its approach to assessing risk, managing 
human capital, and measuring performance. With regard to improving the 
effectiveness of FPS's risk management approach and the quality of 
BSAs, FPS believes RAMP will provide inspectors with the information 
needed to make more informed and defensible recommendations for 
security countermeasures. FPS also anticipates that RAMP will allow 
inspectors to obtain information from one electronic source, generate 
reports automatically, enable FPS to track selected countermeasures 
throughout their life cycle, address some concerns about the 
subjectivity inherent in BSAs, and reduce the amount of time inspectors 
and managers spend on administrative work. Additionally, FPS is 
designing RAMP so that it will produce risk assessments that are 
compliant with Interagency Security Committee standards, compatible 
with the risk management framework set forth by the National 
Infrastructure Protection Plan,\35\ and consistent with the business 
processes outlined in the memorandum of agreement with GSA. According 
to FPS, RAMP will support all components of the BSA process, including 
gathering and reviewing building information; conducting and recording 
interviews; assessing threats, vulnerabilities, and consequences to 
develop a detailed risk profile; recommending appropriate 
countermeasures; and producing BSA reports. FPS also plans to use RAMP 
to track and analyze certain workforce data, contract guard program 
data, and other performance data such as the types and definitions of 
incidents and incident response times.
---------------------------------------------------------------------------
    \35\ The National Infrastructure Protection Plan was founded 
through Homeland Security Presidential Directive 7 and sets forth 
National policy on how the plan's risk management framework and sector 
partnership model are to be implemented by sector-specific agencies. 
FPS is the agency responsible for the Government Facilities sector.
---------------------------------------------------------------------------
    Although FPS intends for RAMP to improve its approach to risk 
assessment, human capital management, and performance measurement, it 
is not clear that FPS has fully addressed some implementation issues. 
For example, one issue concerns the accuracy and reliability of the 
information that will be entered into RAMP. According to FPS, the 
agency plans to transfer data from several of its legacy systems, 
including the Contract Guard Employment Requirements Tracking System 
(CERTS), into RAMP. In July 2009, we testified on the accuracy and 
reliability issues associated with CERTS.\36\ FPS subsequently 
conducted an audit of CERTS to determine the status of its guard 
training and certification. However, the results of the audit showed 
that FPS was able to verify the status for about 7,600 of its 15,000 
guards. According to an FPS official, one of its regions did not meet 
the deadline for submitting data to headquarters because its data were 
not accurate or reliable and therefore about 1,500 guards were not 
included in the audit. FPS was not able to explain why it was not able 
to verify the status of the remaining 5,900 guards. In 2008, we 
recommended that FPS develop and implement specific guidelines and 
standards for measuring its performance and improve how it categorizes, 
collects, and analyzes data to help it better manage and understand the 
results of its efforts to protect GSA facilities and DHS concurred with 
our recommendation.\37\ RAMP could be the vehicle through which FPS 
implements these recommendations, but the use of inaccurate and 
unreliable data will hamper performance measurement efforts.
---------------------------------------------------------------------------
    \36\ GAO-09-859T.
    \37\ GAO-08-863.
---------------------------------------------------------------------------
    Furthermore, it is unclear whether FPS will meet the implementation 
goals established in the program's proposed timeline. FPS began 
designing RAMP in early 2007 and expects to implement the program in 
three phases, completing its implementation by the end of fiscal year 
2011. However, in June 2008, we reported that FPS was going to 
implement a pilot version of RAMP in fiscal year 2009,\38\ but in May 
2009, FPS officials told us they intend to implement the first phase in 
the beginning of fiscal year 2010. Until RAMP components are fully 
implemented, FPS will continue to rely on its current risk assessment 
tool, methodology, and process, potentially leaving GSA and tenant 
agencies dissatisfied. Additionally, FPS will continue to rely on its 
disparate workforce data management systems and CERTS or localized 
databases that have proven to be inaccurate and unreliable. We recently 
recommended that FPS provide the Secretary of Homeland Security with 
regular updates on the status of RAMP including the implementation 
status of deliverables, clear timelines for completion of tasks and 
milestones, and plans for addressing any implementation obstacles.\39\ 
DHS concurred with our recommendation and stated that FPS will submit a 
monthly report to the Secretary.
---------------------------------------------------------------------------
    \38\ GAO-08-683.
    \39\ GAO-10-142.
---------------------------------------------------------------------------
FPS's Actions to Improve Guard Management May Be Difficult to Implement 
        and Maintain
    FPS took on a number of immediate actions with respect to contract 
guard management in response to our covert testing.
  <bullet> In July 2009, the Director of FPS instructed Regional 
        Directors to accelerate the implementation of FPS's requirement 
        that two guard posts at Level IV facilities be inspected 
        weekly.
  <bullet> FPS, in July 2009, also required more X-ray and magnetometer 
        training for inspectors and guards. For example, FPS has 
        recently issued an information bulletin to all inspectors and 
        guards to provide them with information about package 
        screening, including examples of disguised items that may not 
        be detected by magnetometers or X-ray equipment. Moreover, FPS 
        produced a 15-minute training video designed to provide 
        information on bomb component detection. According to FPS, each 
        guard was required to read the information bulletin and watch 
        the DVD within 30 days.
    Despite the steps FPS has taken, there are a number of factors that 
will make implementing and sustaining these actions difficult. First, 
FPS does not have adequate controls to monitor and track whether its 11 
regions are completing these new requirements. Thus, FPS cannot say 
with certainty that it is being done. According to a FPS regional 
official, implementing the new requirements may present a number of 
challenges, in part, because new directives appear to be based 
primarily on what works well from a headquarters or National Capital 
Region perspective, and not a regional perspective that reflects local 
conditions and limitations in staffing resources. In addition, another 
regional official estimated that his region is meeting about 10 percent 
of the required oversight hours and officials in another region said 
they are struggling to monitor the delivery of contractor-provided 
training in the region. Second, FPS has not completed any workforce 
analysis to determine if its current staff of about 930 law enforcement 
security officers will be able to effectively complete the additional 
inspections and provide the X-ray and magnetometer training to 15,000 
guards, in addition to their current physical security and law 
enforcement responsibilities. According to the Director of FPS, while 
having more resources would help address the weaknesses in the guard 
program, the additional resources would have to be trained and thus 
could not be deployed immediately.

FPS Is Developing a Program to Standardize Equipment and Contracting
    FPS is also taking steps to implement a more systematic approach to 
technology acquisition by developing a National Countermeasures 
Program, which could help FPS leverage technology more cost-
effectively. According to FPS, the program will establish standards and 
National procurement contracts for security equipment, including X-ray 
machines, magnetometers, surveillance systems, and intrusion detection 
systems. FPS officials told us that instead of having inspectors search 
for vendors to establish equipment acquisition, installation, and 
maintenance contracts, inspectors will call an FPS mission support 
center with their countermeasure recommendations and the center will 
procure the services through standardized contracts. According to FPS, 
the program will also include life-cycle management plans for 
countermeasures. FPS officials said they established an X-ray machine 
contract and that future program contracts will also explore the use of 
the schedule as a source for National purchase and service contracts. 
According to FPS, the National Countermeasures Program should provide 
the agency with a framework to better manage its security equipment 
inventory; meet its operational requirement to identify, implement, and 
maintain security equipment; and respond to stakeholders' needs by 
establishing Nation-wide resources, streamlining procurement 
procedures, and strengthening communications with its customers. FPS 
officials told us they believe this program will result in increased 
efficiencies because inspectors will not have to spend their time 
facilitating the establishment of contracts for security equipment 
because these contracts will be standardized Nation-wide.
    Although the National Countermeasures Program includes improvements 
that may enhance FPS's ability to leverage technology, it does not 
establish tools for assessing the cost-effectiveness of competing 
technologies and countermeasures and implementation has been delayed. 
Security professionals are faced with a multitude of technology options 
offered by private vendors, including advanced intrusion detection 
systems, biotechnology options for screening people, and sophisticated 
video monitoring. Having tools and guidance to determine which 
technologies most cost-effectively address identified vulnerabilities 
is a central component of the leveraging technology key practice. FPS 
officials told us that the National Countermeasures Program will enable 
inspectors to develop countermeasure cost estimates that can be shared 
with GSA and tenant agencies. However, incorporating a tool for 
evaluating the cost-effectiveness of alternative technologies into 
FPS's planned improvements in the security acquisition area would 
represent an enhanced application of this key practice. Therefore, we 
recently recommended that FPS develop a methodology and guidance for 
assessing and comparing the cost-effectiveness of technology 
alternatives, and DHS concurred with our recommendation.\40\
---------------------------------------------------------------------------
    \40\ GAO-10-142.
---------------------------------------------------------------------------
    Another concern is that FPS had planned to implement the program 
throughout fiscal year 2009, but extended implementation into fiscal 
year 2010, thus it is not clear whether FPS will meet the program's 
milestones in accordance with updated timelines. Until the National 
Countermeasures Program is fully implemented, FPS will continue to rely 
on individual inspectors to make technology decisions. For example, FPS 
had anticipated that the X-ray machine and magnetometer contracts would 
be awarded by December 2008, and that contracts for surveillance and 
intrusion detection systems would be awarded during fiscal year 2009. 
In May 2009, FPS officials told us that the X-ray machine contract was 
awarded on April 30, 2009, and that they anticipated awarding the 
magnetometer contract in the fourth quarter of fiscal year 2009 and an 
electronic security services contract for surveillance and intrusion 
detection systems during the second quarter of fiscal year 2010. We 
recently recommended that FPS provide the Secretary of Homeland 
Security with regular updates on the status of the National 
Countermeasures Program, including the implementation status of 
deliverables, clear timelines for completion of tasks and milestones, 
and plans for addressing any implementation obstacles.\41\ DHS 
concurred with this recommendation and stated that FPS will submit a 
monthly report to the Secretary.
---------------------------------------------------------------------------
    \41\ GAO-10-142.
---------------------------------------------------------------------------
Key Practices Provide a Framework for Improvement for FPS and Other 
        Agencies
    Finally, as we stated at the outset, the protection of Federal real 
property has been and continues to be a major concern. Therefore, we 
have used our key protection practices as criteria to evaluate the 
security efforts of other departments, agencies, and entities and have 
made recommendations to promote greater usage of key practices in 
ensuring the security of public spaces and of those who work at and 
visit them. For example, we have examined how DHS \42\ and the 
Smithsonian Institution \43\ secure their assets and identified 
challenges. Most recently, we evaluated the National Park Service's 
(Park Service) approach to National icon and park protection.\44\ We 
found that although the Park Service has implemented a range of 
security program improvements in recent years that reflected some 
aspects of key practices, there were also limitations. Specifically, 
the Park Service: (1) Does not manage risk service-wide or ensure the 
best return on security technology investments; (2) lacks a service-
wide approach to sharing information internally and measuring 
performance; and (3) lacks clearly defined security roles and a 
security training curriculum. With millions of people visiting the 
Nation's nearly 400 park units annually, ensuring their security and 
the protection of our National treasures is paramount. More emphasis on 
the key practices would provide greater assurance that Park Service 
assets are well protected and that Park Service resources are being 
used efficiently to improve protection.
---------------------------------------------------------------------------
    \42\ GAO, Federal Real Property: DHS Has Made Progress, but 
Additional Actions Are Needed to Address Real Property Management and 
Security Challenges, GAO-07-658 (Washington, DC: June 22, 2007). In 
this report, we used the key practices to assess DHS's security 
operations with respect to the Government-owned and leased buildings in 
its real property portfolio, but did not specifically focus on FPS.
    \43\ GAO, Smithsonian Institution: Funding Challenges Affect 
Facilities' Conditions and Security, Endangering Collections, GAO-07-
1127 (Washington, DC: Sept. 28, 2007).
    \44\ GAO, Homeland Security: Actions Needed to Improve Security 
Practices at National Icons and Parks, GAO-09-983 (Washington, DC: Aug. 
28, 2009).
---------------------------------------------------------------------------
    FPS faces challenges that are similar, in many respects, to those 
that agencies across the Government are facing. Our key practices 
provide a framework for assessing and improving protection practices, 
and in fact, the Interagency Security Committee is using our key 
facility protection practices as key management practices to guide its 
priorities and work activities. For example, the committee established 
subcommittees for technology best practices and training, and working 
groups in the areas of performance measures and strategic human capital 
management. The committee also issued performance measurement guidance 
in 2009.\45\ Without greater attention to key protection practices, FPS 
will be ill equipped to efficiently and effectively fulfill its 
responsibilities of assessing risk, strategically managing its 
workforce and contract guard program, recommending countermeasures, 
sharing information and coordinating with GSA and tenant agencies to 
secure GSA buildings, and measuring and testing its performance as the 
security landscape changes and new threats emerge. Furthermore, 
implementing our specific recommendations related to areas such as 
human capital and risk management will be critical steps in the right 
direction. Overall, following this framework--adhering to key practices 
and implementing recommendations in specific areas--would enhance FPS's 
chances for future success and could position FPS to become a leader 
and benchmark agency for facility protection in the Federal Government.
---------------------------------------------------------------------------
    \45\ Interagency Security Committee, Use of Physical Security 
Performance Measures, (Washington, DC, June 16, 2009).
---------------------------------------------------------------------------
    Mr. Chairman, this concludes our testimony. We are pleased to 
answer any questions you might have.

    Chairman Thompson. I would like to thank all of the 
witnesses for their testimony.
    I remind each Member that he or she will have 5 minutes to 
question the panel.
    I will now recognize myself for questions. I do not often 
do this, but, without objection, before I start the questions, 
I would like to show a GAO video of some of the things Mr. 
Goldstein talked about, to give the committee a broader flavor 
for some of the issues we will be discussing here today.
    We will now view the video.
    [Video played.]
    Chairman Thompson. Thank you for the video.
    Mr. Goldstein, were those clips of some of the testing that 
you talked about, the 10 out of 10 spots? Or can you just give 
us some history of that?
    Mr. Goldstein. Yes, Mr. Chairman. What the video showed, it 
showed three different things. The first was one of our 
investigators going into a Level four Government facility. It 
was actually one of the buildings that we tested. It occurred 
in April and May of this year.
    The investigator is carrying the implements to make the 
device that the second and third frames show. So, it shows our 
investigator going through security and not being stopped.
    At none of the 10 buildings that we went into were we 
stopped. We were able to go into the buildings with the 
materials, assemble the devices in a bathroom, and walk 
unimpeded through all of the various offices in the 10 
buildings in the four cities that we went to.
    These offices included a variety of different Federal 
departments, including the Department of Justice, Department of 
Homeland Security, Department of State, including the field 
office of a Senator and a U.S. Representative.
    The second shot was actually just the detonator which was 
carried in, which has its own explosive power.
    The third shot was an actual test that was done at a 
National laboratory of the device being exploded itself.
    Chairman Thompson. Thank you very much.
    Mr. Schenkel, have you been provided information relative 
to these tests that GAO performed?
    Mr. Schenkel. Yes, Mr. Chairman. Fortunately, Mr. Goldstein 
and his team came to us immediately after they conducted these 
tests and informed us as to the seriousness of this situation.
    Chairman Thompson. What did you do?
    Mr. Schenkel. We took immediate actions. Within hours, we 
had already contacted all of our regional directors, authorized 
additional overtime, explained the situation as to what was 
going on.
    Added to this, though, is the challenge that none of the 
items of the disassembled components or of the device itself 
were prohibited items in itself, which adds to the challenge of 
trying to----
    Chairman Thompson. Why were they not prohibited?
    Mr. Schenkel. The components themselves, or the 
determination of what is prohibited items, is not determined by 
the Federal Protective Service, sir.
    Chairman Thompson. Who determines it?
    Mr. Schenkel. It is determined by the Facilities Security 
Committee of each building.
    Chairman Thompson. So, is that Mr. Peck? Is that GSA?
    Mr. Schenkel. No, sir. Each facility, each GSA facility, 
all 9,000, have a Facilities Security Committee made up either 
of the--if it is a primary or a single-tenant building, it will 
be just the single agency that represents the Facilities 
Security Committee. If it is a multi-tenant agent--or a multi-
tenant facility----
    Chairman Thompson. Who oversees this committee?
    Mr. Schenkel. The chairman is normally the largest tenant 
within the building of a multi-tenant facility.
    Chairman Thompson. Mr. Beers, is this something you are 
familiar with?
    Mr. Beers. Yes, sir. It is something that Mr. Goldstein has 
pointed out on several occasions. Mr. Peck mentioned that we 
had a summit of Federal security officers this week to go over 
this particular issue and the disconnect that Mr. Goldstein 
notes between the security committee and the people who 
actually do the protection.
    We are instituting a number of changes to try to fix that 
particular problem, sir.
    Chairman Thompson. Well, my discomfort is, you have a 
facilities committee, which probably has very little working 
knowledge of what bad things happen to be from a security 
perspective, making policy decisions that could jeopardize 
anybody going into a Federal building. So, that causes me real 
concern.
    Mr. Beers. Sir, you are absolutely correct. What we are 
trying to rectify with respect to that, and what this summit 
was about to discuss, is, one, ensuring that there is a 
security provider on each of those committees, that the voting 
for undertaking measures--or, in this case, defining what are 
prohibited items--include the security considerations, and that 
the members of the committee will be trained in these 
securities issues.
    There are a number of other things that we consider, but 
your point is exactly right. That is something that we at DHS 
are trying to correct in association with GSA.
    Chairman Thompson. Mr. Schenkel, of those 10 situations, 
did we cancel any of the contracts of any of the contract 
security personnel?
    Mr. Schenkel. No, sir, we did not, because they did not 
violate any of the post orders that they were instructed to 
execute. The reason being, again, is that none of these 
components, in and of themselves, were prohibited items.
    Chairman Thompson. What is GAO's position on that?
    Mr. Goldstein. Mr. Chairman, I would probably respectfully 
disagree a little bit with Director Schenkel, in that our 
investigators noted, and we informed FPS at the time, that a 
number of the buildings through which we gained entry and 
passed through security, the contract guards were not looking 
at their monitors, first of all.
    Many of the materials that were brought into the Federal 
buildings to make these devices, while they may not be 
specifically prohibited, are in themselves unusual. Guards 
should have been asking questions as to why individuals had a 
purpose for bringing such items into a Federal building.
    Chairman Thompson. Well, we might do another round, but I 
will yield to the Ranking Member for questions.
    Mr. King. Thank you, Mr. Chairman.
    I will address this question, I guess, to Secretary Beers, 
Mr. Schenkel, Mr. Peck, whoever wants to answer it or jump in.
    As you know, I am opposed to the trials coming to New York, 
coming to the United States. That is neither here nor there for 
the purpose of today's hearing.
    I would like to, under the assumption that the trial is 
going to be held in New York, ask what you think the role of 
the Federal Protective Service will be. I think Mr. Peck 
touched on some of this. You talk about coordinating with the 
State and local law enforcement, because my recollection of 
that area is, you have the Southern District courthouse, you 
have the MCC. You have at least three city or State 
courthouses. There is also, within about a 2- or 3-minute walk, 
a significant Federal facility.
    What role do you see for the FPS? In the context of your 
answer, and then I will step back, address the staffing issue 
that was raised by the union. Also, whether or not you have to 
bring more personnel there from other facilities, such as the 
Eastern District of New York or other Federal facilities.
    Do you have the personnel to do what you think would have 
to be done? Because unlike previous trials, this will obviously 
receive more coverage, more publicity, more notoriety, et 
cetera.
    So, anyway, if you could just--you know, whatever you can 
tell me about that. I am not looking for any specifics. I do 
not expect you to have the answers today. But just at least in 
a general way, discuss how this will be approached.
    Thank you very much.
    Mr. Schenkel. If I may, sir, I will address that question.
    The Federal Protective Service has the responsibility for 
the perimeters of U.S. courthouses. As in 1993 in New York, on 
the occasion of the trials for the first bombing, what we will 
do is work in conjunction with the United States Marshals 
Service, and coordinate with State and local law enforcement 
and other Federal law enforcement agencies, and integrate our 
services with the other services, with the other law 
enforcement agencies.
    What we will do in general is that, just as at the 
Moussaoui trial and previous trials that I mentioned in New 
York, what we will do is have to deploy individual members from 
the Federal Protective Service, certified law enforcement 
officers. We have what we call a CIRT team, a Critical Incident 
Response Team, in every one of our 11 regions.
    What we will do is rotate those folks into the adequate 
numbers that are necessary after they have developed the actual 
protection plan. We will just continually rotate the 
individuals to provide that necessary protection.
    Mr. King. Now, in light of the correspondence from Local 
918, do you feel there is sufficient staffing at that location 
presently? Secondly, if you have to bring in personnel from 
other sites within the area, is that going to leave them 
understaffed?
    Mr. Schenkel. It is certainly a challenge. That is region 
two in New York. Region two does not have the staff to perform 
their daily functions and provide the additional security 
necessary for the courthouse, if it follows the same pattern as 
the previous trials.
    What we will have to do is rotate those CIRT teams. As I 
have described, none of them will be out of their regions for 
more than 14 days. We have to pull from all 11 regions to meet 
adequate numbers. We had to do something very similar when 
President Obama was elected, in Chicago, to protect his 
facility. It is something we have worked down to a science, if 
you will.
    But the short answer is, no, we will not be able to support 
it out of New York. We will have to use CIRT teams to assist.
    Mr. King. How about the, I guess, the peripheral issue, 
anyway, of there being not enough staffing in the region 
anyway?
    Mr. Schenkel. Staffing is a challenge----
    Mr. King. I am not saying that is true. I am just saying--I 
am asking you to respond to the charge.
    Mr. Schenkel. Staffing is a challenge across the country. 
It is a very difficult challenge. As we have discovered most 
recently by these very disturbing videos, that it takes a lot 
of oversight to provide the adequate supervision for the 
contract guard force.
    When we first transferred out of GSA, we had approximately 
5,000 contract guards. We now have approximately 15,000 
contract guards. We have fewer inspectors at this time than we 
did when we transferred in 2003.
    Mr. Beers. With respect to that, sir, if I might add, this 
issue, that is, the staffing levels of FPS, is one of the major 
study efforts that we have underway. Secretary Napolitano asked 
us to work together with FPS to ensure that, in fact, we have 
the right resource and staffing levels to match the missions 
that FPS currently has.
    That study is underway, and we will, obviously, report to 
you and the other body on the results of that study as soon as 
it is complete.
    That will have, then, a statement by DHS about what the 
appropriate level ought to be, and, if it is an increase, how 
we will get there, and how we will pay for it.
    Mr. King. Thank you very much.
    Chairman Thompson. Thanks.
    The Chair recognizes the gentleman from Pennsylvania, Mr. 
Carney, for 5 minutes.
    Mr. Carney. Thank you, Mr. Chairman.
    Just basically, then, are you--to continue on this vein--
are you saying that we do not have adequate staff, as 
configured, to address this?
    Mr. Schenkel. I am sorry.
    Mr. Schenkel. For New York, sir.
    Mr. Carney. For New York. For the upcoming trials.
    Mr. Schenkel. Based on the seriousness of the trial and the 
historical perspective, which is all we have to go on, is the 
numbers that we needed for the previous trials, we do not have 
any of our regions that could support that and provide their 
daily operational requirements, as well.
    We would have to use a CIRT team from--at least a CIRT 
team--from another region.
    Mr. Peck. Can I expand on that?
    Mr. Carney. Yes.
    Mr. Peck. I think what we are really saying is, as in a 
typical military operation where you sometimes thin your lines 
in one place to create the mass in another place to conduct an 
operation, that is what we do.
    I was in GSA in the Clinton administration, and I know that 
when we had the Timothy McVeigh trial after Oklahoma City, we 
did the same thing. We sent people to the trial in Denver.
    But, you know, I do not think there is any way not to say 
that that means you are taking resources from someplace else 
where you do not feel that you have the same immediate need, 
and putting them, in this case, into New York City.
    But we do not--obviously, we do not staff, and never would 
staff, for the maximum possible deployment level that you see 
in any given place. So, they move people around.
    Mr. Goldstein. If I may, Congressman, to just add to that, 
that several of the reports the GAO has released in the past 
get to this point in that moving people around in the way that 
they need to does undermine the security of the remaining areas 
and slows down lots of different other kinds of things, like 
building security assessments. It reduces proactive patrols and 
does undermine security in the other regions.
    Mr. Carney. Well, Mr. Goldstein, let me ask this, then. By 
GAO's assessment, how understaffed is FPS?
    Mr. Goldstein. I think, at this point in time, nobody 
knows. We are encouraged that the Department is doing a 
staffing assessment to try and understand that.
    But a concern we have raised before is that it is difficult 
to understand what you are staffing needs will be until you 
have done a risk assessment, an effective risk assessment 
process, so you understand fully what the vulnerabilities and 
threats are, because it is difficult to staff not knowing that. 
We have had quite a number of criticisms of that process.
    So, it is a little bit like shooting in the dark right now 
until they can get in place an effective risk assessment 
process that lets them understand what staffing is really 
required to protect Federal property.
    Mr. Carney. Mr. Beers, how far down the road are we? How 
dark is that room?
    Mr. Beers. We have been, at this point in time, through two 
iterations of data that we and FPS have worked on. It has gone 
back to FPS for some answers to some more questions.
    I am reluctant to give you a precise date that it is going 
to be done. But it will be done, if not by the end of this 
calendar year, very early in the next calendar year.
    The Secretary has charged us to come up with this response 
in a timely enough fashion that we could present it to the 
Congress, and on the assumption that it would require 
additional resources and personnel, give you all an opportunity 
to interact with us on how we get there, should that be the 
requirement.
    So, we need to get this done, or we are not going to be 
able to respond to what has been a long-standing point by 
Members of Congress, as well as the GAO, about the levels, the 
staffing levels of FPS.
    Mr. Carney. Mr. Schenkel, do you agree with that? Or what 
is your assessment?
    Mr. Schenkel. I certainly agree with the responsibility to 
approach this in a fiscally sound manner. That is exactly what 
Mr. Beers is talking about.
    However, on the other hand, one of the things that I think 
that we have made great strides in--and Mr. Goldstein has not 
been able to see this one yet--is we have rolled out our Risk 
Assessment Management Program this year. As was pointed out, we 
had a very antiquated, very old system, where we were dependent 
on six different systems to conduct an actual risk assessment.
    As of Monday of this week, we have rolled out our new Risk 
Assessment Management Program, RAMP. This was accomplished from 
basically a cocktail napkin to actual fruition in less than 2 
years by some very dedicated, very smart individuals within 
FPS.
    That piece will also provide those answers that we owe the 
Secretary, because that will assist in providing the necessary 
metrics to validate staffing numbers.
    Mr. Carney. Well, that is good. I mean, yes, you owe the 
Secretary, but you also owe, well, hell, everybody in this room 
that comes to work in these buildings every day.
    Mr. Schenkel. Totally understand that, sir.
    Mr. Carney. Thank you. My time is up.
    Thank you, Mr. Chairman.
    Chairman Thompson. I guess, the question from me is, Mr. 
Goldstein, have you seen this risk assessment document?
    Mr. Goldstein. The new risk assessment program, as Director 
Schenkel mentioned, is just this week being implemented. We are 
quite pleased that they are, I think, actually a little ahead 
of schedule, as I understand. So, that is the good news.
    One concern we have remaining, though, is that much of the 
information that is in RAMP may not be accurate--not 
necessarily the part relating to the building security 
assessment process, because that new tool is fairly vigorous. 
But RAMP is also going to be used to track the certifications 
and qualifications of contract guards.
    As you know, we have had various concerns about whether 
those qualifications are up-to-date. It is our understanding 
that the information being put into RAMP to be able to track 
whether guards are qualified is the old data, which has many 
inaccuracies and flaws in it. So, while the agency has been 
cleaning that up, we are concerned that they may be inputting 
bad data into that new system, which has, obviously, a lot of 
problems associated with it.
    Chairman Thompson. Mr. Schenkel, are we putting bad data 
into the system?
    Mr. Schenkel. No, sir, we are not.
    Immediately after we found out about the penetration tests, 
coincidentally, I guess it would be, simultaneously, we were 
also scrubbing the CERTS data. That is the guard--certification 
information.
    Previous to the outlay of RAMP, we had three points of 
failure, where the CERTS could provide an inaccurate validation 
of a guard's certification, either from the guard company, from 
the individual region, or at the--in the CERTS system itself.
    Subsequent to that, we did 100 percent scrub of all guard 
certifications. We have narrowed this down now because of daily 
inspections on these certifications. We have narrowed this down 
and implemented all of this data into RAMP. If there is a 
single point of failure, it is a failure on the side of 
caution. In other words, it will prevent an individual guard 
from standing post, as opposed to allowing someone to stand 
post that is not certified.
    Chairman Thompson. I am sure you know that a request for a 
follow-up review by GAO is coming.
    Mr. Schenkel. Yes, sir.
    Chairman Thompson. Thank you.
    Mr. Olson, for 5 minutes.
    Mr. Olson. Thank you very much, Mr. Chairman. Thank the 
witnesses for appearing before the committee today to help us 
with this decision and some of the ramifications thereof.
    I am concerned about the choice of the Southern District of 
New York as the venue to try terrorists like Khalid Sheikh 
Mohammed.
    As many of you know, over the weekend, the Washington Post 
reported on how Attorney General Holder came to choose New York 
as the place to try Khalid Sheikh Mohammed. The Post wrote, 
``The U.S. Marshals concluded that the Southern District of New 
York--with its hardened courthouse, secure Metropolitan 
Correctional Center and underground transportation tunnels 
through which to bring defendants to and from court each day--
was, hands down, the safest option.''
    That courthouse, as you all know, is six blocks away from 
Ground Zero. There are many family members of the victims who 
are still living in that area.
    There are going to be constitutional questions when Khalid 
Sheikh Mohammed gets on United States soil. When he goes before 
a judge, you can bet his lawyers are going to file for change 
of venue. I can almost guarantee that.
    Given that that is going to be something that is going to 
happen, my question for the panel is this. Is there another 
courthouse, any courthouse in the Nation, with a similar 
security infrastructure that is equipped to handle a trial like 
this? Or is such a security system unique to the Southern 
District of New York?
    Again, I would like all of your opinions on that. Thank 
you.
    Who wants to go first?
    Mr. Peck. Yes, I probably know--I am thinking fast, 
Congressman. I am thinking there are a few other complexes that 
I can think of. I am thinking of the major cities where we have 
a combination of resources like a correctional center and a 
courthouse together. I could ask my colleagues.
    I will answer for the record, but I believe that there are 
only two other cities I can think of where we have a 
metropolitan correctional center that close. I do not know if 
the transportation system between that and the courthouse is 
the same.
    I will say, having seen high security trials take place in 
the Southern District of New York, before I understand why the 
attorney general made the decision, it is a place that we are 
used to defending, and where there is a conglomeration of 
resources that we have.
    But I will be happy to answer for the record whether there 
are any other places.
    But honestly, had someone said to me, off the top of my 
head, where would you go for a place like this? New York would 
have probably been at the top of my list.
    Mr. Olson. Again, my concern is, you know, New York was 
where these attacks happened. It has a unique, historic, tragic 
role in the day of September 11. In American jurisprudence, we 
know what is going to happen. We know that that lawyer 
defending Khalid Sheikh Mohammed is going to ask for a change 
of venue.
    Again, my question is, is there another place we can go and 
have the security that, apparently, New York has?
    Mr. Goldstein. We have not done the work, Congressman, to 
be able to answer that question. So, I really could not respond 
to you.
    Mr. Olson. Is it something, Mr. Goldstein, you all are 
considering? I mean, take a look at this sort of contingency 
plan, depending--I mean, again, once we bring him here and put 
him on U.S. soil, there is going to be a host of constitutional 
issues that are going to come up. We need to be ahead of that.
    I mean, these people are--you know, I went down to 
Guantanamo Bay this January. Khalid Sheikh Mohammed is an evil 
man. I mean, he has hate in his heart. He will not back down. 
Again, we need to make sure that we try him in the most secure 
place in America and have backups in case something happens 
again, New York being the venue that it is.
    Mr. Goldstein. I would be happy to talk to you and your 
staff at a further time.
    Mr. Olson. Anybody else.
    Mr. Schenkel. I can just tell you, from a security 
standpoint, I am not as familiar as Mr. Peck with all the 
facilities. I can only think of several that maybe have two of 
the three.
    But the security--there has to be modifications, no matter 
where they would transfer him to. We would have to meet those 
security requirements. But it would be an integrated effort, 
not just an FPS or a U.S. Marshals Service. It would be an 
integrated effort for all Federal and State and local law 
enforcement.
    Mr. Olson. Thank you for the answer to those questions. 
Again, I encourage you to start thinking about that now, 
because it is something that is going to be coming down the 
pike when he stands in that courtroom.
    Mr. Chairman, I yield back my time. Thank you.
    Chairman Thompson. Thank you.
    The gentlelady from New York, Ms. Clarke, for 5 minutes.
    Ms. Clarke. Thank you. Thank you very much, Mr. Chairman.
    I think my colleagues today have raised some very important 
issues with regards to the Federal Protective Service. We 
certainly see the nearly 9,000 buildings throughout our Nation 
as an important asset to us. Your Department plays an important 
role in our Nation's homeland security, with the mission of 
keeping all Americans safe.
    Although small in size, with approximately 1,200 employees, 
evidence of the hard work done by your employees can be seen 
any time someone walks into any Federal building administered 
either through GSA or DHS. So, I would like to say that from 
the outset.
    Our committee held a hearing in May 2007, about the 
challenges that plagued the service at the time. During that 
hearing, I was extremely dismayed at the service's low staffing 
levels and dependence on poorly trained contract guards.
    That, I think, is one of the biggest sticking points, given 
the expanded role that people are going to actually see you in, 
once this trial does come to the city of New York. I think we 
have pretty much driven that point home.
    Mr. Chairman, I am kind of shocked that after 2 years, you 
know, the FPS has not become more robust. I think that is part 
of the conversation that we are having here today. I have heard 
about the study that is going to take place with regards to 
staffing and the commensurate risk assessment tool that will be 
applied to the staffing requirement of FPS.
    But what do we expect the outcome will be? What can we do 
in anticipation of that?
    I think that, Mr. Schenkel, you have certainly--Director 
Schenkel--you have certainly witnessed the strain on your 
employees and the challenges that it has faced. Are there some 
recommendations that you are giving to the Secretary, given 
this heavy mandate now before you, which will mean a shifting 
of resources, a pulling of CERTs, the opening of 
vulnerabilities in other parts of the Nation, because of the 
constraints that you are under?
    Have you begun having those conversations?
    Mr. Schenkel. Ma'am, what we are trying to do is look for 
the most effective and efficient use of the resources we have.
    When you talked about our contract guards--and we are 
certainly proud of 99.9 percent of them and their activities--
that is one of the avenues that we are exploring, is those gaps 
in training that perhaps could enhance the guard force, as 
opposed to some of the things that we are dependent on 
contractors to provide.
    That, weighed against our resources, our Federal resources, 
are some of the answers that we are looking for. It is a 
proactive process. It is not something that we take lightly. It 
is certainly something that we are making strides in on the 
positive side in enhancing the guards' training and abilities, 
but it is also giving us pictures, if you will, or a view into 
what the most effective and efficient use of what our 
inspectors are doing and should be doing.
    Ms. Clarke. Director Schenkel, you do not, then, anticipate 
any increase in the level of your staffing, given the expansion 
of the mandate of the work that you do? You just do not 
anticipate that. You are basically reconciled to a doing-more-
with-less mentality?
    Mr. Schenkel. I think that is part of the process. To say 
that we need a definite number of additional employees right 
now, would not be the most effective and efficient use of our 
resources.
    I think that once we determine what they actually should be 
doing, how much time it takes them to do that, especially with 
the advance of these new technologies that will time stamp and 
also develop other efficiencies, we may provide--may be able to 
provide--more time in some areas than we had before.
    I think those are the answers that need to be given before 
we actually come up with a specific number.
    Ms. Clarke. So, are you just saying--because I am running 
out of time--that you are going to be working to craft out 
specifically the role of the FPS in this unique situation, in 
collaboration with other law enforcement entities that will be 
operating simultaneously during this period?
    Because I think that it is important for people to know 
that there is this immediate sort of focus on FPS, because we 
know of your role, the important pieces to understand 
specifically, what that role would be, and what the chain of 
command would be in an environment such as the courthouse 
protection, that brings in other law enforcement entities. 
Would you speak to that?
    Mr. Schenkel. Yes, ma'am. We have enjoyed a very positive 
relationship with State and local law enforcement, I think, 
ever since the existence of our service.
    As Mr. Peck spoke to earlier, we cannot staff for every 
event in every location. So, consequently, we are very 
dependent, and work very well with the State and local law 
enforcement.
    If it is an event that is on Federal property that we are 
responsible for, we take command and control. If it is an event 
that happens near our property, but could affect our property, 
we support that local law enforcement or Federal agency that 
has the lead on those instances.
    Mr. Beers. If I might add to that, I would just say, first 
of all, do not--with respect to the larger question of the 
staffing size for FPS--do not walk away with the assumption 
that we have ruled out increasing the size of FPS. We have 
absolutely not ruled that out.
    We just want to make sure, as Director Schenkel just 
indicated, that, with the onslaught of new technology and new 
procedures, that will increase the productivity of the current 
workforce. Then, what other requirements are there on top of 
that?
    Second, with respect to--and this is with respect to the 
New York City issue. Please understand, as I know you must, the 
New York City Police Department has the strongest 
counterterrorism activity of any police force in the country, 
which is undoubtedly one of the major reasons that led to 
Attorney General Holder's decision to place that in New York 
City.
    It is not just the Marshals. It is not just FPS. It is that 
whole, total package put together that is going to provide the 
security. Thank you.
    Mr. Peck. Mr. Chairman, if I may? I mean, I do not know how 
you want to allocate the time. But if I could put one other 
thing on the table, I wanted to reinforce what Secretary Beers 
said, which is that I think we all think that--I do not think 
we think that FPS's current staffing level is sacrosanct, that 
if they need more resources, that they should get it.
    But before we do that, we really do need to do a better job 
of assessing the threat and what other means we have to 
mitigate the threats.
    But the other point I wanted to add is this. It is 
important for you to know that the Federal Protective Service 
is mostly funded by security fee payments by Federal agencies 
in Federal buildings. It does not get a separate appropriation.
    There is an interesting conversation, I will just say, that 
goes on when we ask Federal--when we tell Federal agencies 
about the security they need. While I cannot say that anyone 
has ever balked at a security measure that we or FPS recommend, 
on the other hand, the charge is made per square foot, and we 
do get questions sometimes from the central finance people in 
Washington about how much they are paying, and what they are 
getting for it, as they should question.
    But it raises questions, just as the way we work with the 
Facility Security Committees and what their role is. I think 
the role of the security fee and how it is assessed, and 
whether that is the only way to fund FPS, is something that at 
some point ought to be on the table.
    Chairman Thompson. One of the comments that come to mind, 
Mr. Schenkel, how problematic is it that contract guards have 
no arrest power?
    Mr. Schenkel. It is not problematic, sir, because they 
enjoy--if that is the correct term--the extension of our 
authority in being able to detain individuals and/or exert 
deadly force in the event that either their or someone else's 
life is threatened.
    The working relationships that we have in large Federal 
facilities where we have FPS presence on hand, where they can 
actually effect the arrest, works extremely well, and, plus, 
our relationships with State and local law enforcement in all 
of our other areas that we are responsible for.
    Chairman Thompson. So, now, your testimony is that they 
have the power to detain, but not the power to arrest.
    Mr. Schenkel. That is correct, sir.
    Chairman Thompson. Is that your understanding, Mr. 
Goldstein?
    Mr. Goldstein. It is my understanding, sir, yes. The 
problem arises, though--and we have reported this previously--
is that there is a great variety of instruction by the contract 
guard companies to their guards about what kinds of actions 
they should be taking.
    We have done many interviews with the guards themselves. We 
have interviewed hundreds of them over the course of the last 
year-and-a-half. In talking to them, their understanding of 
what their role is, even within an individual company, differs 
greatly.
    We know of certain instances and have reported them, where, 
in fact, there was, at one Level four facility--and we reported 
this not that long ago--where an individual who was being 
detained by the Federal Protective Service, escaped from the 
officers, ran through the building wearing just one handcuff, 
had had his shirt ripped off when running out the front lobby 
of--this is a Level four building.
    All of the contract guards who were in the lobby, all of 
whom were armed, simply stepped away. The FPS officers went 
running after him and did not catch him. The individual was 
actually apprehended by an FPS officer several blocks away, who 
happened to be in a vehicle.
    So, there is a great variety of response that the contract 
guards actually provide, because there is not uniform training, 
sir.
    Chairman Thompson. Mr. Schenkel, is there a written policy 
directive on detention and arrest?
    Mr. Schenkel. Yes, sir. It is in our security guard 
information manual. To agree with Mr. Goldstein, as I most 
often do, that is one of the areas that we have really drilled 
down into over this past year. That is the consistency and 
standardization of guard training.
    That is also one of the areas that would affect staffing. 
We have to determine the appropriate number of guard--
inherently governmental guard training hours that we would need 
to provide to all contract guards.
    We have already assumed 16 additional hours from what we 
had previously had, because that certainly is an area of 
concern.
    Chairman Thompson. Can you provide the committee with the 
written detention policy that FPS provides for the contract 
guards, with respect to both detention and arrest?
    Mr. Schenkel. Yes, sir.
    Chairman Thompson. Thank you.
    Next is the gentleman from Louisiana, Mr. Cao, for 5 
minutes.
    Mr. Cao. Thank you, Mr. Chairman.
    I have a question for Mr. Schenkel. In the GAO report made 
September 23, 2009, the GAO found that FPS does not have a 
fully reliable system for monitoring, and there find whether 
guards have the training and certification which are required.
    How far are you in addressing the need to implement this 
system to monitor and verify whether or not the guards have the 
requisite training?
    Mr. Schenkel. Yes, sir. We have already institutionalized 
that by placing that piece into RAMP. We recognized that there 
was a failing in that area, approximately a year ago, and had 
incorporated that into phase one of our Risk Assessment 
Management Program.
    All of our guards are in that system. In the event that 
there is--and the way this system works, I should provide that 
first. The way this system works is, if a guard certification 
is due on 1 July, that guard, that guard company and the region 
will receive a notice 30 days prior to that. That individual 
will be notified to have to go regain his or her certification 
prior to that time.
    In the event that we have conducted guard post inspection 
after the 1st, and that individual is not certified, he or she 
will be immediately removed from post, because that is built 
into the automated system.
    Mr. Cao. Now, in your training and certifications, do you 
make sure that these contracting companies, these training 
facilities, do they provide training to the guards to make sure 
that they recognize new techniques, new equipment that are 
being used by terrorist groups around the world?
    Mr. Schenkel. Yes, sir. As a matter of fact, our threat 
management division publishes regular training bulletins, and 
our training division has produced specific training bulletins 
in regard to the penetration. We have also produced a training 
video. We have completed about 99.4 percent of all of the 
15,000 guards have completed that training, as well, sir.
    Mr. Cao. Okay.
    Also, in April of this year, the inspector general 
concluded that FPS did not use consistent selection practices 
to award guard contracts. In addition to these problems with 
awarding contracts, the IG noted a significant lack of 
oversight of the contractors once they are posted to security 
details.
    What have you done to address this issue?
    Mr. Schenkel. We work hand-in-hand with our consolidated 
contracting groups, currently under the leadership of the 
Office of Procurement Operations at DHS. But they are 
technically FPS employees.
    So, what we have done is promulgated specific directives 
addressing this consistency. Again, this is a consistency 
requirement across all 11 regions that was done, basically, 11 
different ways several years ago.
    As a result of these policy changes, we have also 
incorporated a project management office that reviews the 
performance, and we have incorporated a semiannual performance 
review of each individual guard contract company. Subsequent to 
that review, we will make the determination as whether or not 
to reward that contract or to terminate that contract.
    Mr. Cao. In 2009, the ISC published the use of physical 
security performance measures, which requires assessing the 
effectiveness of security procedures through performance 
measures and testing.
    What is the status of this implementation? Do you know?
    Mr. Schenkel. Again, part of that is incorporated into 
RAMP, where we have all the countermeasures that are in a 
specific building are now incorporated into that system, where 
we can not only identify the necessity for a replacement, 
repair, et cetera, but it also provides the visibility across 
all 9,000 buildings to give us the comparison necessary.
    Mr. Cao. So, can you assure us that we are safer now in 
these Federal buildings than we were 4 months ago?
    Mr. Schenkel. I would say yes. Mr. Thompson had asked me 
that 2 years ago. I said I think they were safer then. I think 
they are safer now, 2 years, because we--2 years even later--
because we have focused on our core mission, on our core 
competencies, and really have made tremendous strides across 
the board, not only on the mission support side, but certainly 
on the inspector side. Our uniformed operations and our 
investigators are totally dedicated to the protection mission.
    Mr. Cao. Thank you very much.
    Chairman Thompson. Thank you very much.
    For the committee's information, Mr. Schenkel, where are we 
from FPS's training of contractors, in terms of what FPS 
requires? Do we have a backlog?
    Mr. Schenkel. We do not have a backlog now. All of our 
contractors have been trained to the adequate levels for the 
magnetometer and X-ray training, which is our part of it.
    We have additionally institutionalized what we call a 
National weapons training program, which provides an additional 
16 hours of magnetometer and X-ray training.
    Chairman Thompson. So, your testimony is that there is no 
backlog on any of the training of the contractors.
    Mr. Schenkel. If there is a backlog, it is not dependent on 
the FPS training.
    Chairman Thompson. Is there a backlog of contractor 
training of its employees?
    Mr. Schenkel. Sir, I am sorry, but I would not know that, 
because those employees would be prevented from standing post.
    Chairman Thompson. But that is not the case. Mr. Goldstein 
just said that they checked records of people who were working, 
whose credentials had expired.
    Mr. Schenkel. That is absolutely correct, sir. That was 
prior to the outset of RAMP and the 100 percent scrub of all 
the certifications.
    Chairman Thompson. Mr. Goldstein, do you agree with that?
    Mr. Goldstein. I cannot answer that question specifically, 
however, something quite related, which is when FPS recently 
did the scrub that Director Schenkel is mentioning. This was 
just a couple of months ago. To prepare for RAMP and after our 
recent report, they found themselves that upwards of 50 percent 
of the guards did not have adequate certifications in place. At 
least one whole region was unable to provide information to the 
system, because it simply was not adequate.
    So, I know that that is certainly a goal of the Federal 
Protective Service to achieve, but we have not gone back in to 
check. Based on the kind of information that we are gathering 
to complete the report that we are doing for this committee, we 
are still concerned that that is not the case.
    Chairman Thompson. So, Mr. Schenkel, your testimony now is, 
all that is done, it is correct, and that we are 100 percent.
    Mr. Schenkel. We are 100 percent of guards in our system. 
If they have guards on the contract that are not working on a 
FPS contract, we have no control over that. Nor would they be 
allowed to stand in a FPS post.
    Chairman Thompson. I do not want us to get into semantics, 
but if we have contract guards at any Federal building, your 
testimony is that those guards have met the requisite training 
that FPS requires.
    Mr. Schenkel. I will give you a 99 percent qualification of 
yes, sir.
    Chairman Thompson. Well, I am going to allow you to provide 
that to the committee in writing, based on your review, and 
taking into consideration what Mr. Goldstein just shared with 
the committee.
    You are aware of the FDA situation with the guards, right?
    Mr. Schenkel. Was that the Chenega situation, sir?
    Chairman Thompson. Yes.
    Mr. Schenkel. Yes, sir. That contract was terminated 30 
September.
    Chairman Thompson. Did FPS find that out? Or somebody else 
found that out?
    Mr. Schenkel. It was found out on an Operation Shield 
conducted by the National Capital Region of the Federal 
Protective Service, at which time they conducted the guard post 
inspection and discovered, I believe it was 58 guards, that did 
not have certifications in the system. That does not 
necessarily mean that they were not certified. It is just that 
they were not in the system. That is that very difficult and 
challenging three-piece system that we used to operate under.
    Chairman Thompson. So, RAMP has replaced it?
    Mr. Schenkel. I am not positive which company has taken 
over that----
    Chairman Thompson. No, no. I am not----
    Mr. Schenkel. Oh, RAMP. I am sorry, sir. Yes, sir, RAMP is 
the new----
    Chairman Thompson. Okay.
    Mr. Schenkel. RAMP has replaced the old CERTS system. Yes, 
sir.
    Chairman Thompson. Okay, well, the gentleman from Texas, 
Mr. Cuellar.
    Mr. Cuellar. Thank you, Mr. Chairman. I want to thank the 
witnesses for being here with us.
    Let me go ahead and go and talk about contract oversight. 
Since 1995, the number of contract guards have gone up to about 
13,000. The number of uniformed Federal officers has gone down 
to roughly about 600 individuals.
    Let me go back to the issue that I believe the Chairman 
brought up on power of arrest. As an attorney, I will tell you 
that--and I think we all know this--that the contract guards do 
not have the power to arrest. If you put me--and I am not a 
peace officer, not certified by any law enforcement entity--if 
I stood next to one of those contract officers, we both have 
the same power.
    Is that correct, Mr. Schenkel?
    Mr. Schenkel. Basically, that is. Yes, sir. The same as a 
citizen arrest.
    Mr. Cuellar. Right. If you put any individual member of the 
public out there next to one of those contract officers, that 
individual has the same power as that guard.
    Is that correct?
    Mr. Schenkel. Technically, yes, sir.
    Mr. Cuellar. Okay. When you say ``technically,'' legally? I 
would say, ``yes.'' I mean, I would say, yes, technically. You 
are trying to say, technically, there is a difference. I am 
talking about legally.
    What is the technical part of it?
    Mr. Schenkel. Well, the technical part would be that they 
are trained individuals in the use of force. They have a 
minimal protection, as opposed to a standard citizen.
    Mr. Cuellar. Okay. Now, I understand that the inspector 
general, GAO also, that there have been different reviews that 
have come out on the operations of FPS. I believe, October 
2006, the Department of Homeland, Office of Inspector General, 
the OIG audited the operations, and found that the agency was 
not performing effective oversight over the contract guard 
program.
    Is that correct?
    Mr. Schenkel. Yes, sir.
    Mr. Cuellar. I believe that on April 2009, the OIG report 
again concluded that the FPS was not performing adequate 
contract oversight of its guards. Is that correct?
    Mr. Schenkel. That is correct, sir.
    Mr. Cuellar. All right. June 2008, GAO report also 
identified inadequate oversight of the contract program as, you 
know, one of the key challenges in order to give protection. Is 
that correct?
    Mr. Schenkel. Yes, sir.
    Mr. Cuellar. All right. When do you start implementing the 
recommendations that the OIG or the audit, or the GAO provided? 
I mean, I would assume--I mean, if I was you, or I was in your 
place, I would assume that, if somebody gave me some 
recommendation, I would sit down with that agency who were 
trying to implement this. It was not only one time, but I see 
three different types.
    When do we start implementing those recommendations?
    Mr. Schenkel. We started in 2006 and 2007, when we made the 
determination to go to an inspector-based force and concentrate 
on our core mission of protection, as opposed to some of the 
other distracting law enforcement missions.
    Since that time, we have had to standardize the policies 
and procedures for the Federal Protective Service.
    Mr. Cuellar. Do you all have a--I am sorry--do you have a 
strategic plan?
    Mr. Schenkel. Yes, we do, sir.
    Mr. Cuellar. Okay. Mr. Chairman, could I ask for a copy of 
that?
    I would ask you if you could send that within 3 days, if 
you do not mind. I am sure you have it available, handy.
    Now, GAO found different issues, first of all, 
qualifications and certifications. The large number of contract 
guards who do not have training and certification required to 
be deployed at a Federal facility, has that been addressed?
    Mr. Schenkel. Yes, sir, it has.
    Mr. Cuellar. Okay.
    GAO, is that correct? Mr. Goldstein?
    Mr. Goldstein. At this point in time, we are not certain. 
We have not gone back and retested to determine whether or not 
the new system in place is adequate. It is something we 
certainly could do for the committee. But we cannot answer that 
question today.
    Mr. Cuellar. Mr. Chairman, could I request that answer for 
the committee?
    Compliance with post orders.
    GAO found that the agency was inconsistent in its 
inspection of guard compliance with post orders. Has that been 
complied with? Have the post orders been complied with?
    Mr. Schenkel. FPS provides the template for post orders. 
The Facility Security Committees actually write the post 
orders.
    Mr. Cuellar. All right.
    Mr. Schenkel. We have standardized the template, but we do 
not have the authority to standardize the procedures.
    Mr. Cuellar. GAO, any response on that, on the post order 
compliance?
    Mr. Goldstein. I think the post orders really come down to 
a question of adherence by the contract guard companies, 
ensuring that the contract guards are trained properly, but 
also oversight from FPS. As Director Schenkel mentioned, one of 
the biggest challenges they have is having sufficient staff to 
really oversee the contract guard program, which is 
challenging.
    Mr. Cuellar. Right. Well, let me ask, because my time is 
up, on the covert testing problems that we had on the 
allocation of resources using risk management, and some of the 
issues that were brought up on the management of human capital 
deficiencies, on the difficulty of meeting mandated staffing 
levels, on a lack of human capital plan.
    By the way, a capital plan should be part of the strategic 
plan also, Mr. Schenkel.
    On those issues, could I--Mr. Chairman, I am going to ask 
the GAO and Mr. Schenkel if they can provide that information 
to the committee.
    One last question, and I will close, Mr. Chairman, on the 
GAO. Has any of the customers, tenants ever complained about 
paying a higher fee for more security, that you know of?
    Mr. Goldstein. We have talked to many tenants in the course 
of our work, and we have had a little variety of responses. 
Many tenants are concerned. Our report on human capital in July 
2009, has a survey of many of the tenants.
    Many of the tenants have been concerned that their fees are 
going up, but their services may not be going up with it, you 
know, at the same time. In other words, because of the 
challenges FPS has faced and the lack of officers in many 
places, there have been concerns that the security is not what 
it was, that there are not officers present at all at times, 
and the way it used to be.
    The FPS is challenged by the staffing situation, sir.
    Mr. Cuellar. If the Chairman allows me, if I could, on 
those responses. Strategic plan, within 3 days that should be 
available. The other one, I assume, maybe 30 days from both of 
you, or if that would be an adequate timetable.
    Chairman Thompson. Three days for both is fine with me.
    Is that a problem?
    Beg your pardon?
    Mr. Schenkel. I am sorry. I do not believe so.
    Chairman Thompson. Okay.
    Mr. Cuellar. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you.
    The gentlelady from California for 5 minutes.
    Ms. Richardson. Yes, thank you, Mr. Chairman.
    First of all, hopefully, Mr. Beers, has the question been 
asked to you about the payment during the transition period of 
collecting fees? Have we already--did anyone do that question 
yet?
    Mr. Beers. About the level of fees for----
    Ms. Richardson. During the transition period?
    Mr. Beers. Yes. It was brought up by Director Schenkel in 
the transition briefings that we received as part of the 
transition team.
    Ms. Richardson. Okay.
    Mr. Beers. These issues have all come up during that 
period.
    Ms. Richardson. But it is my understanding that the NPPD 
requires the FPS to pay the transition costs. Is that correct?
    Mr. Beers. That is correct. There are services rendered on 
behalf of them. We would be out of compliance if we used other 
monies to pay for our servicing of FPS.
    Ms. Richardson. Okay. But has that cost us anything in 
terms of our current staffing levels?
    Mr. Beers. The cost of the transition is--we have some 
estimates. It is not finally determined. We are working with 
FPS to determine precisely what those costs will be.
    This is an additional cost, quite frankly, over and above 
the cost, the services that ICE has been providing, or that FPS 
will provide when this transition is complete, which will be by 
the--by no later than the end of fiscal year 2010. But our 
effort is to have that completed earlier than that time.
    Ms. Richardson. So, if it is in addition to what has been 
done before, have you considered increasing the building 
security fee to cover----
    Mr. Beers. We are trying to make this transition not cause 
an increase in the overall fees.
    Ms. Richardson. Then who is going to pay for it?
    Mr. Beers. FPS.
    Ms. Richardson. Do you feel that they have the sufficient 
budget to do so?
    Mr. Beers. We are working on that.
    Ms. Richardson. What do you mean by that?
    Mr. Beers. I mean we are in discussion about where the 
funding would come from within the FPS budget in order to pay 
for those costs. At this particular point in time, that is a 
subject that is still under discussion, so I am not in a 
position to tell you precisely where that money will come from 
in the FPS budget.
    Ms. Richardson. Mr. Goldstein, is that something you are 
privy to? Do you have an opinion on that, of whether you feel 
they would be able to absorb that in their budget?
    Mr. Goldstein. We have not looked at it specifically. They 
are clearly hamstrung with respect to their budget in many ways 
today.
    Our concern is one of transparency for the agencies who pay 
their security fees. They do not have the understanding that it 
is going to pay for administrative costs in transitioning an 
agency from one part of the Department to another. They believe 
it is going to pay for enhancing the security of their 
facility. So, that is a concern that we have.
    Ms. Richardson. So, then, you would be of the mind that the 
costs would not be increased, or that would be your 
recommendation.
    Mr. Goldstein. I do not have a recommendation at this 
point. We have not sat down with DHS to discuss this 
specifically.
    Ms. Richardson. Okay. Do you have any intentions to do so?
    Mr. Goldstein. We certainly can. We have not done so at 
this point.
    Ms. Richardson. Okay. My last question is for Mr. Peck.
    The GAO recommends that the FPS and the GSA make 
improvements to facilitate information sharing. If would say 
anything across the board, you know, what this committee talks 
a lot about is information sharing and communication.
    How would the GSA collaborate with the NPPD and the FPS 
during the transition to address any information-sharing 
issues?
    Mr. Peck. Like I say, I have been in this job for 3 months. 
I think my first week on the job, because I had done it before, 
I had a conversation with the security people we have at GSA, 
because we have certain National security responsibilities 
aside from just protecting our buildings, about intelligence 
and security information sharing with FPS, other agencies of 
the Federal Government.
    I do not think that the transition--specifically on the 
question of FPS and GSA--I do not think that the transition 
will affect our information sharing. I do believe that we have 
a good channel of communication between us and the DHS and the 
Federal Protective Service on the information sharing that we 
need.
    There are certain things that could happen that would 
require that we take certain actions at a Federal building on 
the management side, that we depend on DHS and other agencies 
of the Government to tell us. I think we have pretty good 
channels.
    I am not going to tell you, however, that I believe that 
all of the information sharing in the Government, some of the 
information that they may need from time to time, I would not 
guarantee that we have fixed that problem totally inside the 
Government.
    But I must say, we believe we have the channels. We have 
the security clearance, if necessary, the handling of 
classified documents and information that we need to do that.
    Ms. Richardson. Do you anticipate figuring out whether it 
is fixed? Well, not necessarily whether it is fixed, but 
whether it is working?
    Mr. Peck. I mean, we run exercises. We do all those sorts 
of things you do to see if things are working well.
    I am confident that we, as I say, that we have the 
information we need with DHS on those threats that are specific 
to Federal facilities. Yes, we do.
    Ms. Richardson. Mr. Chairman, could I have another 20 
seconds? I think he wanted to respond.
    Thank you.
    Chairman Thompson. Mr. Schenkel.
    Mr. Schenkel. I just wanted to help Mr. Peck out here, 
because the most contentious issue was the sharing of the full 
facility security assessment. Under our new program of RAMP, we 
have provided--we will be providing, I should say--the fully 
disclosed facility security assessment.
    You know, we have enjoyed an ever increasing, positive 
relationship with the GSA over the last several years. This is 
a giant step forward. That was the issue in particular that 
came up under Mr. Goldstein's audit.
    Mr. Peck. With respect to that, may I say that, if I can, 
Mr. Chairman----
    Chairman Thompson. Go ahead.
    Mr. Peck [continuing]. That is really important, what 
underlies an awful lot of the questions here and that we really 
need to talk about is, it is one thing for us to establish 
uniform standards with respect to security in facilities, which 
we do for how much of a blast resistance they should have, for 
example, or what the overall training for guards should be.
    But as I started out by saying, that each facility is 
unique in the kinds of agencies it houses, the accessibility we 
need from the public, how far they are from a curb, or whether 
they are in a threatened geography in this country or not, that 
it makes this job much more complicated.
    I will just say with respect to our question about security 
guards and overseeing them, this is something that I have seen 
over some 15 years being associated with GSA and FPS, if you go 
back to my first term in GSA. That FPS has transitioned, I 
would not say, though, all the way, but from a force where many 
of the members of FPS regarded themselves primarily as 
uniformed police officers, to an organization where they are 
doing security.
    So, I think that shift of resources has happened. Clearly, 
we all need to keep working on it.
    But it is because security guards get hired, and then they 
have to adapt to specific circumstances in a building, that the 
training is even more complicated, and overseeing them is more 
complicated.
    Chairman Thompson. Thank you very much.
    Ms. Richardson. Thank you, Mr. Chairman.
    Chairman Thompson. I am happy to see that GSA and FPS are 
talking, because at some point, GAO said, that was not the 
case. But we now have it before this committee that you are 
doing that. We thank you.
    The gentlelady from Texas for 5 minutes.
    Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. I thank 
the witnesses for their presence here today, and the witnesses 
of the second panel.
    I think we have to direct questions in the backdrop of an 
enormous number that is really shocking to me. I recognize that 
Federal Government has a large number of Federal buildings. I 
will find the number here in a moment.
    But what shocks me is that we are talking about 5,000 
contractual companies or contracts dealing with the security of 
Federal buildings post-9/11.
    I find that both disturbing in terms of the ability for 
oversight and the carefulness in which the personnel are 
actually trained, the certification, and the Federal Government 
even knowing what the level of security is for the thousands 
upon thousands of Federal employees and individuals who have to 
go into Federal buildings on Federal business.
    So, Secretary Beers, if I can, can you give any explanation 
as to what happened in the video that Chairman Thompson showed?
    Mr. Beers. Yes, ma'am. As we have indicated in a variety of 
fora, the issues at hand involve several aspects, the first of 
which is, were the guards at the facilities that the GAO looked 
at adequately trained and certified in order to be able to 
perform the job that should be expected of them to do that?
    That particular issue was addressed by Director Schenkel 
and his staff in terms of an immediate audit of all the 
contract guards, to make sure that their certifications were 
up-to-date. Now, this past week, the initiation of the Risk 
Assessment Management Program, RAMP, which they now have an 
automated, uniform, national system----
    Ms. Jackson Lee. When do you think that program--forgive me 
for doing an intervention here. When will the RAMP program be 
fully operational?
    Mr. Beers. Fully operational, it will be 2011. But the 
initial point, and the point of Mr. Goldstein's investigation, 
that is the first part of the program, which is the listing of 
all the contract guards and their certification status, so that 
Director Schenkel and his staff will know when they need to 
have that updated, will provide indications to the company that 
they have got a 30-day window to finish that and get it done, 
or they will not be allowed to stay on post.
    Ms. Jackson Lee. Let me just say that, if this was not a 
play game, if you will, lives would have been lost. I am taken 
aback by the answers--and this is on-going. This is, obviously, 
preceding this administration. So, you are now having to be the 
problem-solvers, and I acknowledge that.
    But I need to be pointed in the fact that this could have 
resulted in massive loss of life.
    The question is, have we changed the mindset--again, 5,000 
outside contractors. What is the present position on increasing 
the number of those who are under the Federal Protective 
Service as employees?
    Mr. Beers. We have, at the direction of Secretary 
Napolitano, undertaken a review of the staff size of the 
Federal Protective Service. We have had two data calls and 
meetings to discuss that information. We have asked for more 
information. We owe her, as soon as possible, the results of 
that, in order both to provide that to her, but also to provide 
that to you, so that you know what we think the optimal 
resource and personnel----
    Ms. Jackson Lee. Well, what do you think that--if Mr. 
Chairman would indulge me, I see my seconds are running out.
    What is your perception of 5,000? What do you think you 
would need to increase it by to have a balance of the huge 
number of outside contractors, which I can imagine you can get 
your hands around in training, no matter what kind of system 
you put in place?
    Mr. Beers. Let me let Director Schenkel answer the specific 
question, because I am not aware that, under his 
responsibilities, he has 5,000 contracts. That would be one for 
every three guards. I do not think we are--I think that is for 
all Federal facilities, and not what FPS is responsible for 
protecting.
    Mr. Schenkel. Yes, ma'am. There are 372,000, I think, 
Federal facilities. We are only responsible for the 9,000 GSA 
owned or leased, of which we have approximately 52, 53 
contractors, and approximately 126 contracts.
    Ms. Jackson Lee. Well, let me move quickly to the General 
Accountability Office, please, and Mr. Peck. What is your 
assessment of what they have?
    Mr. Peck. The number of contracts? It has got to be much 
more like what they are discussing. We have 1,500 Government-
owned buildings, about 8,000 that are leased facilities, some 
of which--many of which we have contract guards for. So, it is 
15,000 guards in GSA facilities. It would be much more like a 
smaller number of contracts.
    Ms. Jackson Lee. A small number of contracts?
    Mr. Peck. I mean a smaller number of contracts than--I 
would be inclined to think the number that Mr. Schenkel cites 
is probably closer--I do not know specifically--than anything 
like 5,000. That may refer to contracts at Department of 
Defense installations, and all those other Government agencies.
    Mr. Goldstein. If I may, ma'am. Director Schenkel is 
basically right. There are 300-and-some-odd contracts 
covering----
    Ms. Jackson Lee. Are the 5,000 covering all the other 
buildings?
    Mr. Goldstein. That I do not know. We have not looked at--
we have only looked at the 9,000 Federal buildings under GSA--
--
    Ms. Jackson Lee. Let me just get this to this final 
question.
    In our report it says that GSA, that FPS, provides regular 
briefings on building security, performs security assessments 
and makes recommendations on security countermeasures to GSA 
and tenants. However, GSA and tenant agencies ultimately decide 
whether to sign onto the recommended countermeasures.
    So, to GSA, which is Mr. Peck, I would just like to get in 
writing the FPS recommendations for the last year--if we have 
to go back further--and then, the response of GSA in terms of 
funding or complying with those recommendations.
    Mr. Peck. Okay. I would like to be clear. The decisions on 
those recommendations--it goes back to something we said 
before--the decisions on what to do in specific buildings is 
made by something called the Facility Security Committee, which 
is not a GSA committee. It is chaired by the largest--the head 
of the largest--tenant in a Federal building.
    Having said that, I will go back and see what--I will go 
back and get you the documentation that you asked for.
    Ms. Jackson Lee. Thank you, Mr. Chairman. I would only say 
that there is a lot of confusion. There seems to be one hand 
not knowing what the other hand is doing. But I would hope 
that, at some point, we can balance contracts with hired 
personnel, trained by the Federal Government, and being under 
the auspices of the Federal Protective Service, National 
Protection Programs Directorate.
    Thank you very much. I yield back.
    Chairman Thompson. Thank you very much.
    I would like to thank our panel of witnesses for their 
valuable testimony, and the Members for their questions, 
likewise.
    Secretary Beers, the facilities committee is troubling. I 
think I do not have to say anything else. I would suggest that 
you have to look at it. Whatever we need to do--if there is 
legislation, or whatever--from a security perspective, to have 
people with no security training making security decisions is a 
no-brainer, in my estimation, and, I think, based on GAO's 
situation.
    The other issue is the 2010 transition plan. Committee 
staff has been working with your staff on making sure that we 
are kept up with what is going on.
    We need your word that we will not be impeded from doing 
our work by your staff, by a lack of information.
    Mr. Beers. Yes, sir. With respect to the first issue, we 
are in total agreement with respect to dealing with the 
Facility Security Committees. That is why--and this is one of 
the values as a marriage of FPS and NPPD.
    We had always in NPPD been responsible for the Interagency 
Security Committee, which is the oversight body of this larger 
process. That is why we had this summit meeting this week that 
Mr. Peck and I both attended, and that our leader, Austin 
Smith, ran.
    We are expecting a number of solid recommendations coming 
out of that. I gave you some indication of what they--the 
direction that we are going.
    But I can tell you that Secretary Napolitano is personally 
interested in this. I have had at least two conversations with 
her specifically on this point after she became aware of this 
challenge that Director Schenkel and Mr. Goldstein, as well, 
have pointed to. So, we really are focused on that.
    With respect to the provision of information, we owe you a 
report, I believe by the end of this calendar year, on the 
status of the transition. That is not to say that we will not 
talk or provide information in between. But we owe you, as we 
owe ourselves, a constant monitoring of this process. We will 
keep you informed, sir.
    Chairman Thompson. Thank you very much. We look forward to 
it.
    Before being dismissed, I would remind our first panel of 
witnesses that the Members of the committee may have additional 
questions for you. We will ask you to respond expeditiously in 
writing to those questions.
    Thank you again. It was a good hearing.
    I would now ask the clerk to please prepare the witness 
table for our second panel.
    I would like to thank the panel again.
    Welcome to the second panel of witnesses.
    Our first witness is Mr. David Wright, president of the 
AFGE, Local 918. Mr. Wright is a 23-year veteran of the Federal 
Protective Service. During his tenure at AFGE Local 918 as 
president, he sought to expose management problems at ICE and 
FPS.
    Welcome, Mr. Wright.
    Our second witness is Mr. Stephen Amitay. He is the Federal 
legislative counsel for the National Association of Security 
Companies, the Nation's largest contract security association. 
Its member companies employ over 400,000 security officers 
throughout the United States in the commercial and governmental 
sections.
    Welcome.
    I would once again like to thank all our witnesses for 
being here today. As previously stated, the witnesses' full 
statement will be inserted in the record. I would now ask each 
witness to summarize his statement for 5 minutes, beginning 
with Mr. Wright.

STATEMENT OF DAVID L. WRIGHT, PRESIDENT, AMERICAN FEDERATION OF 
                GOVERNMENT EMPLOYEES, LOCAL 918

    Mr. Wright. Thank you, Mr. Chairman.
    Chairman Thompson, Ranking Member King and Members of the 
committee. My name is David Wright. I am president of AFGE 
Local 918, the FPS union.
    Since the 9/11 attacks, I have watched with growing 
frustration and outrage as the FPS was allowed to deteriorate. 
Despite intervention by Congress to establish minimum staffing 
levels, FPS still has less boots on the ground than when it 
joined DHS. With our move to NPPD, I am hopeful that DHS can 
finally get the vital mission of protecting Federal employees 
and facilities right.
    The FPS faces daunting challenges, and its officers and 
inspectors have been shocked and dismayed by the recent GAO 
reports and vulnerabilities that continue to exist. Every day, 
they put their lives on the line to accomplish the DHS mission, 
and have sacrificed their family time to work the many hours of 
overtime to ensure that facilities are protected.
    While we are finally confident that DHS leadership wants 
FPS to succeed, we need your help to make sure the embedded, 
intransigent and unaccountable bureaucrats at OMB cooperate to 
provide the resources necessary to accomplish our mission.
    One glaring example is the monitoring and training of FPS 
contract guards. In 2001, there were 5,000 contract guards and 
1,450 total FPS personnel. By 2009, there were 15,000 contract 
guards, but only 1,225 total FPS personnel.
    That threefold increase in guards, coupled with a 16 
percent cut in FPS staff, was a recipe for failure. No one 
should have been surprised to discover the deficiencies in 
contract guard management, performance and guards' abilities to 
detect weapons and explosives.
    Despite this critical shortfall, OMB actually decreased 
security charges collected to monitor and administer contract 
guards by 25 percent this year.
    When GAO covertly entered FPS jurisdictions with 
explosives, FPS over-reliance on contract guards was exposed. 
Security has clearly been reduced. Staggering lapses by GAO 
make in-sourcing of contract guards at high-risk buildings an 
important component of any overall reform effort for FPS.
    Among the other challenges faced by FPS is a funding 
structure that has resulted in cuts of $700 million since 9/11.
    We have FPS law enforcement officers that do not have 
Federal law enforcement retirement or benefits. FPS operates 
only during normal business hours in New York and other major 
cities. Criminals and terrorists do not work business hours, 
and neither should FPS.
    Building security committees have failed to approve 
critical security countermeasures. There is a case going on 
right now of an FPS recommendation for a night-time guard at a 
courthouse in a western State. That guard countermeasure has 
been declined for years by the non-security professionals of 
the FSC, and very recently, there were gunshots directed into 
that Congressional office window.
    We also face field law enforcement staff that is 
significantly below Congressionally mandated minimums, and 
lastly, a critical manpower shortage in New York City.
    We need your help to remedy these challenges by: No. 1, 
mandating sufficient FPS staff to protect Federal employees and 
facilities; No. 2, recognize FPS dedicated law enforcement 
officers with appropriate law enforcement benefits and pay; No. 
3, in-source contract guard positions at high-risk facilities 
by replacing them with Federal police officers; and No. 4, 
remedy the FPS manpower crisis in New York.
    A trial of Khalid Sheikh Mohammed at the New York City 
Federal courthouse will present a security risk that FPS is 
ill-equipped to handle with depleting security to other Federal 
buildings in the country.
    Since 2001, while FPS has decreased and the risk of attack 
on Federal facilities has increased, the number of non-DOD and 
non-FPS security specialists and police officers has increased 
by over 3,200 positions. The V.A. police, which protects 154 
medical centers Nation-wide is twice the size of FPS in 
manpower.
    The sole Federal agency charged with the critical mission 
of protecting thousands of Federal buildings and millions of 
Federal employees and visitors from terrorist and criminal 
attack, the Federal Protective Service is now within NPPD, but 
remains an agency in crisis.
    I believe the state of the FPS right now is little 
different than that of the airline industry's security prior to 
9/11. Then, a reliance on poorly trained, unmonitored contract 
guards with no law enforcement authority, security 
implementation by conflicting entities, an unworkable funding 
structure, and a perception of security through inspections 
instead of protection by boots-on-the-ground Federal officers 
proved disastrous.
    Mr. Chairman, Ranking Member King, Members of the 
committee, when America demanded professional security at 
airports in the wake of 9/11, Congress and the administration 
responded by hiring over 20,000 Federal officers to staff the 
TSA. Now is the time to do the same for FPS. The dedicated men 
and women of FPS need your help to enable our success and to 
protect Federal employees and properties across the Nation.
    Thank you for the opportunity to testify.
    [The statement of Mr. Wright follows:]

                 Prepared Statement of David L. Wright

                           NOVEMBER 18, 2009

    Chairman Thompson, Ranking Member King and Members of the 
committee: My name is David Wright. I am President of AFGE Local 918, 
which represents the dedicated men and women of the Federal Protective 
Service. I have been an FPS Law Enforcement Officer for the past 23 
years. In the 8 years since the September 11 attacks, I watched with 
growing frustration and outrage, as the Federal Protective Service was 
allowed to deteriorate and drift like a rudderless, sinking ship. 
Despite intervention by Congress to establish minimum staffing levels, 
FPS still has significantly less boots-on-the-ground in-service field 
staff than when it joined DHS. The transition to the National 
Protection Programs Directorate is clearly a welcome change in the 
right direction. I am hopeful that under the leadership of Secretary 
Napolitano and Under Secretary Beers, DHS can finally get the vital 
mission of protecting the over 1 million dedicated civil servants who 
work in the 9,000 FPS secured facilities located in over 2,100 American 
communities right.
    The Federal Protective Service indeed faces daunting challenges, 
and its officers and inspectors have been shocked and dismayed by the 
recent GAO reports and vulnerabilities that continue to exist. Every 
day, they put their lives on the line to accomplish the DHS mission and 
have willingly sacrificed their leisure and family time to work the 
many hours of overtime required to make sure facilities are protected 
and contract guards are correctly trained and proficient in their 
duties. Despite these yeoman efforts, FPS does not have sufficient 
staff to accomplish these vital tasks. While we are finally confident 
the Department leadership wants FPS to succeed, we need your help to 
make sure the embedded, intransigent, and unaccountable bureaucrats at 
OMB cooperate to provide the minimum resources necessary to accomplish 
our mission.
    One glaring example is the monitoring and training of contract 
guards. In 2001 there were 5,000 contract guards and FPS was authorized 
over 1,450 total personnel. By 2009 there were 15,000 contract guards, 
but FPS was authorized only 1,225 total personnel. A three-fold 
increase in guards coupled with a 16 percent cut in FPS staff was a 
recipe for failure. No one should have been surprised to discover 
shortfalls in contract guard management, performance, and ability to 
detect weapons and explosives. Clearly OMB should have increased the 
resources available for monitoring, rather than imposing a cut.
    Based in the GAO test, where without detection, they entered 
facilities with explosives; the overreliance on contract guards--
particularly at the highest security level buildings--has clearly 
reduced the effectiveness of security provided around these facilities. 
The staggering lapses found by the GAO make insourcing of contract 
guards at high risk buildings an important component of any overall 
reform effort for FPS.
    We do not dispute GAO findings that FPS could better manage its 
roles, and are encouraged that implementation of the long planned Risk 
Assessment Management Program (RAMP) is a major step foRAMPrward to 
provide a viable tool that will assist our officers and inspectors to 
manage defined risks at the facility and local levels. While will apply 
GAO key practices to facility protection, the additional workload and 
tracking of field staff actions will result in increased time to 
complete assessments. Since the overall mission will not change RAMP 
could add to the real root cause of most FPS failures and the largest 
impediment to progress, which is a lack of sufficient field staff.
    Major challenges that hamper the protection of Government employees 
and members of the public who work in and visit Federal facilities 
include:
  <bullet> Diminished security and increased the risk of crime or 
        terrorist attacks to facilities as a result of decreased or 
        eliminated law enforcement services such as proactive patrol in 
        many locations.
  <bullet> Contract guards that lack law enforcement authority, and are 
        not adequately monitored or trained.
  <bullet> An unworkable and inefficient funding structure that has 
        resulted in funding being cut by $700 million since 9/11, 
        employee pay reduced by 10 percent, and unbudgeted transition 
        costs.
  <bullet> The fiscal year 2010 appropriations act requires FPS to pay 
        the costs of transition to NPPD from its revenues, but OMB has 
        not yet raised security charges to provide any increased 
        revenue.
  <bullet> FPS consistently loses high performing employees because our 
        law enforcement officers are not recognized as such and do not 
        have the same benefits as other agencies with equivalent 
        missions.
  <bullet> Limited service hours in major cities impact critical 
        monitoring tasks.
  <bullet> Inadequate time to complete necessary tasks, including 
        security assessments.
  <bullet> Building Security Committees that fail to understand or 
        approve critical security measures.
  <bullet> ISC guidance interpreted by tenant and GSA security staff 
        that could result in hiding rather than accepting or mitigating 
        risk.
  <bullet> Coordination with other agencies security personnel who 
        frequently attempt to ineffectively duplicate FPS provided 
        services and hamper consistent application of risk-based 
        security measures.
  <bullet> In-service field staff below Congressionally mandated 
        levels.
  <bullet> FPS lacks membership on the interagency security committee 
        and no longer has a role as an honest broker to ensure 
        compliance with security standards.
  <bullet> FPS field managers need to build a labor management 
        partnership to establish one team dedicated to the critical 
        Federal facilities protection mission.
    To meet these challenges and to achieve the promise of one 
Department responsible for securing the Homeland, including Federal 
employees and facilities, an effective long and short-term strategy is 
necessary. Congress should take these critical initial steps:
    1. Immediately mandate sufficient FPS staff to meet mission 
        requirements.
    2. Recognize FPS's dedicated law enforcement officers as such with 
        appropriate pay and benefits.
    3. Stop the fee-funding scheme that forces agencies to choose 
        between adequate protection for their employees and service to 
        the public, by proposing direct appropriation of essential 
        basic and mandated security measures.
    4. In-source contract guard positions at high-risk facilities, by 
        replacing them with Federal Police Officers.
    5. Give DHS the tools to protect Federal facilities by codifying 
        the role of the Interagency Security Committee; and restoring 
        FPS Committee membership as its honest broker.
             continuing challenges to effective protection
    1. Diminished security and increased the risk of crime or terrorist 
attacks in many facilities as a result of decreased or eliminated law 
enforcement services such as proactive patrol in many locations.
    The GAO has pointed to the importance of a uniformed, Federal law 
enforcement presence surrounding Federal buildings as an essential 
security requirement to detect and deter attack. It is an approach 
embraced by virtually all law enforcement agencies across the country. 
A properly staffed FPS would function as a community police 
organization where security and law enforcement tasks are integrated. 
The focus would be proactive and designed to prevent criminal and 
terrorist attack, rather than the traditional police model of merely 
responding to reports of crime, determining if a law was violated, 
initiating action through the criminal justice system and cleaning up 
the resulting mess. FPS' protection mission will be best accomplished 
by using inspectors, augmented by Federal Police Officers (series 083) 
in the largest cities, and at the highest risk facilities. Inspectors 
would be assigned as the designated service provider for a mix of high 
and lower risk facilities to conduct facility security assessments, 
support facility security committees, assist facility emergency 
planning, train facility tenants on security topics, assist with 
facility emergency plans, train contract guards, and verify 
functionality of most security countermeasures. Both police officers 
and inspectors would provide law enforcement response, proactive 
patrol, guard performance inspections, verification of guard 
certifications, and guard training monitoring.

    2. Contract guards that lack law enforcement authority and are not 
adequately monitored or trained.
    The GAO has documented the risks inherent in depending on contract 
guards as a force multiplier without adequate Government inspection, 
performance monitoring, and training. Contract guards lack the 
authority to arrest. With additional staff, FPS would have 
significantly higher assurance guards are performing and are trained to 
the specifications of the contract, through robust inspection and 
monitoring protocols. Contract guards should not have the 
responsibility for all dedicated facility patrol, access control, CCTV 
monitoring, and weapons detection at all facilities, including complex 
buildings with established high and very high risks. Roving patrol and 
weapons detection positions at the highest risk facilities should be 
performed by Federal police officers, just as they are at the White 
House, the Capitol and Congressional office buildings, and the 
Pentagon. In-sourcing these positions at select facilities to use FPS 
police officers would materially reduce the risk of successful attack 
using tactics similar to those used by the GAO. The use of contract 
guards can continue for monitoring functions, for agency specific 
requirements, and at lower risk facilities with guard requirements, 
such as Social Security offices. Additionally, these police officers 
would have a natural career path, building on their experience as 
Federal officers, to the inspector position, thus creating an initial 
accession position within FPS.

    3. An unworkable and inefficient funding structure that has 
resulted in funding being cut by $700 million since 9/11, employee pay 
reduced by 10 percent, and unbudgeted transition costs.
    The history of the unworkable FPS funding method has been well 
documented. Congress created DHS to prioritize risk mitigation 
strategies based on threat, vulnerability, and consequence of attack. 
DHS cannot perform this function for the Federal facilities it is 
charged with protecting under the current security charge FPS funding 
scheme.
    In the post-9/11 world of today, it makes virtually no sense to 
rely upon a square footage based fee to entirely determine funding for 
the FPS. While State and local taxes are used to fund basic police and 
security functions, no Government collects fees from other Government 
budget accounts for these essential services. Relying only on increased 
basic fees, as OMB has done, ultimately reduces the basic security 
services agencies can afford and increases the risk of their employees 
and facilities to attack. Prior to its transfer to DHS, GSA subsidized 
the FPS by $139 million above security fee collections and paid FPS 
overhead and other costs from its appropriated base. DHS however, has 
relied only on security fee collections, resulting in a net cut of $700 
million (including inflation adjustments of 2.5%) between 2003 and 
2008, despite increases in the fees charged to agencies for their 
protection.

    4. The fiscal year 2010 appropriations act requires FPS to pay 
transition costs from its revenues but OMB has not raised security 
charges to provide any increased revenue.
    Without increased security charges, particularly after this year's 
25 percent cut in the FPS charge to administer and monitor contract 
guards, to cover FPS support costs which were previously provided 
without charge by ICE, FPS will likely be forced to cancel procurement 
of critical capital items and may have to curtail operations or hiring 
of replacement staff.

    5. FPS consistently loses high performing employees because our law 
enforcement officers are not recognized as such and do not have the 
same benefits as other agencies with equivalent missions.
    FPS officers have been denied the same benefits many other officers 
with equivalent missions receive including the Capitol Police and the 
Secret Service Uniformed Division. This results in excessive attrition, 
and impedes recruitment of many superbly qualified law enforcement 
candidates.

    6. Limited service hours in major cities that impact critical 
monitoring tasks.
    The GAO found that in most regions FPS is only on duty during 
regular business hours. Guards are not routinely monitored at night and 
on weekends. FPS does not even have 24-hour staffing in New York City. 
Criminals and terrorists don't work business hours and neither should 
FPS. Night and weekend staffing should be established in the 18 to 20 
major metropolitan areas with the greatest number of high-risk and 
total facilities.

    7. Inadequate time to complete critical tasks, including security 
assessments.
    The GAO has reported FPS inspectors do not have enough time to 
complete Facility Security Assessments. Some only have 10 percent of 
the time required to complete quality assessments to established 
standards. In the last 2 years, as FPS attempted to reduce the various 
increased risks reported by the GAO without increased FTE, our 
inspectors and police officers had to rob Peter to pay Paul to get the 
job done. In some cases this had the effect of reducing risk in one 
area by adding it in another. Additional staffing, including police 
officers, coupled with a reduction in the number and mix of facilities 
assigned to each inspector is critical to the success of a viable 
community policing model.

    8. Building Security Committees that fail to approve critical 
security measures.
    The GAO reported Building Security Committees (BSC), which are not 
composed of security professionals, have responsibility for approving 
security countermeasures to reduce that facilities vulnerability to 
attack. Additionally, due to budget pressures agencies had competing 
uses, in addition to security, for their funds. Recently at an 
unguarded courthouse in a western State, there were gunshots directed 
into a congressional office window. FPS has proposed a nighttime guard 
for that facility each year since initial building planning in 2002, 
but it has not been implemented by the BSC. Action to place DHS in 
charge of this process is necessary to ensure facilities are properly 
protected.

    9. ISC guidance interpreted by tenant and GSA security staff that 
could result in hiding rather than accepting or mitigating risk.
    The Interagency Security Committee (ISC) recently promulgated new 
guidance on the establishment of Facility Security Level (FSL). The FSL 
determines what level of protection a building should have. Members of 
the GSA and other agency security staff have stated that if a facility 
is not going to implement required security standards, the FSL level 
should be downgraded as a risk acceptance measure. This has the effect 
of hiding, not mitigating risk. DHS should be assigned a clearly 
defined management and oversight role for the ISC to ensure consistent 
implementation of its critical security guidance, rather than the 
``consensus basis'' under which it currently operates.

    10. Coordination with other agencies security personnel who 
frequently attempt to ineffectively duplicate FPS provided services and 
hamper consistent application of risk-based security measures.
    Since 2001 the number of non-DOD security specialists and police 
officers has increased by over 3,200 positions. Many of these security 
positions appear to duplicate functions and services provided by FPS, 
and may represent inefficient empire building. Some agencies have even 
claimed that since they have security specialists they should not have 
to pay security charges. This is like a homeowner buying a shotgun and 
garden hose, then claiming he should be exempt from paying taxes for 
police and fire protection. Ad hoc security staff and procedures can 
create additional vulnerabilities and make coordination of Government-
wide standards difficult. It was even reported that the DHS Office of 
Security attempted to create its own law enforcement agency to protect 
its GSA owned space, rather than use FPS for the service. The ``I will 
take care of my agency and everyone else be damned'' attitude prevalent 
in some of these uncoordinated security staffs increase the risk that 
we may fail to put the pieces together to prevent an attack. These 
separate organizations each build their own supervisory and overhead 
staff and in total cost more than placing the responsibility with a 
single agency. A single provider like FPS can achieve Nation-wide 
economies of scale that elude most non-DOD security staffs.

    11. In-service field staff below Congressionally-mandated levels.
    The fiscal year 2010 DHS Appropriations Act mandates that OMB and 
DHS shall ensure fee collections are sufficient to ensure that the 
Federal Protective Service maintains not fewer than 1,200 full-time 
equivalent staff and 900 full-time equivalent police officers, 
inspectors, area commanders, and special agents who, while working, are 
directly engaged on a daily basis protecting and enforcing laws at 
Federal buildings (referred to as ``in-service field staff''). Based on 
ICE and OMB guidance the FPS in-service field staff has been 
interpreted as including all personnel assigned to FPS law enforcement 
positions. Thus the 900 minimum includes recruits who have not even 
attended FLETC Uniformed Police training, personnel on long-term 
restricted duty that prevents service as a law enforcement officer, 
regional office GS-14 and -15 managers, regional intelligence and JTTF 
Agents, and staff assigned to the FPS National headquarters. This 
appears to be at variance with the very specific language of the act. 
The committee should clarify to the DHS Secretary and Director of OMB, 
that in-service means in-service, and FPS should be immediately funded 
to recruit sufficient staff to ensure compliance.

    12. FPS is not a member of the interagency security committee and 
no longer has a role as an honest broker to ensure compliance with 
security standards.
    When President Clinton issued Executive Order 12977 in 1995 he 
specified that the Director (then Assistant Commissioner) of FPS was a 
member of the ISC. He also made the Director of FPS responsible for 
monitoring Federal agency compliance with the policies and 
recommendations of the ISC. When the Bush administration revised the 
order upon the creation of DHS, these critical roles were eliminated.

    13. FPS field managers need to build a labor management partnership 
to establish one team dedicated to the critical Federal facilities 
protection mission.
    In some regions managers attempt to manage workload by imposing 
impossible deadlines rather than working together with employees to set 
achievable goals. We have inspectors and police officers who work up to 
60 hours a week to meet management demands for National and regional 
goals, but in some locations these dedicated officers work the extra 
hours without overtime pay because they cannot do all that is necessary 
in the time allowed by their management. Officers also report that 
administrative contracting tasks detract from essential protective 
activities, while other regions get these tasks done at the region 
headquarters. Better partnering can build a cohesive team where goals 
can be accomplished without fear as a primary motivation.

    14. With the potential terrorist trials in New York likely 
requiring significant augmentation of the FPS NYC staff, more staff is 
required to prevent diversion of staff from other areas.
             actions to meet challenges and ensure progress
    To meet these challenges and to achieve the promise of one 
Department responsible for securing the homeland, including Federal 
employees and facilities, an effective long- and short-term strategy is 
necessary. Congress should take these critical initial steps:

    1. Provide sufficient FPS staff to meet mission requirements.
  <bullet> In fiscal year 2010 FPS is projected to have 1,225 personnel 
        and approximately $240 million to protect 9,000 facilities and 
        over 1 million employees Nation-wide.
  <bullet> There are over 1,600 Capitol Police with $292 million, to 
        protect the Capitol and Congressional offices in a 12-block 
        area of Washington, DC.
  <bullet> The Secret Service has over 1,300 officers in its Uniformed 
        Division, to protect its assigned facilities in Washington, DC.
  <bullet> The Veterans Health Administration has over 2,500 police 
        officers to protect their 154 medical centers Nation-wide.
  <bullet> Clearly FPS is not adequately staffed to accomplish its 
        mission.
  <bullet> Immediately establish a minimum requirement of 1,200 field 
        law enforcement staff (in-service field staff as defined in the 
        DHS Appropriations Act) to protect buildings, including 
        effective monitoring of contract guard performance and 
        training.
  <bullet> Mandate night and weekend service in the largest cities with 
        the highest number of high-risk facilities, using police 
        officers to augment the inspector force.
  <bullet> Notify DHS and OMB that in-service field staff as defined in 
        the fiscal year 2010 appropriations act means in-service staff 
        in the field, not merely any position categorized as law 
        enforcement.
  <bullet> Additional resources may be required after receipt of a 
        budget request that reflects an output driven staff allocation 
        model.

    2. Recognize FPS' dedicated law enforcement officers as such with 
appropriate pay and benefits.
  <bullet> FPS officers should be granted the same authority given to 
        all other Federal law enforcement officers to carry their 
        service weapons on a 24/7 basis. Not only does this provide an 
        additional police presence in communities where these officers 
        reside, it also gives the officers protection against 
        retribution from persons they have arrested and others who 
        might wish to do them harm.
  <bullet> FPS police officers and inspectors are treated as second-
        class citizens in regards to the Federal law enforcement 
        status. They should be granted the same retirement benefits 
        afforded to other law enforcement personnel with virtually the 
        same mission.
  <bullet> FPS police officers and inspectors received a retention 
        allowance and were placed on special pay tables until 2007. 
        These initiatives significantly slowed attrition and retained 
        highly qualified employees. When these were eliminated, many of 
        the most qualified and experienced employees moved to other law 
        enforcement and security positions with higher pay rates. FPS 
        law enforcement personnel should receive Administratively 
        Uncontrollable Overtime (AUO) at an initial rate of 25 percent. 
        This will enhance overall facility security and guard 
        monitoring by ensuring officers can accomplish of all assigned 
        tasks. Chemical inspectors and Protective Service Advisors 
        within NPPD currently receive AUO to improve their ability to 
        accomplish the myriad of tasks they are assigned, thus showing 
        two situations in NPPD where this proposal works to improve 
        mission performance.

    3. Stop the fee-funding scheme that forces agencies to choose 
between adequate protection for their employees and service to the 
public, by proposing direct appropriation of essential basic and 
mandated security measures. All basic, building-specific and security 
fixture security costs should be authorized and directly appropriated 
to FPS to implement an integrated risk-based strategy to protect 
Federal facilities.
  <bullet> Direct appropriation for basic operations could be achieved 
        through a transfer of funds by the Office of Management and 
        Budget to the FPS of $0.66 for each square foot assigned to 
        each Department and agency occupying GSA space (excluding 
        facilities protected by the Secret Service Uniformed Division) 
        from the agencies appropriation, with unoccupied and out-leased 
        space considered as assigned to the GSA.
  <bullet> Direct appropriation for Building Specific Security 
        Services, can also be achieved through a transfer of the costs 
        paid by each agency, plus the charge paid for FPS program 
        administration.
  <bullet> Optional security services to meet agency standards, such as 
        guards at SSA Service Offices, should continue to be provided 
        through the existing Security Work Authorization process.

    4. In-source contract guard positions at high-risk facilities, by 
replacing them with Federal police officers.
  <bullet> Just as Congress and the White House use Federal police 
        officers for dedicated patrol and weapons detection positions, 
        all high-risk Federal facilities should use these highly 
        qualified law enforcement personnel rather than depending 
        entirely on contract guards to perform these functions.
  <bullet> Direct the Department to in-source these positions.
  <bullet> Implement the transition at the rate of 300 officers a year.

    5. Give DHS the tools to protect Federal facilities by codifying 
the role of the Interagency Security Committee; and restoring FPS 
Committee membership and its honest broker.
  <bullet> With the mandate of section 1315 of title 40 USC that the 
        DHS protect all Federal facilities, the ISC should be codified 
        as well.
  <bullet> FPS should be restored to its roles in the original 
        directive.
  <bullet> Clear guidance should be provided that DHS is in charge of 
        security standards for Federal facilities. Federal facility 
        security standards are too important to be left to a consensus 
        decision by ad hoc committee members.

    6. Recognize the FPS manpower crisis in New York City--particularly 
in relation to upcoming terrorist trials.
  <bullet> Obtain an immediate assessment of present law enforcement 
        and support staffing in NYC.
  <bullet> Obtain an immediate status of present management challenges.
  <bullet> Mandate FPS to correct management deficiencies and hire 
        personnel sufficient to ensure 24/7 law enforcement coverage 
        and to staff security for the upcoming terrorist trials.

                                SUMMARY

    Mr. Chairman, the sole Federal agency charged with the critical 
mission of protecting thousands of Federal buildings and millions of 
people from terrorist and criminal attack is on a path to mission 
success within NPPD. However, it is faced with significant challenges 
that if not remedied will impede progress. I believe the state of the 
FPS right now is little different from that of the airline industry 
security prior to 9/11. There, a reliance on poorly trained, 
unmonitored contract guards with no law enforcement authority; security 
implementation by conflicting entities; an unworkable funding 
structure; and a perception of security through inspections, instead of 
protection by boots-on-the-ground Federal officers proved disastrous.
    It should not have happened then, and it should not be allowed to 
happen now. The dedicated men and women of FPS need your help to enable 
our success and to protect Federal employees across the country. Again, 
thank you for the opportunity to testify at this important hearing.

    Chairman Thompson. Thank you very much for your testimony.
    I now recognize Mr. Amitay to summarize his statement for 5 
minutes.

 STATEMENT OF STEPHEN D. AMITAY, FEDERAL LEGISLATIVE COUNSEL, 
           NATIONAL ASSOCIATION OF SECURITY COMPANIES

    Mr. Amitay. Thank you, Mr. Chairman and distinguished 
Members of the committee. Thank you for the opportunity to 
appear here today to discuss the continuing challenges of FPS 
as they transition from ICE to NPPD.
    I am Federal legislative counsel to the National 
Association of Security Companies, NASCO. NASCO is the largest 
contract security trade association, as you said, representing 
private security companies that employ more than 400,000 
security officers across the United States of America.
    Private security officers protect Federal facilities, 
businesses, public areas, and critical infrastructure, and they 
are often the first responder on the scene of a security or 
terrorism incident.
    NASCO member companies employ many former law enforcement 
and military personnel as both security officers and in their 
management.
    Sadly, the death of private security Officer Stephen Johns 
earlier this year at the Holocaust Museum was a tragic reminder 
of the vital role that private security officers play every day 
in protecting the public.
    NASCO firmly believes that Federal facilities can be 
sufficiently protected, and in a cost-efficient manner, through 
the utilization of private security officers. However, the 
recent findings of the GAO in its study of the FPS contract 
guard program were troubling, and the problems identified need 
to be addressed by both FPS and contractors.
    On the operational level, the impending roll-out of RAMP, a 
centralized, interactive database management system, should 
provide for a significant improvement over the current 
unreliable, decentralized system for collecting and monitoring 
security officer training and certification data.
    FPS is also updating and planning to provide more, and more 
frequent, X-ray and magnetometer training. Given the security 
officer's primary role of building access control, deficiencies 
in this critical training were understandably highlighted by 
the GAO. NASCO members have also called for improvements to be 
made to current FPS firearms training for security officers.
    NASCO strongly agrees with the GAO recommendation for 
better building-specific and scenario-specific training.
    One long-standing issue that has already been discussed 
today has caused much confusion among FPS contract security 
officers, and where better or clearer guidance is needed, is on 
the subject of what actions constitute detention of a person, 
which can be lawful, and what actions constitute an arrest, 
which usually is unlawful, and can give rise to a lawsuit.
    NASCO is also hopeful that efforts to improve program 
management and increase oversight will lead to better 
communication between FPS offices and between FPS and 
contractors. At certain levels, the communication between FPS 
and contractors is excellent, but in others it is not so good, 
which has resulted in delays and added expenses in the hiring 
and processing of officers.
    However, in the final analysis, the flaws and weaknesses in 
contractor and security officer performance found by the GAO 
expose a more fundamental issue at hand: Quality versus cost.
    It is NASCO's position--and we think the public agrees--
that quality should always play a primary role when selecting a 
private security company, particularly when the protection of 
Federal employees, visitors, and facilities is involved.
    There are tangible reasons why higher quality security 
costs more. Higher salaries attract higher caliber officers; 
internal company training, screening, and operational 
procedures will be better; and internal company management 
oversight will be stronger.
    The FPS contract award process needs to be adjusted to 
ensure that quality service and performance is properly 
considered in relation to cost. NASCO is not alone in believing 
that FPS security contracts, awarded based on best value, are 
often realistically awarded based on lowest cost. Technical 
capability and past performance of a company are not being 
valued as they should.
    As for the impending transfer of FPS from under ICE to 
NPPD, we believe it is a very positive move. As many have 
already pointed out, the Federal infrastructure protection 
mission of FPS aligns with NPPD's mission to protect all 
critical infrastructure.
    In closing, while work needs to be done to address and 
resolve the current problems in the contract guard program, 
NASCO believes that, with a greater regard to quality in the 
procurement process, and with improvements in contract and data 
management, oversight and training, the performance of FPS 
contractors and security officers will increase, and thus, so 
too, will the level of security at Federal facilities.
    NASCO stands ready to work with the committee and its staff 
on any and all efforts to improve the standards and quality of 
contract security at FPS and elsewhere.
    Thank you.
    [The statement of Mr. Amitay follows:]

                Prepared Statement of Stephen D. Amitay
                           November 18, 2009

                BACKGROUND ON NASCO AND PRIVATE SECURITY

    NASCO is the Nation's largest contract security trade association, 
representing private security companies that employ more than 400,000 
security officers across the Nation who are servicing commercial and 
Governmental clients including the Federal Protective Service (FPS). 
Formed in 1972, NASCO has strived to increase awareness and 
understanding among policy-makers, consumers, the media, and the 
general public of the important role of private security in 
safeguarding persons and property. NASCO also has been a leading 
advocate for raising standards at the Federal, State, and local level 
for the licensing of private security firms and the registration, 
screening, and training of security officers.
    Nearly 2 million people are employed in private security 
domestically compared to fewer than 700,000 public law enforcement 
personnel. Approximately 75 percent of private security personnel work 
for contract security companies, with the balance serving as 
proprietary or ``in-house'' security. The vast majority of contract 
security firms employ many former law enforcement and military 
personnel in senior management.
    Private security officers are guarding Federal facilities, 
businesses, public areas, and critical infrastructure sites (of which 
85 percent are owned by the private sector) and they are often the 
``first'' responders on the scene of any security or terrorism-related 
incident. Sadly, the death of private security officer Stephen Johns 
earlier this year at the Holocaust museum, killed in the line of duty 
protecting museum patrons, was a tragic reminder of the vital role that 
private security officers play every day in protecting the public.
    As mentioned, raising standards for the industry and security 
officers is a core NASCO mission. In recent years, NASCO and its member 
companies have worked to pass licensing and training legislation in 
States such as Mississippi, Alabama, Colorado, and California. Earlier 
this year, Alabama enacted a law to set up a State board to regulate 
and oversee the licensing of private security companies and set 
training for security officers. In California, over the past several 
years, laws have been enacted to increase training requirements for 
security officers and to include weapons of mass destruction and 
terrorism awareness courses. In addition, with NASCO support, 
California has lead the way in bringing ``in-house'' security officers 
and employers into compliance with existing security licensing and 
training requirements.
    On the Federal level, NASCO is currently working with Congress and 
the Justice Department to provide for the effective implementation of 
the ``Private Security Officers Employment Authorization Act of 2004'' 
(PSOEAA) that provides Federal authorization to employers of private 
security officers to request a limited FBI criminal history check.
    The principal role of private security officers is to protect 
people and property from accidents and crime, control access to a 
facility or location, and observe and report suspicious activities. 
They serve as the ``eyes and ears'' of public law enforcement and play 
an important supporting role to law enforcement. They conduct incident 
interviews, prepare incident reports and provide legal testimony. 
Private security officers may be armed pursuant to State and Federal 
laws, and in certain jurisdictions armed security officers are granted 
police powers. Generally though, private security officers do not have 
police powers and their powers correspond to those of private citizens. 
Overall, private security provides businesses, organizations, and 
Governmental entities with a readily available efficient proven layer 
of security and deterrence.

          CONTRACT SECURITY AND THE FEDERAL PROTECTIVE SERVICE

    There are approximately 13,000 contract security officers--working 
for 67 contractors--at facilities under the jurisdiction of Federal 
Protective Service (FPS). FPS contract security officers are primarily 
responsible for controlling access to Federal facilities by checking 
identifications and operating screening equipment, such as X-ray 
machines and magnetometers. In most instances, security officers do not 
have arrest authority but can detain individuals who are being 
disruptive or pose a danger to public safety until the arrival of law 
enforcement.
    Before being assigned to a post or an area of responsibility at a 
Federal facility, FPS requires that all security officers undergo 
background suitability checks and complete approximately 128 hours of 
training provided by the contractor and FPS, including 8 hours of FPS 
provided X-ray and magnetometer training. Security officers must also 
pass an FPS-administered written examination and possess the necessary 
certificates, licenses, and permits as required by the contract. Each 
security officer's required qualifications, certifications, and other 
requirements are tracked through the FPS Contract Guard Employment 
Requirements Tracking System (CERTS) and by the contract security 
company.

                   FPS CONTRACT GUARD PROGRAM ISSUES

    NASCO firmly believes that Federal facilities can be effectively 
protected--and in a cost-efficient manner--through the utilization of 
private security officers. However, there is no question that the 
recent findings of the GAO in its study of the FPS Contract Guard 
Program were troubling and the problems identified need to be addressed 
by both FPS and contractors. NASCO has maintained a good working 
relationship with FPS officials involved with the Contract Guard 
Program, and we appreciate that FPS leadership has encouraged a strong 
partnership between contractors and FPS. We believe that efforts 
underway at FPS to address problems identified by GAO with the Contract 
Guard Program can be successful, and that there are other means also 
that can lead to better performance and greater security all around.
    On the operational level, the impending roll-out of the Risk 
Assessment Management Program (RAMP)--a centralized interactive 
database management system--should provide for a big improvement over 
the current unreliable de-centralized CERTS system for collecting and 
monitoring training and certification data. RAMP should make the input 
of data more efficient and provide FPS with access to more up-to-date 
and reliable data in one location. More so, it should enable FPS to 
manage and control contractor data better, which has been a real 
problem for contractors. It is envisioned that one day RAMP will even 
be able to provide notices to contractors when a security officer's 
certification is about to expire. FPS is also upgrading its post-
tracking system which should allow for quicker reconciliation of 
invoices and allow for more prompt contractor payment. NASCO also 
supports FPS' on-going effort to standardize and professionalize the 
contract security officer force.
    The GAO report was particularly critical of lapses and weaknesses 
in the FPS's X-ray and magnetometer training. Given the contract 
security officer's primary role as one of access control, adequate 
training in this area is crucial. The GAO noted that in some cases the 
required training was simply not provided to the contract security 
officers by FPS and in other cases it was inadequate. NASCO member 
companies with FPS contracts have encountered such difficulties with X-
ray and magnetometer training. FPS has reported that it has moved to 
update the X-ray and magnetometer training, as well as provide it more 
frequently, and we applaud this action.
    The GAO also noted that improvements in building-specific and 
scenario-specific training are needed and we strongly believe 
improvements in these areas could be very beneficial. One long-standing 
area of confusion for contract security officers is the line between 
detaining an individual (lawful) and arresting an individual (usually 
unlawful and subject to a lawsuit). If a security officer has reason to 
believe an individual is committing or about to commit an unlawful act 
and he stops and handcuffs that individual and calls the police, is 
that an arrest or detention? Better training and better contractual 
guidance is needed to address this important issue.
    Another area where some contractors believe better training and 
additional contractual requirements are needed is in the area of 
firearms training. FPS mandates that all contract security officers 
pass a rigorous firearms course which is very commendable, but only 
requires one firearms qualification a year (FPS officers, who fire the 
same firearms course, train and qualify four times a year). Without a 
corresponding contract requirement for sufficient training and 
qualifications for contract security officers to stay proficient, there 
could be dangerous ramifications in a scenario like the one that 
unfolded at the Holocaust museum.
    NASCO also supports the GAO's call for better management and 
oversight of Contract Guard Program contracts and the need for more and 
better trained Contracting Officer Technical Representatives (COTRs) 
and efforts are underway to assign more COTRs. Nonetheless, underlying 
the issue of better management and oversight is need for better 
communication between FPS offices, and between FPS and contractors. The 
results of such communication problems were pervasive in the GAO's 
findings. At certain levels the communication between FPS and 
contractors is excellent, and FPS is working hard to ascertain the 
problems and concerns of contractors. But regular instances of 
information and documents not flowing from one area of FPS to another--
resulting in multiple requests for the same information--have caused 
delays and added expenses in the hiring and processing of officers. 
There have also been problems that have resulted from inconsistent or 
inadequate notification and administrative procedures involved in the 
officer application process, as well as in the process for submitting 
officer certifications. The conduct of certain training has also been 
affected by a lack of communication between FPS headquarters and the 
field.
    In the final analysis though, while improvements in contract 
oversight and management, data automation, communication, and training 
will improve the Contract Guard Program, the flaws and weaknesses in 
contractor performance found by the GAO expose a more fundamental 
issue, ``quality versus cost.'' It is NASCO's position, and we think 
the public agrees, that quality should always play a primary role when 
selecting a private security company, particularly when the protection 
of Federal employees, visitors, and facilities is involved. There are 
tangible reasons why higher quality security costs more. Higher 
salaries attract higher caliber officers; training and screening will 
be better; and management oversight will be stronger. The FPS contract 
award process must be altered to ensure that quality service and 
performance, in relation to cost, is properly considered. FPS efforts 
to improve training and oversight can lead to improved contractor and 
officer performance, but until procurers of contract security services 
effectively put quality ahead of cost, problems with contractors such 
as those that the GAO report highlighted will persist.
    Currently, FPS Contract Guard Program contract awards are not bound 
by lowest bid requirements, and all eligible bidders must meet an 
acceptable qualifying standard. However, NASCO is not alone in 
believing that awards allegedly based on ``best value'' are more 
realistically based on lowest cost, and technical capability and past 
performance are not being valued as they should. NASCO supports the 
inclusion of higher performance related standards in contracts, as well 
as taking steps to ensure that the quality of a company's training, 
personnel, management, and operational procedures--which result in a 
higher bid--are adequately considered during the procurement process.
    Some have speculated that bringing FPS security ``in-house'' 
through the creation of a federalized FPS security force could be a 
solution to the current challenges in the Contract Guard Program. NASCO 
contends that the cost of an in-house force (let alone the issues and 
costs involved in creating such a force), versus the current cost of 
contract security officers will reveal that there is a great deal of 
room to increase compensation, selection, and training standards for 
FPS contract security officers to provide better security at Federal 
facilities, while at the same time remaining at a much lower cost per 
officer than ``in-house'' security officers.

                  THE TRANSFER OF FPS FROM ICE TO NPPD

    We believe the impending transfer of FPS from under ICE to NPPD is 
a very positive move. It has already been pointed out by many observers 
that the Federal infrastructure protection mission of FPS aligns with 
NPPD's mission to protect all critical infrastructure (of which Federal 
buildings is an important element). This alignment should lead to 
greater effectiveness for both NPPD and FPS. NPPD also chairs the 
operations of the Interagency Security Committee, which not only is the 
lead in the Federal Government for setting Government-wide security 
policies for Federal facilities, but the committee has also been 
working with FPS in its effort to bring better standardization to 
Federal contract security officers.

                           CONCLUDING REMARKS

    When FPS was taken out from GSA and put under ICE in 2003, FPS 
faced significant challenges and difficulties, some old and some new. 
Combined with subsequent significant reductions in the FPS inspector 
and law enforcement officer force, those difficulties contributed to 
serious flaws and deficiencies in the Contract Guard Program. However, 
NASCO believes that under the leadership of Director Schenkel, FPS is 
making considerable strides to rectify the problems with the program. 
While there is still much work to be done, with FPS (now better 
situated under NPPD), security contractors, and Congress all working 
together, the shared goal to provide for better safety and protection 
of Federal employees, Federal contractors and visitors in at Federal 
facilities protected by FPS can be attained. As it has for the past 
several years, NASCO stands ready to work with the committee and its 
staff on any and all efforts to improve the standards and quality of 
contract security within and outside the Federal Government.

    Chairman Thompson. I would like to thank the witnesses for 
their testimony. I remind each Member that he or she will have 
5 minutes to question the panel.
    I will now recognize myself for the first questions.
    Let me again thank both of you for your testimony.
    Every now and then we get labor and contract people 
together on the same panel. One of the things I want to assure 
both of you, is that this committee is looking at, how can we 
keep the security at those Federal buildings the best that we 
can. The options are either ramp up the Federal employment 
aspect, look at the contracting, ramp that up.
    But one of the issues that both of you gentlemen talked 
about, spoke of training. We are really concerned about it.
    If you heard the testimony and questions from the committee 
on the first panel, we kind of burrowed down. We just want to 
make sure that it is done right.
    That facilities committee caused us real heartburn, because 
you have some people in those buildings making security 
decisions in many instances that do not know anything about 
security. They just happen to be the largest tenant, or 
something like that.
    With respect to the FPS training, Mr. Wright, are you 
satisfied with the training that the officers in your local 
receive on the full-time side?
    Mr. Wright. I will take a little bit of credit for opening 
this can of worms. Since the whistle blowing in 2006, the 
exposure of the FPS deficit--I think we all recall accounts of 
between $40 million and $80 million in deficit--there were huge 
cost-cutting measures undertaken. Part of those cost-cutting 
measures was a reduction in training for Federal officers.
    We have had very few what we call LERTs, or law enforcement 
refresher training, at the Federal Law Enforcement Training 
Center. So, security has definitely suffered in the times of 
what was described as a deficit.
    Prior to that, FPS had excellent training and pretty much 
the funds to accomplish that training. But as it stands today, 
I think there is a deficiency in Federal officer training in 
FPS.
    Chairman Thompson. Thank you.
    Mr. Amitay, with respect to FPS's requirements for contract 
security personnel, what has been the position of your trade 
group with respect to their training requirement?
    Mr. Amitay. Well, contractors are required to provide 128 
hours of training. In addition, and then there is also FPS-
provided training.
    We think the amount of training is sufficient, with certain 
exceptions. As has been noted, the FPS provided X-ray and 
magnetometer training. There have been problems with that. This 
has been related to NASCO from contractors with FPS contracts.
    But FPS, we have been working with FPS. So, the 
contractors--and they have seen that FPS is trying to beef up 
that X-ray and magnetometer training, to provide it more, to do 
updated and to provide more of it.
    In other areas, for instance, firearms training, some have 
said that, whereas law enforcement FPS officers qualify four 
times a year for the firearm training, the contract security 
officers only qualify once a year. It is a very rigorous 
firearms training, which is to be commended. But we feel that 
the proficiency level could be lacking without the proper 
amount of qualifications per year.
    But we have noticed that FPS has really started to work on 
improving the training that it currently has.
    Chairman Thompson. Without getting too deep in the weeds, 
there was a question about arrest power. What has your 
membership said about arrest powers?
    Mr. Amitay. Yes, it has been--this is a big issue.
    Normally, private security officers do not have arrest 
power. However, there are some exceptions. For instance, in 
Virginia, a licensed, armed security officer does have arrest 
power at the facility where he is protecting. Also, in the 
District of Columbia, there is a class of officer called a 
``special police officer,'' who has arrest authority.
    But primarily, contract security officers----
    Chairman Thompson. Now, is this with FPS?
    Mr. Amitay. Well, if FPS made it a requirement of the 
contracts that the contract security officer be a special 
police officer, then, yes, it could be incorporated into the 
contract.
    Chairman Thompson. So, do you know of any?
    Mr. Amitay. Excuse me, sir.
    Yes. Very few contracts require SPO training as of now, but 
more could.
    Chairman Thompson. So, the answer is yes or no?
    Mr. Amitay. The answer is ``yes.''
    Chairman Thompson. That you know of contracts that FPS has 
in force that allows arrest powers for the private security.
    Mr. Amitay. Right. Yes. Again, it is based on the local 
jurisdiction.
    But if the local jurisdiction does allow for a class of 
private security officer to have arrest powers, it is the local 
law, then, yes, then those types of officers with arrest powers 
can be included--you know, can be guarding FPS facilities--if 
the contract says that for these facilities, for this contract, 
the security officers need to be special police officers.
    Chairman Thompson. I would love for you to provide the 
committee with a list of those contracts.
    Mr. Wright, has the mix between full-time Federal and 
contract employees provided any tensions in the workplace, to 
your knowledge?
    Mr. Wright. Yes, and very timely to this discussion here 
today.
    We have instances of, since the July 8 hearing, the 
increased oversight and increased contract guard monitoring. 
This results in tensions between Federal officers and private 
guards.
    One tactic that I have noticed in one region in particular, 
is a propensity to allege harassment by private guards alleging 
harassment towards Federal officers. In those cases, we have 
very definite problems getting our officers into these 
facilities, getting them protected and shielded from these, 
what I consider malicious charges by private guards.
    There are tensions. I mean, we are the monitors. We are the 
ones that find the wrongdoing. We are--our Federal officers are 
the ones that find individuals sleeping, or without proper 
commissions. So, yes, there is absolutely tension.
    Chairman Thompson. Thank you.
    I yield 5 minutes to the gentlelady from California.
    Ms. Richardson. Yes. Thank you, Mr. Chairman. I also want 
to thank you for holding this hearing, because as we are 
hearing now on both sides, and information, clearly, you know, 
this information needs to be had.
    Mr. Chairman, I would like to ask, could we get a 
clarification from the folks who spoke in the first panel, if, 
in fact, as Mr. Wright has just presented, that the staffing 
costs have been decreased by 25 percent?
    Chairman Thompson. Without objection.
    Ms. Richardson. Okay.
    My second thing is, Mr. Wright, do you guys have an on-
going contract? Your local, do you guys have an on-going 
contract?
    Mr. Wright. No. No, we do not.
    Ms. Richardson. Okay. I am new on the committee. I know 
with transportation, for example--and I am, actually, fairly 
new to Congress--a year or so ago there was the whole thing of 
TSA was not, you know, under contracting.
    Is that the same with the FPS, with the officers, that they 
are not?
    Mr. Wright. What has happened is, we all know we were 
formerly GSA. We had GSA contracts. In December 2005, we were 
certified by FLRA as AFGE.
    At that point, in December 2005, FPS was placed under a 
year 2000 labor contract. Once we were inside of ICE, we 
started our labor contract negotiations in February 2007 were 
the preliminaries. June 2007, we started actual negotiations. 
To this day, that contract has not been signed--not even close 
to being signed.
    The one complication now--and certainly, I do not view it 
as a complication--is that we are now under NPPD and no longer 
subject to those ICE contract negotiations.
    So, very technically, we are tied to a year 2000 labor 
agreement, originally under the Immigration and Naturalization 
Service----
    Ms. Richardson. Okay. Let me stop you there, because there 
is only so far we are actually able to delve into this.
    Mr. Chairman, might I also suggest that, being on the 
Transportation Committee, I know there was a long time that our 
contract has been left out. Secretary LaHood has made a 
commitment to get to the table and address some of these 
issues.
    I might also suggest that we request of Secretary 
Napolitano any outstanding things that might be hanging, that 
have not been resolved, that they go to the table and do them--
or whoever the appropriate people----
    Chairman Thompson. If the gentlelady would yield.
    This committee has a longstanding commitment to giving 
workers the right to choose representation. I do not see why 
your suggestion is not consistent with that longstanding 
commitment.
    Ms. Richardson. Okay.
    Then, Mr. Amitay, could you describe for me what are the 
qualifications for--do you have a list of standard 
qualifications that the contract officers must meet? Is there a 
standard?
    Mr. Amitay. That standard is set completely by FPS. I know 
that they do have--I recently saw a brochure that--it was 
titled ``Standards for the FPS Contract Guard Program.'' All 
the standards for the guards are set by FPS.
    Ms. Richardson. To your knowledge with your association, 
how much auditing actually goes on to determine if what the 
contractor says that they are meeting, in terms of who they are 
bringing forward, is, in fact, correct information?
    Mr. Amitay. We do not do any studies of that.
    But I would like to say, though, that we welcome more 
oversight of the program. We welcome more oversight of 
contractors. There have been problems with contractors. If 
there are problems with certain contractors, then maybe they 
should not continue to have those contracts.
    NASCO has always stood for raising the standards in the 
industry. We fully believe that when you have raised standards 
and you base your contracts based on quality as opposed to 
cost, you will be able to get that sufficient level of 
protection that is required, and at a much lower and more 
efficient rate than hiring full-time Federal police officers.
    In some instances, you just do not need a full-time law 
enforcement officer monitoring X-rays and magnetometer 
machines, you know.
    Ms. Richardson. Well, my time is about to expire. Let me 
just say this.
    Mr. Chairman, I think, in light of some of the things that 
have happened, you know, even on full military bases very 
recently, and with what we have dealt with in the last few 
years, and certainly, probably what is ahead, I would venture 
to say, we have to be very careful. We do not know what we are 
going to expect, that any person might walk into any building 
on any given day to do something that is inappropriate.
    So, I would actually say that, I would prefer, particularly 
in a Federal building, where there is a public expectation that 
appropriate security does exist, that all efforts are made to 
do that.
    I will not get into the nuts and bolts of whether it is one 
or whether it is the other. But I think we have an obligation. 
The public expects us, that we are providing a certain level of 
service. Unfortunately, there have been a couple of instances 
where that probably has not been the case.
    So, I look forward to working with the Chairman. I thank 
you for having this hearing, and I look forward to all of the 
follow-up to ensure that we can create that within our 
buildings. Thank you.
    Chairman Thompson. Now, I would like to thank the 
gentlelady from California, as well as our witnesses, for their 
valuable testimony, and the Members for their questions.
    Before concluding, however, I would like to remind our 
panel of witnesses that the Members of the committee may have 
additional questions for you, over and above what we have 
already laid out. We ask that you respond expeditiously in 
writing to those questions.
    Now, the other commitment I give to both witnesses is from 
an oversight standpoint. Our job is to see that any of those 
DHS-related components do the best job possible. If there is 
anything going on that you do not see consistent with 
established policies, please let us know.
    I know staff loves to hear me give them work, but one 
mistake and we are in trouble. We do not want any of that to 
ever happen. So, that is a standing offer to anybody. If the 
policies are inconsistent, whatever, the regulations, be they 
contract security as well as Federal employees, please let us 
know.
    Hearing no further business, however, and a vote has been 
called, the committee stands adjourned.
    [Whereupon, at 12:17 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

  Questions From Chairman Bennie G. Thompson of Mississippi for Rand 
   Beers, Under Secretary, National Protection Programs Directorate, 
                    Department of Homeland Security

    Question 1. GAO's investigation revealed glaring gaps in the 
security capability of the FPS contract guard force. GAO found that 
contract guards failed to conduct adequate screening to detect 
improvised explosive devices and other prohibited weapons. In addition, 
GAO observed security breaches during evacuations and emergencies 
caused by the guards' lack of familiarity with the specific buildings 
they were guarding.
    Answer. To ensure that guards are properly trained and familiar 
with the facilities they protect, the National Protection and Programs 
Directorate (NPPD) recognizes that it is essential to collect and 
continually manage a wide range of information on both the guards used 
by the Federal Protective Service (FPS) and the facilities FPS 
protects. This includes the certifications of guard training provided 
by the guard companies to FPS, as well as detailed facility and 
countermeasure information necessary to appropriately mitigate risk for 
the facility. FPS has greatly enhanced its capabilities to collect and 
manage this range of information through the Risk Assessment and 
Management Program (RAMP), which began operations in November 2009. 
With the implementation of RAMP as a centralized tool for managing 
facility risk, FPS has initiated electronic tracking of certification 
records by all contractors. This allows FPS to rectify the deficiencies 
that existed in legacy systems and provides real-time, up-to-date 
information on guard certifications in two ways:
    1. The certification information comes directly from the source 
        (e.g., the contract companies that are responsible for 
        maintaining records on the training their employees have 
        received); and
    2. FPS receives regular updates from certifications that are 
        uploaded and verified within the centralized RAMP system. This 
        allows for improved tracking of certifications and directly 
        supports the regular audits of contractor records.
    The FPS Risk Management Division is currently revising the FPS 
policy (09-001) that details the site inspection and audit procedures 
of contractors. This policy will increase the requirement for audits 
from 10 percent of the files quarterly to 10 percent of the files 
monthly. The revised policy will also provide prescriptive instructions 
on specific record-auditing methods. As a result, the frequency and 
scope of guard certification audits will be greatly increased. This 
will provide FPS with increased assurance the contract guards 
performing on FPS contracts possess the appropriate training and 
certification.
    In addition to the increased oversight of the contractor-provided 
training and inspection of the guard posts within the Federal 
buildings, FPS has developed a National Weapons Detection Program 
(NWDP) to increase the guard's awareness and detection capabilities. 
The NWDP requires 16 hours of additional training on the newly 
purchased magnetometers and X-ray machines. This training addresses the 
proper use of screening equipment, screening procedures, and overall 
education on potential threats. FPS has published three additional, 
specific training bulletins, produced a training video, and modified 
guard contracts to ensure 100 percent compliance with this essential 
guard training.
    FPS provides guard post orders for each specific guard post within 
a Federal building. These post orders are coordinated with the tenant 
agencies and describe the exact functions the guards are to perform at 
their posts. The guards are trained on the post orders and rehearse the 
emergency response portion of the orders during annual exercises, 
including fire drills, occupant emergency plan exercises, and shelter-
in-place exercises.

    Question 1b. How does NPPD plan to improve security at Federal 
buildings?
    Answer. As stated above, the Federal Protective Service (FPS) 
increased the required number of hours of training and developed the 
National Weapons Detection Program (NWDP), which requires additional 
training on the proper use and overall education on the newly purchased 
magnetometers and X-ray machines. In addition, FPS is in the final 
stages of implementing a Covert Security Testing Program to test the 
effectiveness of security countermeasures as part of its multifaceted 
strategy to achieve its core mission: Secure facilities and provide 
safety to occupants within those facilities. The Covert Security 
Testing Program is designed to assess countermeasure (e.g., contract 
security guards) effectiveness, identify policy and training 
deficiencies, ensure immediate corrective action, and document, 
analyze, and archive results. Each covert security test will be 
followed immediately by a corrective action briefing, which will be 
used to inform regional management officials and the Contracting 
Officer's Technical Representative (COTR) that they have been the 
subject of a covert security test. The test team will share the results 
of the testing and recommend remedies for any identified control 
weaknesses, deficiencies, or security vulnerabilities, if necessary. 
Finally, regional directors will be responsible for ensuring the 
submission of accurate and complete contractor performance evaluations 
that include deficiencies identified during covert security testing 
when appropriate.

    Question 1c. Who will be responsible for carrying out NPPD's plans 
for improving security?
    Answer. The National Protection and Programs Directorate's (NPPD's) 
Office of Infrastructure Protection (IP) and FPS will be responsible 
for carrying out NPPD's plans on facility security improvements. The 
ISC has the responsibility for determining the direction of security 
for all Federal facilities and has already begun to take on some of the 
hardest questions concerning the appropriate Federal building security 
standards. Although FPS has responsibility for only 9,000 of the more 
than 350,000 Federal facilities that fall under the ISC responsibility, 
the ISC has recognized the unique position of the General Services 
Administration (GSA) facilities. They represent the facilities that 
house the preponderance of Federal employees and visitors to those 
facilities. Therefore such facilities may need to be addressed in a 
special manner. FPS and GSA have already begun drafting minimum 
security standards for GSA properties. FPS will receive direct 
oversight from the Under Secretary of NPPD and will continue its effort 
in the positive direction it has taken over these past several years.

    Question 1d. What has NPPD done to consider reducing the reliance 
on contract guards, given their shortcomings?
    Answer. FPS has initially explored several operational options 
including the conversion of some or all of the nearly 15,000 contract 
guards to Federal positions. Currently, FPS uses a hybrid model in 
which FPS inspectors are assigned to directly oversee the contract 
guard force at specific facilities. NPPD has not had an opportunity to 
fully review and evaluate all the challenges related to federalizing or 
partially federalizing the guard workforce. Full analysis of these 
challenges would need to evaluate the security benefits of a very 
complex transition effort, average costs, and the logistical management 
of new hires. NPPD and Department leadership will work together to 
review the recommendations of previous studies conducted for FPS. NPPD 
will also reach out to the Transportation Security Administration to 
gain the benefits of their experience.

    Question 2. The FPS transition plan describes a transition process 
that will take about 20 months. The first briefing to Congress is 
scheduled to occur in April 2010. Can you give me your commitment that 
we will receive an update prior to that time? I would hope that we 
would receive a progress report no later than February 2010.
    Answer. The Federal Protective Service (FPS) Transition Plan 
submitted to Congress in August 2009 included structured reporting 
requirements and proposed two Congressional briefings during the 20-
month period. The plan recommended that these briefings take place in 
April 2010 and December 2010. The submitted plan was premised on an 
effective transition date of October 1, 2009. The FPS plan was 
transmitted later than planned, on October 28, 2009, so the transition 
date was adjusted accordingly in the plan's milestones outlining the 
detailed phases for the transition. The FPS Transition Senior Working 
Group has met regularly since June 1 and will continue to meet until 
the transition is complete. This group consists of the Deputy Assistant 
Secretary for Management at Immigration and Customs Enforcement (ICE), 
the Chief Operating Officer of the National Protection and Programs 
Directorate (NPPD), and the Director of FPS as co-chairs with reporting 
staff-level working groups including an Operations Working Group and an 
Acquisitions Working Group. We intend to keep Congress informed of our 
progress throughout this process and expect to provide additional 
information before the end of February 2010.

    Question 3. According to the transition plan, FPS is working with 
NPPD and DHS leadership to create a workforce staffing model that is 
based on changes to risk, threat, and consequence. Please explain the 
expertise that NPPD brings to bear in helping FPS refine its risk-based 
staffing model to focus on high- and very high-level risk facilities 
and how this approach will address the limitations in the current risk 
assessment and countermeasure acquisition programs which have been 
raised by GAO.
    Answer. As noted in the Federal Protective Service (FPS) Transition 
Plan, FPS is refining its staffing model focusing threats, 
vulnerabilities, and consequences at high- and very high-risk 
facilities. The model is expected to project workforce needs based on 
identified risk consistent with a high concentration of Federal 
facilities, large populations, and designation as an Urban Areas 
Security Initiative city. As noted in the plan, the National Protection 
and Programs Directorate (NPPD), the Department of Homeland Security 
(DHS), and FPS leadership will review the final results of the analysis 
and will forward any appropriate recommendations in subsequent budget 
requests. Through this transition period, NPPD and FPS will work 
together on new Government Accountability Office (GAO) and DHS Office 
of the Inspector General (OIG) engagements and also review 
recommendations that remain open after the effective date of FPS 
transitioning from the U.S. Immigration and Customs Enforcement (ICE) 
to NPPD.
    FPS has already prepared a workforce study based on identifiable 
risks to ensure the maximum risk mitigation at the National level. The 
workforce study is a fluid, living collection of data and observations 
that need to be adjusted continuously based upon mission assignments, 
GAO or OIG recommendations and findings, changes in Interagency 
Security Committee requirements, and a host of other National security 
and regulatory recommendations. Although the document remains a draft 
and does not necessarily reflect the DHS or administration position, it 
will serve as a starting point for continued review within NPPD. As 
part of NPPD, FPS can avail itself of a full range of risk-management 
tools and practices available throughout the NPPD components, including 
the Office of Risk Management and Analysis and the Office of 
Infrastructure Protection with its Homeland Infrastructure Threat and 
Risk Analysis Center. These risk-oriented tool kits offer bona fide 
threat data and provide professionally trained analysts and potentially 
alternative risk models.

    Question 4. FPS is constrained to influence the allocation of 
resources based on the results of its risk assessment because FPS does 
not own the buildings it protects. Tenant agencies are free to reject 
the security measures recommended by FPS. Without a change in this 
situation, little will be accomplished. What do you believe can be done 
to assure that tenant agencies and GSA will implement FPS's security 
recommendations?
    Answer. The Federal Protective Service (FPS) is professionalizing 
its work force and customer service and introducing the Risk Assessment 
Management Program (RAMP). These activities increase FPS's credibility 
and ability to work with the Facility Security Committees (FSC) to 
determine appropriate and timely implementation of countermeasures. FPS 
has made strong recommendations to the Interagency Security Committee 
(ISC) on strengthening the position of security professionals and 
ensuring that security expertise is part of the FSC makeup. To enhance 
the ISC's efforts to provide guidance to the operation of FSCs, FPS has 
petitioned the ISC for a full, voting-member position. In addition, 
because FPS is responsible for providing law enforcement and security 
services for approximately 9,000 buildings under the control and 
custody of the General Services Administration (GSA), FPS is working in 
step with GSA to provide portfolio-specific solutions. Consequently, 
FPS and GSA have engaged in conversations to establish a working group 
to address minimal security standards for GSA owned and leased 
properties that FPS is charged with protecting. In addition, FPS and 
GSA are in the midst of rewriting the FPS/GSA Memorandum of Agreement, 
which will continue to move our two organizations in the right 
direction of consistency and standardization of security of the GSA 
properties.

    Question 5. You testified that a summit was held to discuss plans 
to ensure that each facility security committee with authority to 
approve or deny FPS security recommendations has at least one voting 
member who is a security provider, and that all committee members are 
trained on security issues. Please provide the committee with a 
narrative description of this summit, a copy of the agenda, and minutes 
or other contemporaneous recordings of this meeting.
    Answer. The Interagency Security Committee (ISC) held a summit on 
November 16, 2009, to bring together thought leaders from throughout 
the Federal Government with differing perspectives on how security 
decisions should be made, to review and discuss the questions and 
comments that correspond with the four feedback themes. The Hon. Rand 
Beers, Under Secretary, Department of Homeland Security (DHS) and 
Robert Peck, Commissioner, Public Buildings, General Services 
Administration (GSA) addressed the Summit participants and encouraged a 
united Federal front. Eighty leaders from 30 agencies and departments 
spent the day together and presented an outline for how the ISC should 
move forward to address how to make security decisions in Federal 
facilities.
    Expectations are for the ISC Working Group to reconcile the Summit 
participants' comments, and develop a new draft to release for comment 
in mid-2010. If necessary, the ISC will hold another Summit to 
determine if follow-up, testing, and/or validation are required. The 
ISC will closely monitor and support the progress of the Working Group.
    A draft of guidelines for Facility Security Committees (FSC) was 
released for comment in the summer of 2009 and the feedback was then 
categorized into four overarching themes:
    1. Who are the decisionmakers and what are their roles?
    2. What information do decisionmakers need and how is voting 
        weighed?
    3. How is security funded?
    4. How is risk accepted?
    Please find attached the agenda from this meeting.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Question 6. GAO recommends that FPS develop a comprehensive plan 
for sharing and safeguarding information with GSA. How will NPPD assist 
FPS in developing this comprehensive plan on information sharing?
    Answer. As the Government Accountability Office's report findings 
and recommendations noted, the General Services Administration (GSA) 
experienced difficulties with getting requested information from the 
Federal Protective Service (FPS) because of information dissemination 
restrictions on the FPS-generated reports. The inability to share the 
reports with GSA's non-law enforcement security personnel presented a 
major obstacle. These law enforcement-sensitive reports included on-
going investigations and other law enforcement activities, and the 
information GSA needed was difficult to extract for release to GSA. FPS 
recently implemented a new program initiative known as the Risk 
Assessment and Management Program (RAMP), which is designed to more 
easily facilitate conducting comprehensive risk assessments and provide 
those results to applicable stakeholders. The Facility Security 
Assessment report produced by RAMP includes sensitive-but-unclassified 
information that is For Official Use Only, but segregates the law 
enforcement information. As a result, while there remain specific 
constraints on sharing that information per Department of Homeland 
Security (DHS) policy, these restrictions do not include those placed 
on law enforcement information. FPS has evaluated this policy and is 
pleased to share information with GSA while meeting the necessary 
requirements to protect sensitive information. The reports produced 
from RAMP include this detailed information on safeguarding For 
Official Use Only information and state that it must be provided only 
to those with a valid need to know and who have the ability to secure 
the information either electronically or physically. The National 
Protection and Programs Directorate, FPS and DHS leadership will 
continue to monitor report-user stakeholders such as GSA to ensure that 
such information is made accessible while safeguarding information 
marked accordingly.

    Question 7. Please provide an update on the status of labor 
contract negotiations between DHS and FPS. Specify when DHS expects to 
finalize FPS labor agreements, and who has responsibility for ensuring 
that this process is completed in a timely manner.
    Answer. National Protection and Programs Directorate (NPPD) 
management looks forward to developing a strong and productive working 
relationship with the Federal Protective Service's (FPS) exclusive 
union representative. NPPD management received notification that the 
American Federation of Government Employees filed a certification of 
the unit petition with the Federal Labor Relations Authority (FLRA) to 
seek representation of the FPS workforce eligible to be in a bargaining 
unit. Once the FLRA makes a determination as to the exclusive 
representative of the appropriate bargaining unit, NPPD and the 
exclusive representatives will begin negotiating a new collective 
bargaining agreement. A time frame to complete negotiations will be 
established at that time. NPPD's Office of Resources Administration 
will be responsible for ensuring that the process is completed in a 
timely manner.

   Questions From Honorable Charles W. Dent of Pennsylvania for Rand 
   Beers, Under Secretary, National Protection Programs Directorate, 
                    Department of Homeland Security

    Question 1. Given recent FPS contractor force failure highlighted 
by various GAO reports, is the Federal Protective Service's contractor 
force adequately trained to secure the buildings and facilities that 
will be used during the trials of detainees?
    Answer. FPS will collaborate with other Federal, State, and local 
law enforcement agencies, under the USMS lead, to provide an 
appropriate law enforcement presence at the trials.
    Question 2a. Does the FPS have adequate resources in New York City 
to meet its existing security responsibilities?
    Answer. FPS will collaborate with other Federal, State, and local 
law enforcement agencies, under the USMS lead, to provide an 
appropriate law enforcement presence at the trials.
    Question 2b. Would the existing resources (as of November 18, 2009) 
need to be augmented to meet the demands associated with transferring 
detainees into New York City for the purposes of prosecution?
    Answer. FPS will collaborate with other Federal, State, and local 
law enforcement agencies, under the USMS lead, to provide an 
appropriate law enforcement presence at the trials.
    Question 2c. If so, how does DHS plan to augment those forces, and 
by how many additional personnel?
    Answer. FPS will collaborate with other Federal, State, and local 
law enforcement agencies, under the USMS lead, to provide an 
appropriate law enforcement presence at the trials.
    Question 3. To what degree was DHS and specifically FPS consulted 
prior to the decision to transfer these detainees to New York City?
    Answer. FPS was not notified prior to the announcement.
    Question 4a. How often are security assessments conducted by FPS on 
these types of facilities?
    Answer. Facilities such as the primary U.S. Courthouses in New York 
City are rated as Facility Security Level (FSL) IV and are assessed 
every 3 years.
    In February 2008, the Interagency Security Committee (ISC) issued a 
standard titled, ``Facility Security Level Determinations for Federal 
Facilities.'' This standard provides the criteria for determining the 
facility security level for Federal facilities and establishes a 
minimum standard for how often facilities at each level need to have a 
risk assessment performed. The schedule is once every 5 years for Level 
I and II facilities and once every 3 years for Level III, IV, and V 
facilities. FPS will adhere to this schedule; however, assessments can 
be completed before their established minimum schedule, and FPS will 
retain the capacity to conduct assessments earlier than required in 
certain circumstances that present a substantial change to the 
operating state of the facility under consideration.
    Question 4b. Is there a standard?
    Answer. Yes. Following the bombing of the Alfred P. Murrah Federal 
Facility in Oklahoma City, Oklahoma, on April 19, 1995, the President 
directed the Department of Justice to assess the vulnerability of 
Federal office facilities to terrorism and other acts of violence. The 
report that resulted, the 1995 Vulnerability Assessment of Federal 
Facilities, established criteria for categorizing Federal office 
facilities into five security levels and served as the foundation for 
current ISC standards.
    In 2006, ISC established a working group to review and update the 
content of the 1995 report. The review of that report resulted in the 
development of the ISC Standard Facility Security Level Determinations 
for Federal Facilities, which redefines the criteria and process used 
to determine the FSL of a Federal facility.
    Specifically, it provides a risk-based approach to determining the 
FSL that is consistent with the National Infrastructure Protection 
Plan. It considers mission criticality, symbolism, facility population, 
facility size, threat to tenant agencies, and intangible factors. In 
addition, it discusses special considerations for Level V facilities; 
campuses, complexes, and Federal centers; changes in the FSL; and co-
location of tenants with similar security needs.
    This standard also changes the frequency for conducting recurring 
building security assessments. The new frequency is:
    Every 5 years: Level I and II facilities;
    Every 3 years: Level III, IV, and V facilities.
    Question 5. One of the problems identified by GAO and previous 
inspector general reports is inadequate staffing of FPS. Although the 
number of contract guards has increased three-fold since 9/11, the 
number of FPS inspectors has decreased. Has the Department conducted a 
staffing needs analysis to improve the coverage of oversight over 
contract guards?
    If so, could you please provide the most recent report to the 
committee?
    Answer. The Department of Homeland Security (DHS) is currently 
reviewing the staffing levels of the Federal Protective Service (FPS). 
This is, in part, a response to the July 2009 Government Accountability 
Office (GAO) report entitled ``Preliminary Results Show Federal 
Protective Service's Ability to Protect Federal Facilities Is Hampered 
By Weaknesses in Its Contract Security Guard Program.'' The review is 
being conducted under the guidance of the Under Secretary for the 
National Protection and Programs Directorate and in response to the 
Secretary of Homeland Security's direction for a thorough review of 
FPS's operations and staffing levels following the July 2009 GAO 
report. Once that review is finalized, DHS will engage, as appropriate, 
with Congress, including the House Committee on Homeland Security. It 
should be noted, though, that FPS has previously conducted staffing-
level reviews and human capital planning efforts, including an analysis 
conducted in 2009. This analysis document is in draft form and is 
currently being reviewed within the Department; thus, it is not 
appropriate at this point to share the document outside of the 
Department.
    Question 6. Should the FPS contracted guard force be federalized, 
as was done with TSA screeners in 2001? If so, why? If not, why not?
    Answer. The Federal Protective Service (FPS) has initially explored 
several operational options including the conversion of some or all of 
the nearly 15,000 contract guards to Federal positions. Currently, FPS 
uses a hybrid model in which FPS inspectors are assigned to directly 
oversee the contract guard force at specific facilities. The National 
Protection and Programs Directorate (NPPD) has not had an opportunity 
to fully review and evaluate all the challenges related to federalizing 
or partially federalizing the guard workforce. An analysis of these 
challenges would need to evaluate the security benefits of a very 
complex transition effort, average costs, and the logistical management 
of new hires. NPPD and Department leadership will work together to 
review the recommendations of previous studies conducted for FPS. NPPD 
will also reach out to the Transportation Security Administration to 
gain the benefits of its experience.

 Questions From Chairman Bennie G. Thompson of Mississippi for Gary W. 
  Schenkel, Director, Federal Protective Service, National Protection 
         Programs Directorate, Department of Homeland Security

    Question 1. Please provide the committee with the written arrest 
and detention policy that FPS provides to contract guards.
    Answer. Please see Attachment 12 entitled ``Federal Protective 
Service (FPS) Security Guard Information Manual.''*
---------------------------------------------------------------------------
    * The information has been retained in committee files.
---------------------------------------------------------------------------
    Question 2. You testified that you are 99 percent certain that all 
contract guards at Federal buildings have met FPS training and 
certification requirements. Please provide the committee with 
documentation demonstrating that all guards standing post at Federal 
buildings have completed requisite trainings and certifications.
    Answer. On July 7, 2009, each Federal Protective Service (FPS) 
Regional Director was tasked to provide FPS Headquarters with up-to-
date and accurate information on all active contract security guards. 
As stipulated in contracts with contract guard companies, contractors 
maintain the systems of records. The records are maintained at the 
contractor's business location and are audited by FPS. Through a 
physical inspection of all active guard employee folders, it was 
determined whether required records were present, current, and valid. 
The outcome of this 100 percent review of records netted these results: 
Guards were found to be disqualified and removed from post; deductions 
were made from contracts for disqualified guards; and several criminal 
investigations stemmed from fraudulent certification records 
identified.
    By September 14, 2009, individual guard records were uploaded in 
the Contract Guard Employment Requirements Tracking System based on 
information received from the FPS Regions. This information then 
underwent a data-level quality assurance review to ensure that required 
information was present so that it could be migrated into the Risk 
Assessment Management Program (RAMP), which will provide a near-time 
reflection of the contractor guard records. For example, by November 5, 
2009, this process corrected 75 percent of guard records that were 
found not to have a company association. Any remaining records that 
could not be associated with a guard company--and thus validated 
through the 100 percent review--were not migrated into RAMP.
    FPS put all contract guard companies on notice that substandard 
performance by contract guards is unacceptable and will not be 
tolerated and informed them that the number and frequency of 
inspections of guard post and certifications will increase. All regions 
were required to continue their enhanced oversight of guard 
certification compliance through an increased number of post 
inspections, operation shields, and administrative audits and to report 
the specific actions they would take to address and correct contract 
guard performance issues directly to FPS Headquarters. Operation Shield 
activities test contract guard proficiency and compliance with post 
orders, policies, and procedures. This additional scrutiny resulted in 
a drop in the percentage of certified guards between September and 
October.
    Data was migrated into RAMP and on November 16, 2009, FPS provided 
each guard company with reports of employment and certification data 
for each of their employees. Companies were asked to review, validate, 
and provide any additional updates for their employees to ensure that 
the information held by FPS in RAMP is consistent with their records. 
Based on information provided by guard companies on their employees, 
the number of certified guards available to work on FPS posts has 
already begun to increase because of continued updates and validation 
of guard certification records by FPS Regions. FPS confirms that all 
FPS guards at Federal buildings have met FPS training and certification 
requirements through post inspections.
    Question 3a. GAO reported that FPS no longer has officers patrol 
buildings to prevent or detect criminal activity. As a result, 
criminals could freely conduct surveillance of a Federal building 
without the agency's knowledge.
    Why has FPS eliminated proactive building patrols?
    Answer. The Federal Protective Service (FPS) has adopted a risk-
based approach to providing effective security for all facilities it 
protects. In doing so, FPS leverages Federal and contract personnel, as 
well as technology, to provide integrated security and law enforcement 
services. With the current funding provided for FPS's basic operations, 
a workforce of approximately 1,225 full-time equivalents can be 
supported. Given that constraint, FPS has to effectively leverage those 
personnel to provide the maximum risk mitigation to Federal facilities 
across the Nation. Because Federal facilities do not experience uniform 
levels of risk, FPS allocates its resources based on where its work 
will provide the greatest security and risk reduction. Additionally, 
FPS uses a variety of countermeasures in Federal facilities that serve 
as a force multiplier, allowing the agency to accomplish its risk 
mitigation goals while maximizing the time available for personnel to 
conduct the varied activities for which FPS is responsible. These 
countermeasures range from contracted protective security officers to 
electronic systems such as closed-circuit video to intrusion-detection 
systems. By leveraging technology and adopting a risk-based approach to 
protection, FPS provides efficient security and law enforcement 
services while adhering to key practices for risk management identified 
by the Government Accountability Office.
    Question 3b. How will FPS work with NPPD to ensure that FPS devotes 
adequate resources to patrolling Federal buildings?
    Answer. FPS and the National Protection and Programs Directorate 
(NPPD) are working closely together to ensure that all Federal 
buildings are safe. This responsibility encompasses numerous aspects of 
physical security and protective countermeasures to protect the Federal 
employees who serve in these facilities and the millions of visitors 
who visit these facilities each year. NPPD and the FPS achieve these 
goals through a risk-based approach to conducting security assessments, 
offering emergency planning services and providing physical security to 
these Federal facilities. NPPD and FPS take these responsibilities 
seriously and are continuously developing new methods and incorporating 
new technologies to enhance the security of these facilities and better 
equip and train the FPS personnel who perform or support the 
performance of these tasks.
    Question 4a. GAO reported that in rural areas where FPS does not 
have a field office, FPS rarely monitors contract guards.
    How many field offices does FPS have in rural areas?
    Answer. The Federal Protective Service (FPS) has 125 field office 
locations in rural areas.
    Question 4b. How many FPS officers are stationed in rural field 
offices?
    Answer. FPS has 203 officers in rural areas.
    Question 4c. For each FPS officer in a rural field office, how many 
facilities is the FPS officer responsible for monitoring?
    Answer. FPS does not track facilities per field office, but, with 
approximately 9,000 facilities and at our current manning of 1225, each 
Law Enforcement Security Officer (LESO) is responsible for monitoring 
on average 12 buildings.
    Question 4d. Will FPS and NPPD work on a solution for ensuring that 
Federal buildings in rural areas are safe?
    Answer. FPS and the National Protection and Programs Directorate 
(NPPD) are working closely together to ensure that all Federal 
buildings are safe. NPPD and FPS achieve these goals through a risk-
based approach to conducting security assessments, offering emergency 
planning services, and providing physical security to these Federal 
facilities. NPPD and FPS take these responsibilities seriously and are 
continuously developing new methods and incorporating new technologies 
to enhance the security of these facilities and better equip and train 
the FPS personnel who perform or support these tasks.
    Question 5a. In response to GAO recommendations to improve FPS 
building inspections, in March 2009, FPS issued a policy directive to 
standardize inspections across all FPS regions.
    When will FPS complete the implementation of this directive?
    Answer. The FPS Director implemented directive number FPS-09-001, 
Guard Contract Performance Monitoring Program, in March 2009. This 
directive established policy for FPS performance monitoring of contract 
security guards, guard forces, and contractor management functions. It 
also assigned organizational responsibilities for post, site, and 
administrative inspections and annual contractor performance 
evaluations.
    To further our efforts to improve operations, business practices, 
and overall standardization, FPS established the position of Assistant 
Director for Compliance in August 2009, based upon the identified need 
to integrate formerly unsystematic efforts to manage and address FPS 
weaknesses in compliance and oversight. The coordinated activities of 
the Directorate will enable FPS to adhere to a planned approach to risk 
management and internal control by documenting and evaluating risk and 
controls at the process level through compliance investigations, 
program reviews, self-inspection cycles, data analyses, proactive 
corrective action, policy oversight, and continuous quality 
improvement.
    In fiscal year 2009, FPS completed a gap analysis that identified 
policy requirements to standardize operations and business practices. 
FPS identified and initiated development of 48 priority policy 
requirements by establishing a goal of 20 policies to be developed in 
fiscal year 2009. Fiscal year 2009 success resulted in the 
implementation of 26 policies that have standardized operations and 
business practices. We made an effort to prioritize fiscal year 2009 
policies to support or assist in achieving milestones toward resolving 
open recommendations from the Government Accountability Office and DHS 
Office of the Inspector General reports. In addition, FPS conducted 
training for Headquarters Division Directors and key staff to implement 
the directive development process and system. As part of the directive 
development process and system, FPS implemented the Standard Subject 
Identification Series, which provides the framework for a subject-
based, future-state policy manual that we are currently populating as 
policy directives are implemented.
    FPS will continue to remain flexible and responsive to the changing 
needs of the organization while continuing to improve the quality and 
clarity of policy directives. We have 27 policy directives currently in 
the draft development stage that we will endeavor to implement during 
fiscal year 2010.
    Question 5b. Who is responsible for ensuring that the policy 
directive is a success?
    Answer. The FPS Director is ultimately responsible for ensuring 
implementation and compliance with all policy directives. FPS-09-001, 
Guard Contract Performance Monitoring Program, outlines roles and 
responsibilities throughout the organizational structure of FPS. 
However, Regional Directors are responsible for implementation and 
adherence at the field level.
    Prior to March 2009, FPS recognized the need for developing policy 
directives throughout the organization. We have since undertaken a 
comprehensive program by which we have developed and issued National 
policy directives that have led to the standardization of business 
practices, which includes the implementation of 29 policy directives. 
Of these 29 policy directives, eight have impacted the improvement of 
contract guard oversight:
    07-005, Agency Technical Representative Program, 4/30/07.--This 
directive establishes the roles and responsibilities for the assignment 
and use of agency technical representatives (ATR) to provide limited, 
on-site, contract, and operational oversight for the contract guard 
program.
    ATRs are appointed by the FPS Contracting Officer's Technical 
Representative providing limited on-site contract and operational 
oversight. Upon appointment of an ATR, the COTR provides the 
appointment documentation to the Contracting Officer for record keeping 
and auditing purposes.
    08-003, Contract Guard Post Desk Book Program, 10/10/08.--This 
directive establishes the FPS contract guard post desk book program and 
assigns organizational responsibilities for the development, 
management, and administration of standardized post desk books for all 
contract security guard force activities.
    08-007, Oversight of Contractor-Provided Training, 11/12/08.--This 
directive establishes policy and procedures for FPS monitoring and 
oversight of contractor performance in providing contract-required 
security guard training.
    08-008, Contract Guard Written Examination Program, 11/17/08.--This 
directive establishes the policy and procedures requiring contract 
security guards to pass a written examination to work on an FPS 
contract.
    09-001, Guard Contract Performance Monitoring Program, 3/11/09.--
This directive establishes policy for FPS performance monitoring of 
contract security guards, guard forces, and contractor management 
functions. It also assigns organizational responsibilities for post, 
site, and administrative inspections and annual contractor performance 
evaluations.
    15.7.2.5, Operation Shield, 6/5/09.--This directive establishes FPS 
policy, standards, responsibilities, and implementation procedures for 
Operation Shield. Operation Shield activities test contract guard 
proficiency and compliance with post orders, policies, and procedures.
    15.9.1.1, Security Guard Acquisition Planning and Pre-Award, 9/23/
09.--This directive establishes standardized requirements for, and 
organizational responsibilities of, the FPS Security Guard Acquisition 
Planning and Pre-Award process. This directive improves oversight by 
standardizing roles and responsibilities of employees engaged in 
acquisition planning for contract security guard services.
    15.5.1.5, Initial Offense and Incident Case Reporting, 9/30/09.--
This directive establishes the requirements for incident reporting by 
FPS law enforcement officers and security guards. This directive 
improves oversight by standardizing contract security guard reporting 
of Part III offenses, which include security, assistance, and 
miscellaneous incidents of a non-criminal nature.
    FPS has also established a Covert Testing Working Group (CTWG), 
whose membership includes supervisory and non-supervisory employees 
from Headquarters and field offices. The purpose of the CTWG is to 
enhance and complement on-going efforts to improve operational 
oversight of the Contract Guard Program. The working group will 
contribute to the overall approach to effect cultural change, both 
inside and outside the organization, to effectively and efficiently 
achieve the FPS Strategic Goals and ensure secure facilities and safe 
occupants.
    Specifically, the CTWG will:
  <bullet> Develop a covert testing program with Headquarters 
        leadership and oversight;
  <bullet> Draft National policy to address covert testing operations 
        (Complete);
  <bullet> Determine training requirements and equipment needs (e.g., 
        standard covert testing kits), estimate cost and complete 
        procurement (Completion NLT 1/25/10, On Track); and
  <bullet> Deploy covert test teams and document results (First 
        deployment no later than April 1, 2010, On Track).
    To complement the previous milestones, the CTWG will also:
  <bullet> Review existing resources on covert testing operations to 
        maximize policy development time frames and capitalize on 
        existing Government resources;
  <bullet> Determine additional human resource needs to ensure that 
        covert testing operations have the desired impact;
  <bullet> Develop a National schedule for the conduct of covert 
        testing operations at Federal facilities;
  <bullet> Consider counter-surveillance as part of pre-operational 
        planning for covert testing operations;
  <bullet> Develop standardized case management documentation, 
        reporting, and data management; and
  <bullet> Develop procedures for integration with the program review 
        process to manage data analysis and proper follow-up to ensure 
        that corrective actions and identified policy and training 
        deficiencies are adequately addressed.
    Question 6. Please provide this committee with copies of all 
current Memoranda of Understanding between FPS and local police 
departments in the areas where FPS operates.
    Answer. The Federal Protective Service (FPS) provides integrated 
security and law enforcement services to nearly 9,000 Federal 
facilities Nation-wide. Because FPS is a relatively small agency, it is 
not possible to have personnel in all places at all times. Accordingly, 
strong relationships with State and local law enforcement are essential 
to accomplishing the FPS mission. Through information sharing 
initiatives, joint training, exercises, and regular response 
activities, FPS has always worked well with State and local law 
enforcement partners. Given that there are approximately 17,000 law 
enforcement organizations across the country, the time and cost 
involved in initiating, negotiating, and maintaining formal Memoranda 
of Understanding with this large variety of law enforcement agencies 
make this an unfeasible arrangement. The question of financial 
responsibility and liability prevents many local governments from 
entering into formal written agreements. Additionally, depending on the 
State or locality, existing local laws often prescribe the relationship 
between Federal officers and their State and local counterparts. 
Working within these existing legal frameworks and maintaining strong 
relationships with partner law enforcement agencies allows FPS to work 
well with other law enforcement agencies while focusing its efforts on 
the protection of Federal facilities.
    Question 7. Please provide a narrative of all security 
countermeasure recommendations FPS issued to GSA or GSA tenants in the 
past year, and the corresponding GSA or tenant agency response to each 
FPS recommendation. For instances in which GSA or the tenant agency 
declined to implement the recommended security countermeasure, specify 
the basis for this decision.
    Answer. Currently, the Federal Protective Service (FPS) is 
dependant on six disparate systems to conclude a Facility Security 
Assessment (FSA). Consequently, FPS will have to review each of the 
9,000 existing FSAs separately and make comparisons with each Facility 
Security Committee (FSC). However, FPS's new Risk Assessment and 
Management Program (RAMP) system, introduced November 2009, will 
provide a comprehensive picture and analysis of all General Services 
Administration (GSA) facilities under FPS control and will be able to 
document those countermeasures that are recommended against those 
countermeasures that are implemented. This process will be completed in 
accordance with the Interagency Security Committee (ISC) Facility 
Security Level (FSL) schedule.
    FPS works in conjunction with the GSA. FPS recommends 
countermeasures for each building within the GSA inventory on a risk-
based approach. Based on that risk, specific countermeasures are 
recommended that are either fixtures or features (i.e., considered 
permanent alterations to the building or grounds) or categorized as 
countermeasure equipment and guards. Examples of a fixture or feature 
are bollards, structural hardening of a facility, or a device embedded 
in the ground to prevent vehicle access. If the fixed countermeasure 
recommendations are accepted by the FSC, GSA funds the purchase and 
installation and amortizes the costs into the tenants' rent bill. The 
countermeasure equipment and guards are also recommended based on the 
comprehensive risk-based assessment and are the direct responsibility 
of the tenants; thus, the FSC either accepts or rejects the FPS 
recommendation for implementation. Examples of these are X-ray 
machines, metal detectors, closed-circuit television cameras, perimeter 
lighting, and contract security guards. The FSC does not produce a 
document to reject the implementation of recommended countermeasures 
formally and is not required to document those recommendations that 
were not accepted or declined. For the most part, the FSC merely fails 
to sign off on the FSA. There are no penalties or fines associated with 
not complying with the recommendation to implement recommended 
countermeasures.
    FPS uses countermeasures from seven basic systems to enhance 
security and mitigate risk for Federal facilities: Access control, 
alarms, barriers, communications, guard forces, screening, and 
surveillance. To determine the appropriate countermeasures to employ 
for a particular facility, FPS conducts comprehensive risk assessments 
that gather and analyze detailed information on likely threats, 
vulnerabilities, and potential consequences. Along with this 
information, FPS also used standards issued by the ISC to ensure that 
countermeasures required by standards are present in Federal 
facilities. The applicable countermeasure standards depend on the FSL 
of the building under consideration. For instance, the use of physical 
barriers is not applicable for Level I and Level II facilities (the 
lowest of 5 levels), is desirable for Level III facilities, and is a 
minimum standard for Level IV and Level V facilities. Using a 
comprehensive risk analysis, FPS makes appropriate recommendations to 
facility tenants for countermeasures to mitigate applicable risks. 
These recommendations are presented to the FSC at the facility, and the 
FSC determines which recommended countermeasures to implement. Given 
this model for security decisions, the facility tenants, as represented 
on an FSC, often may not move forward with implementing 
countermeasures. FPS does not have the authority to mandate 
implementation of recommended countermeasures. In the past year, FPS 
conducted more than 2,400 facility security assessments. In some cases, 
the existing level of risk mitigation was functioning well, and no 
additional countermeasures were necessary beyond regular training for 
facility tenants. In others, extensive countermeasure projects were 
recommended. In some of these cases, implementing these countermeasures 
entails extensive coordination with the tenants, GSA, and other 
stakeholders (such as city planners, engineers, or preservation 
groups). For example, barrier projects in the National Capital Area 
have to be coordinated with the National Capital Planning Commission to 
ensure that they adhere to the guidelines for designing security in the 
Nation's Capital as issued by that organization. Accordingly, 
countermeasure projects for FPS range from simple, low-cost items that 
can be easily implemented to multi-year projects that require advanced 
budgeting and extensive coordination.
    Question 8a. At the hearing, David Wright of AFGE testified that as 
of this year, FPS has reduced security charges used to pay for 
monitoring and administrative activities related to contract guard 
oversight by 25 percent.
    Please explain whether FPS has decreased its security charges, and 
if so, the reason for this reduction.
    Answer. FPS has not reduced security charges; however, FPS reduced 
its administrative surcharge. The surcharge reduction was made as a 
result of an analysis of resource needs. As a result, FPS reduced its 
overhead charge by 25 percent, from an 8 percent charge in fiscal year 
2009 to a 6 percent charge in fiscal year 2010 ($15 million). Since 
this time, FPS has developed a full costing of the funding needs 
arising from the FPS transition to NPPD and for future fiscal years the 
surcharge will be reevaluated.
    Question 8b. Having reduced its security charges, how will FPS 
ensure that it has adequate resources to conduct monitoring and 
administrative activity related to contract guards?
    Answer. As part of the National Protection and Programs Directorate 
(NPPD) Transition Plan, FPS is working diligently with Immigration and 
Customs Enforcement (ICE) and NPPD to maximize efficiencies for FPS. 
FPS's dependency on ICE for many of its required services has been 
defined in a series of agreements between NPPD and ICE to continue, 
alter, or discontinue many of these services. With regards to 
requirements that will be more cost-effective by absorbing or creating 
services within FPS or NPPD, monies previously paid to ICE will be 
recouped and redirected as appropriate. Examples of these are Fleet 
Management, Facilities Management, and Services. In circumstances where 
continuation of service with ICE makes better fiscal and operational 
sense, FPS will continue to pay its appropriate share to ICE. An 
example of this is a continuation of service with the National Firearms 
Tactical Training Unit. Only in extreme circumstances will FPS either 
delay or defray resources from forthcoming projects to meet immediate 
requirements.
    As indicated above, FPS has deferred certain capital investments to 
ensure that funds are available to continue the increased levels of 
contract guard monitoring and oversight initiated in fiscal year 2009. 
Additionally, since 2008, FPS has invested in technology upgrades that 
will substantially improve the way the contract guard force is 
monitored and supervised. With rugged, mobile laptops and the Risk 
Assessment and Management Program (RAMP), FPS inspectors will have 
immediate access to a contract guard's training and certification 
status. Time saved completing written forms and running computer checks 
at the office will allow inspectors to spend more time servicing 
Federal facilities and monitoring guard performance.
    In addition to RAMP, in fiscal year 2010, FPS will procure a Post 
Tracking System that will ensure that security posts are adequately 
staffed and that disqualified guards do not stand post. The system will 
alert if an unqualified guard seeks to enter on duty. If there is a 
lapse, the guard company will be electronically notified that the guard 
may not perform work on the contract. At present, contract guards sign 
in on paper sheets at each Federal facility. Until those are collected, 
reviewed, and assessed, the sheets are of little value. FPS 
aggressively deducts fees when contract companies fail to provide the 
service FPS expects. The automated system is a significant step 
forward, removes delay, and provides automatic safeguards.
    Question 9a. Please identify all companies holding current 
contracts to provide guard services on behalf of FPS. For each 
contract, indicate the term of the contract, the annual cost of each 
contract, and whether the contract requires any contract guards to be 
qualified or trained as special police officers, or requires any 
contract guards to have arrest authority.
    Answer. Attachment 20 to this response provides a listing of 
companies that provide guard services on behalf of the Federal 
Protective Service (FPS). Additionally, it includes the term of 
contracts (remaining contract options) and estimated annual costs. Two 
FPS contracts in the National Capital Region include a requirement for 
special police officers:
Contract.--HSCEEC-08-D-00005.
Contractor.--Jenkins Security Consultants.
Awarded.--5/22/2008.
Period of Performance.--08/01/2008-7/31/2013.
Contract.--HSCEEC-09-D-00013.
Contractor.--Knight Protective Service.
Awarded.--7/31/2009.
Period of Performance.--11/01/2009-10/31/2014.
    Question 9b. Has FPS or DHS analyzed the labor and overhead costs 
associated with these contracts? If so, please provide contract guard 
costs, separately delineating labor and overhead costs.
    Answer. FPS guard service contracts are considered commercial 
services under FAR 2.101 (see paragraph 6 of Commercial Item 
definition), and, therefore, are exempt from certified cost or pricing 
data requirements under FAR 15-403-1(c)(3). Accordingly, FPS acquires 
guard services under FAR Part 12, Commercial Item Acquisitions, or 
under FAR 8.4, Federal Supply Schedule procedures, which do not require 
the contractor to delineate the separate components of its price, such 
as labor and overhead. However, we recently have required the guard 
service contractors to provide a price element breakdown of their 
quoted/proposed rate to evaluate price realism, as provided by FAR 
15.404-1(d)(3). The purpose of our price realism reviews is limited to 
assessing the contractor's understanding of the solicitation 
requirements and assessing performance risk. While such analysis may 
include reviewing the proposed labor and components of overhead 
pricing, these amounts are based on commercial pricing and, therefore, 
may not be representative of the contractor's actual costs. To 
determine the actual labor and overhead costs incurred by the 
contractor in performing FPS guard services contracts, an audit of the 
contractor's books and records would be necessary, which is not 
permitted under commercially priced contracts.

                                     DETAILED BREAKOUT OF FPS CONTRACTS REPORTED BY REGIONAL CONTRACT GUARD PROGRAMS

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                       Estimated
            FPS Region                 Contract No.           Contractor          Description of    Total Contract     Estimated        Term/Options
                                                                                     Services            Value       Annual Value         Remaining
--------------------------------------------------------------------------------------------------------------------------------------------------------
1................................  HSCEE1-08-D-00002...  C&D Security MGMT     Guard Services/MA,      $17,722,240      $3,544,448  10/1/2009 thru 9/30/
                                                          INC.                  RI.                                                  2010
                                                                                                                                    10/1/2010 thru 9/30/
                                                                                                                                     2011
                                                                                                                                    10/1/2011 thru 9/30/
                                                                                                                                     2012
                                                                                                                                    10/1/2012 thru 9/30/
                                                                                                                                     2013

1................................  HSCEE1-08-D-00001...  C&D Security MGMT     Guard Services CT..     $19,663,853      $3,932,771  10/1/2009 thru 9/30/
                                                          INC.                                                                       2010
                                                                                                                                    10/1/2010 thru 9/30/
                                                                                                                                     2011
                                                                                                                                    10/1/2011 thru 9/30/
                                                                                                                                     2012
                                                                                                                                    10/1/2012 thru 9/30/
                                                                                                                                     2013

1................................  HSCEEI-08-A-00001...  MVM, INC............  Guard Services/New      $60,000,000     $12,000,000  8/18/2009 thru 8/17/
                                                                                England.                                             2010
                                                                                                                                    8/18/2010 thru 8/17/
                                                                                                                                     2011
                                                                                                                                    8/18/2011 thru 8/17/
                                                                                                                                     2012
                                                                                                                                    8/18/2012 thru 8/17/
                                                                                                                                     2013

2................................  HSCEE2-09-A-00005...  Wackenhut Services,   Guard Services--        $55,000,000     $11,000,000  Option 1 10/01/09-9/
                                                          Inc. (WSI).           Upstate NY.                                          30/10
                                                                                                                                    Option 2 10/01/10-9/
                                                                                                                                     30/11
                                                                                                                                    Option 3 10/01/11-9/
                                                                                                                                     30/12
                                                                                                                                    Option 4 10/01/12-9/
                                                                                                                                     30/13

2................................  HSCEE2-08-Q-00003...  FJC Security........  Guard Services.....     $28,000,000      $5,600,000  Initial yr: 10/01/08-
                                                                                                                                     9/30/09
                                                                                                                                    Option 1 10/01/09-9/
                                                                                                                                     30/10
                                                                                                                                    Option 2 10/01/10-9/
                                                                                                                                     30/11
                                                                                                                                    Option 3 10/01/11-9/
                                                                                                                                     30/12
                                                                                                                                    Option 4 10/01/12-9/
                                                                                                                                     30/13

2................................  GS-07F-0504N........  Alante Security       Guard Services          $24,000,000      $4,800,000  Initial yr: 12/01/08-
                                                          Group.                (Queens, NY).                                        11/30/09
                                                                                                                                    Option 1 12/01/09-11/
                                                                                                                                     30/10
                                                                                                                                    Option 2 12/01/10-11/
                                                                                                                                     30/11
                                                                                                                                    Option 3 12/01/11-11/
                                                                                                                                     30/12
                                                                                                                                    Option 4 12/01/12-11/
                                                                                                                                     30/13

2................................  HSCEE2-09-A-00006...  Wackenhut Corp......  Guard Services FBI       $4,500,000        $900,000  Option 1 10/01/09-9/
                                                                                Facilities in                                        30/10
                                                                                upstate NY.                                         Option 2 10/01/10-9/
                                                                                                                                     30/11
                                                                                                                                    Option 3 10/01/11-9/
                                                                                                                                     30/12
                                                                                                                                    Option 4 10/01/12-9/
                                                                                                                                     30/13

2................................  HSCEE2-08-R-0001....  MVM, INC............  Guard Services.....     $30,000,000      $6,000,000  Option 1 7/01/09-6/
                                                                                                                                     30/10
                                                                                                                                    Option 2 7/01/10-6/
                                                                                                                                     30/11
                                                                                                                                    Option 3 7/01/11-6/
                                                                                                                                     30/12
                                                                                                                                    Option 4 7/01/12-6/
                                                                                                                                     30/13

2................................  HSCEE2-08-R-00005...  FJC Security........  Guard service           $12,000,000      $2,400,000  Initial yr: 12/01/08-
                                                                                (Brooklyn, NY).                                      11/30/09
                                                                                                                                    Option 1 12/01/09-11/
                                                                                                                                     30/10
                                                                                                                                    Option 2 12/01/10-11/
                                                                                                                                     30/11
                                                                                                                                    Option 3 12/01/11-11/
                                                                                                                                     30/12
                                                                                                                                    Option 4 12/01/12-11/
                                                                                                                                     30/13

2................................  HSCEE2-08-R-00001...  Alutiiq, Inc........  Guard Services.....     $10,586,000      $2,117,200  Initial yr: 1/01/09-
                                                                                                                                     12/31/10
                                                                                                                                    Option 1 1/01/11-12/
                                                                                                                                     31/11
                                                                                                                                    Option 2 1/01/12-12/
                                                                                                                                     31/12
                                                                                                                                    Option 3 1/01/13-12/
                                                                                                                                     31/13
                                                                                                                                    Option 4 1/01/14-12/
                                                                                                                                     31/14

3................................  HSCEGI-05-CF00004...  BSA/LB&B............  Guard Services for      $25,606,626      $5,121,325  Contract expires 3/
                                                                                CMS, Baltimore, MD.                                  31/10

3................................  HSCEGI-07-A-00006...  C & D Security......  Guard Svc./Metro.       $42,226,387      $8,445,277  Option 2 (4/1/09-3/
                                                                                Phila.                                               31/10)
                                                                                                                                    Option 3 (4/1/10-3/
                                                                                                                                     31/11)
                                                                                                                                    Option 4 (4/1/11-3/
                                                                                                                                     31/12)

3................................  HSCEGI-07-D-00006...  T & W Company, Inc..  Guard Services WV       $32,854,663      $6,570,933  Option 3 (11/1/10-10/
                                                                                Panhandle.                                           30/11)
                                                                                                                                    Option 4 (11/1/11-10/
                                                                                                                                     30/12)

3................................  HSCEE3-09-A-00005...  DECO................  Guard Services           $3,252,244        $650,449  Award (12/1/08-11/30/
                                                                                Delaware State.                                      09)
                                                                                                                                    Option 1 (12/1/09-11/
                                                                                                                                     30/10)
                                                                                                                                    Option 2 (12/1/10-11/
                                                                                                                                     30/11)
                                                                                                                                    Option 3 (12/1/11-11/
                                                                                                                                     30/12)
                                                                                                                                    Option 4 (12/1/12-11/
                                                                                                                                     30/13)

3................................  HSCEE3-08-A-00003...  ARES................  Guard Services New      $11,106,450      $2,221,290  Award (12/1/08-11/30/
                                                                                Jersey State.                                        09)
                                                                                                                                    Option 1 (12/1/09-11/
                                                                                                                                     30/10)
                                                                                                                                    Option 2 (12/1/10-11/
                                                                                                                                     30/11)
                                                                                                                                    Option 3 (12/1/11-11/
                                                                                                                                     30/12)
                                                                                                                                    Option 4 (12/1/12-11/
                                                                                                                                     30/13)

3................................  HSCEE3-08-A-00002...  Paragon Systems.....  Guard Services          $42,388,500      $8,477,700  Award (4-1-2009-3-31-
                                                                                Virginia.                                            2010)
                                                                                                                                    Option 1 (4-1-2010-3-
                                                                                                                                     31-2011)
                                                                                                                                    Option 2 (4-1-2011-3-
                                                                                                                                     31-2012)
                                                                                                                                    Option 3 (4-1-2012-
                                                                                                                                     32-31-2013)
                                                                                                                                    Option 4 (4-1-2013-3-
                                                                                                                                     31-2014)

3................................  HSCEE3-08-A-00001...  Knight Protective     Guard Services/PA..     $25,563,532      $5,112,706  Option 1 (10/1/09-9/
                                                          Services.                                                                  30/10)
                                                                                                                                    Option 2 (10/1/10-9/
                                                                                                                                     30/11)
                                                                                                                                    Option 3 (10/1/11-9/
                                                                                                                                     30/12)
                                                                                                                                    Option 4 (10/1/12-9/
                                                                                                                                     30/13)

3................................  HSCEGI-05-CF00005...  SANTE FE............  Guard Services/NDIC      $3,260,218        $652,044  Contract expires 3/
                                                                                                                                     31/10

3................................  GS-07F-02676L.......  Security Consultants  Guard Services West     $15,858,609      $3,171,722  Contract expires 3/
                                                          Group.                Virginia.                                            31/10

3................................  HSCEGI-05-D-F00006..  ARES................  Guard Services          $49,731,853      $9,946,371  Option 4 (7/1/09-5/
                                                                                Maryland State.                                      31/10)

3................................  HSCEE3-09-A-00006...  Eagle Technologies    Guard Services Ft       $11,197,548      $2,239,510  Award (4-8-2009-4-7-
                                                          Inc.                  Detrick, MD.                                         2010)
                                                                                                                                    Option 1 (4-8-2010-4-
                                                                                                                                     7-2011)
                                                                                                                                    Option 2 (4-8-2011-4-
                                                                                                                                     7-2012)
                                                                                                                                    Option 3 (4-8-2012-4-
                                                                                                                                     7-2013)
                                                                                                                                    Option 4 (2-8-2013-4-
                                                                                                                                     7-2014)

3................................  HSCEE3-09-D-00001...  Action Facilities     CBP, Harpers Ferry       $6,869,630      $1,373,926  Award (3-1-09-2-28-
                                                          Mgmt.                 WV.                                                  2010)
                                                                                                                                    Option 1 (3-1-2010-2-
                                                                                                                                     28-2011)
                                                                                                                                    Option 2 (3-1-2011-2-
                                                                                                                                     28-2012)
                                                                                                                                    Option 3 (3-1-2012-2-
                                                                                                                                     28-2013)
                                                                                                                                    Option 4 (3-1-2013-2-
                                                                                                                                     28-2014)

4................................  HSCEG1-07-A-00010...  SCG, INC............  Guard Services          $42,980,920      $8,596,184  Opt 3 10/1/2010-9/30/
                                                                                State of Alabama.                                    2011
                                                                                                                                    Opt 4 10/1/2011-9/30/
                                                                                                                                     2012

4................................  HSCEG1-07-A-00009...  SCG, INC............  GUARD SERVICES          $41,949,771      $8,389,954  Opt 3 8/1/2010-7/31/
                                                                                STATE OF TENNESSEE.                                  2011
                                                                                                                                    Opt 4 8/1/2011-7/31/
                                                                                                                                     2012

4................................  HSCEGI-07-A-00013...  Paragon Systems, Inc  Guard Svc.--SC.....     $29,465,229      $5,893,046  Opt 2 11/1/2009-10/
                                                                                                                                     31/2010
                                                                                                                                    Opt 3 11/1/2010-10/
                                                                                                                                     31/2011
                                                                                                                                    Opt 4 11/1/2011-10/
                                                                                                                                     31/2012

4................................  HSCEE4-08-A-0001....  PARAGON SYSTEMS.....  Guard Service......     $87,871,580     $17,574,316  Opt 2 4/1/2010-3/31/
                                                                                                                                     2011
                                                                                                                                    Opt 3 4/1/2011-3/31/
                                                                                                                                     2012
                                                                                                                                    Opt 4 4/1/2012-3/31/
                                                                                                                                     2013

4................................  HSCEE4-08-a-00008...  SCG.................  SECURITY GUARD SVC-     $29,460,845      $5,892,169  Opt 2 10/1/2010-9/30/
                                                                                KENTUCKY.                                            2011
                                                                                                                                    Opt 3 10/1/2011-9/30/
                                                                                                                                     2012
                                                                                                                                    Opt 4 10/1/2012-9/30/
                                                                                                                                     2013

4................................  HSCEE4-08-A-00002...  SCG.................  GUARD SERVICES, MS.     $19,656,437      $3,931,287  4/1/2010-3/31/2011
                                                                                                                                    4/1/2011-3/31/2012
                                                                                                                                    4/1/2012-3/31/2013

4................................  HSCEE4-08-A-0004....  SCG.................  GUARD SERVICES, NC.     $18,249,165      $3,649,833  Opt 2 8/1/2010-7/31/
                                                                                                                                     2011
                                                                                                                                    Opt 3 8/1/2011-7/31/
                                                                                                                                     2012
                                                                                                                                    Opt 4 8/1/2012-7/31/
                                                                                                                                     2013

4................................  HSCEE4-09-D-00001...  ALUTIIQ-MELE, LLC...  SECURITY GUARD SVC,     $75,000,000     $15,000,000  10/1/09-9/30-2014
                                                                                Southern FL.

4................................  HSCEGI-07-A-00012...  ARES GROUP..........  GUARD SERVICE......     $62,099,576     $12,419,915  Opt 3 10/1/2010-9/30/
                                                                                                                                     2011
                                                                                                                                    Opt 4 10/1/2011-9/30/
                                                                                                                                     2012

4................................  HSCEE4-08-A-00007...  SCG.................  GUARD SERVICE......      $7,987,200      $1,597,440  Opt 2 10/1/2010-9/30/
                                                                                                                                     2011
                                                                                                                                    Opt 3 10/1/2011-9/30/
                                                                                                                                     2012
                                                                                                                                    Opt 4 10/1/2012-9/30/
                                                                                                                                     2013

5................................  HSCEC509A00005......  DECO Security Svcs..  Two State (2) State     $61,433,991     $12,286,798  Base 9/1/09-8/31/10
                                                                                Armed Security                                      Option 1 9/1/10-8/31/
                                                                                Guard Services for                                   11
                                                                                MN & WI.                                            Option 2 9/1/11-8/31/
                                                                                                                                     12
                                                                                                                                    Option 3 9/1/12-8/31/
                                                                                                                                     13
                                                                                                                                    Option 4 9/1/13-8/31/
                                                                                                                                     14

5................................  HSCEC509A00004......  DECO Security Svcs..  Armed Security          $57,656,711     $11,531,342  Base 7/1/09-3/31/10
                                                                                Guard Services for                                  Option 1 4/1/10-3/31/
                                                                                State of MI.                                         11
                                                                                                                                    Option 2 4/1/11-3/31/
                                                                                                                                     12
                                                                                                                                    Option 3 4/1/12-3/31/
                                                                                                                                     13
                                                                                                                                    Option 4 4/1/13-3/31/
                                                                                                                                     14

5................................  HSCEC509A00002......  DECO Security Svcs..  Armed Security          $60,970,831     $12,194,166  Base 4/1/09-3/31/10
                                                                                Guard Services for                                  Option 1 4/1/10-3/31/
                                                                                State of OH.                                         11
                                                                                                                                    Option 2 4/1/11-3/31/
                                                                                                                                     12
                                                                                                                                    Option 3 4/1/12-3/31/
                                                                                                                                     13
                                                                                                                                    Option 4 4/1/13-3/31/
                                                                                                                                     14

5................................  HSCEC509A00006......  Security Consultants  Armed Security          $79,715,583     $15,943,117  Base 7/1/09-6/30/10
                                                          Group (SCG).          Guard Services for                                  Option 1 7/1/10-6/30/
                                                                                State of IL.                                         11
                                                                                                                                    Option 2 7/1/11-6/30/
                                                                                                                                     12
                                                                                                                                    Option 3 7/1/12-6/30/
                                                                                                                                     13
                                                                                                                                    Option 4 7/11/13-6/
                                                                                                                                     30/14

5................................  HSCEC509A00003......  DECO Security Svcs..  Armed Security          $37,633,216      $7,526,643  Base 6/1/09-5/31/10
                                                                                Guard Services for                                  Option 1 6/1/10-5/31/
                                                                                State of IN.                                         11
                                                                                                                                    Option 2 6/1/11-5/31/
                                                                                                                                     12
                                                                                                                                    Option 3 6/1/12-5/31/
                                                                                                                                     13
                                                                                                                                    Option 4 6/1/13-5/31/
                                                                                                                                     14

6................................  HSCEC608D00001......  MVM.................  Guard Services.....    $224,000,000     $44,800,000  Base Year 3/1/09-9/
                                                                                                                                     30/09
                                                                                                                                    1st yr option 10/1/
                                                                                                                                     09-9/30/10
                                                                                                                                    2nd yr option 10/10-
                                                                                                                                     9/30/11
                                                                                                                                    3rd yr option 10/1/
                                                                                                                                     11-9/30/12
                                                                                                                                    4th yr option 10/1/
                                                                                                                                     12-9/30/13

7................................  GS-07F-0306L........  Southwestern          Tyler, Texas Area..        $462,356         $92,471  Contract Expires 2/
                                   HSCEC7-08-F-00082...   Security Services,                                                         28/10
                                                          Inc.

7................................  GS-07F-0306L........  Southwestern          West Texas,                $901,192        $180,238  Contract Expires 2/
                                   HSCEC7-08-F-00088...   Security Services,    Lubbock, Permian                                     28/10
                                                          Inc.                  Basin, Big
                                                                                Springs, etc.

7................................  GS-07F-0305L........  The J Diamond Group,  New Mexico--Texas        $8,920,693      $1,784,139  Contract Expires 2/
                                   HSCEC7-08-F-00081...   Inc.                  Cities Only.                                         28/10

7................................  GS-07F-0305L........  The J Diamond Group,  Denton, Texas Area.      $2,453,084        $490,617  Contract Expires 2/
                                   HSCEC7-08-00084.....   Inc.                                                                       28/10

7................................  GS-07F-0306L........  Southwestern          Northern Louisiana--     $2,249,745        $449,949  Contract Expires 2/
                                   HSCEC7-08-F-00079...   Security Services,    Texas Cities Only.                                   28/10
                                                          Inc.

7................................  GS-07F-5426R........  Mike Garcia Merchant  El Paso Bridges, TX      $3,280,334        $656,067  Contract Expires 2/
                                   HSCEC7-08-F-00085...   Security.                                                                  28/10

7................................  GS-07F-0306L........  Southwestern          Brownsville,             $2,686,850        $537,370  Contract Expires 2/
                                   HSCEC7-08-F-00043...   Security Services,    Harlingen, Laredo,                                   28/10
                                                          Inc.                  Texas.

7................................  GS-07F-0266K........  Knight Protective     Oklahoma State.....     $11,186,496      $2,237,299  Contract Expires 1/
                                   HSCEC7-08-F-00078...   Services, Inc.                                                             31/10

7................................  GS-07F-0266K........  Knight Protective     Houston, Texas.....      $6,840,400      $1,368,080  Contract Expires 2/
                                   HSCEC7-08-F-00075...   Services, Inc.                                                             28/10

7................................  GS-07F-0305L........  The J Diamond Group,  Corpus Christi/          $1,473,684        $294,737  Contract Expires 2/
                                   HSCEC7-08-F-00041...   Inc.                  Victoria, TX.                                        28/10

7................................  GS-07F-0267L........  Security Consultants  Dallas, Texas......     $16,488,320      $3,297,664  Contract Expires 2/
                                   HSCEC7-08-F-00086...   Group.                                                                     28/10

7................................  GS-07F-0305L........  The J Diamond Group,  San Antonio/             $3,442,318        $688,464  Contract Expires 2/
                                   HSCEC7-08-F-00040...   Inc.                  Kerrville, TX.                                       28/10

7................................  GS-07F-0305L........  The J Diamond Group,  El Paso-FOB, TX....      $3,909,159        $781,832  Contract Expires 2/
                                   HSCEC7-08-F-00076...   Inc.                                                                       28/10

7................................  GS-07F-0306L........  Southwestern          Guard Services.....        $504,584        $100,917  Contract Expires 2/
                                   HSCEC7-08-F-00048...   Security Services,                                                         28/10
                                                          Inc.

7................................  GS-07F-0605N........  Superior Protection   Brownsville,             $2,916,477        $583,295  Contract Expires 12/
                                   HSCEC7-08-F-00120...   Services, Inc.        Harlingen,                                           28/10
                                                                                McAllen, Texas.

7................................  GS-07F-0363M........  ARES Group Inc......  State of Arkansas..     $14,174,484      $2,834,897  Base 09/01/09-09/30/
                                   HSCEC7-09-A-00001...                                                                              10
                                                                                                                                    Option I 10/01/10-09/
                                                                                                                                     30/11
                                                                                                                                    Option II 10/01/11-
                                                                                                                                     09/30/12
                                                                                                                                    Option III 10/01/12-
                                                                                                                                     09/30/13
                                                                                                                                    Option IV 10/01/13-
                                                                                                                                     09/30/14

7................................  GS-07F-0305L........  The J Diamond Group,  State of New Mexico     $26,630,140      $5,326,028  Base 10/01/09-09/30/
                                   HSCEC7-09-A-00002...   Inc.                                                                       10
                                                                                                                                    Option I 10/01/10-09/
                                                                                                                                     30/11
                                                                                                                                    Option II 10/01/11-
                                                                                                                                     09/30/12
                                                                                                                                    Option III 10/01/12-
                                                                                                                                     09/30/13
                                                                                                                                    Option IV 10/01/13-
                                                                                                                                     09/30/14

7................................  GS-07F-0305L........  The J Diamond Group,  Fort Worth/Austin,      $33,182,677      $6,636,535  Base 12/01/09-11/30/
                                   HSCEC7-10-A-00001...   Inc.                  Texas.                                               10
                                                                                                                                    Option I 12/01/10-11/
                                                                                                                                     30/11
                                                                                                                                    Option II 12/01/11-
                                                                                                                                     11/30/12
                                                                                                                                    Option III 12/01/12-
                                                                                                                                     11/30/13
                                                                                                                                    Option IV 12/01/13-
                                                                                                                                     11/30/14

7................................  GS-07F-5576R........  Inter-Con...........  State of Louisiana.     $49,104,558      $9,820,912  Base 12/01/09-11/30/
                                   HSCEC7-10-A-00002...                                                                              10
                                                                                                                                    Option I 12/01/10-11/
                                                                                                                                     30/11
                                                                                                                                    Option II 12/01/11-
                                                                                                                                     11/30/12
                                                                                                                                    Option III 12/01/12-
                                                                                                                                     11/30/13
                                                                                                                                    Option IV 12/01/13-
                                                                                                                                     11/30/14

7................................  GS-07F-0103M........  DECO................  State of Oklahoma..     $36,809,787      $7,361,957  Base 2/01/10-1/31/11
                                   HSCEC7-09-A-00003...                                                                             Option I 2/01/11-1/
                                                                                                                                     31/12
                                                                                                                                    Option II 2/01/12-1/
                                                                                                                                     30/13
                                                                                                                                    Option III 2/01/13-
                                                                                                                                     01/31/14
                                                                                                                                    Option IV 2/01/14-1/
                                                                                                                                     31/15

8................................  HSCEW8-09-A-00001...  DECO, Inc...........  Guard Services          $57,094,725     $11,418,945  Option 1 (01/01/2010-
                                                                                Colorado.                                            12/31/2010)
                                                                                                                                    Option 2 (01/01/2011-
                                                                                                                                     12/31/2011)
                                                                                                                                    Option 3 (01/01/2012-
                                                                                                                                     12/31/2012)
                                                                                                                                    Option 4 (01/01/2013-
                                                                                                                                     12/31/2013)

8................................  HSCECA-07-A-70006...  SCG, INC............  GUARD SVC SOUTH          $2,932,916        $586,583  Option 2 (04/01/2009-
                                                                                DAKOTA.                                              03/31/2010)
                                                                                                                                    Option 3 (04/01/2011-
                                                                                                                                     03/31/2012)
                                                                                                                                    Option 4 (04/01/2012-
                                                                                                                                     03/31/2013)

8................................  HSCECA-07-A-70008...  SCG, INC............  GUARD SVC WYOMING..      $3,824,187        $764,837  Option 2 (04/01/2009-
                                                                                                                                     03/31/2010)
                                                                                                                                    Option 3 (04/01/2011-
                                                                                                                                     03/31/2012)
                                                                                                                                    Option 4 (04/01/2012-
                                                                                                                                     03/31/2013)

8................................  HSCECA-07-A-70004...  SCG, INC............  GUARD SVC MONTANA..      $8,658,009      $1,731,602  Option 2 (04/01/2009-
                                                                                                                                     03/31/2010)
                                                                                                                                    Option 3 (04/01/2011-
                                                                                                                                     03/31/2012)
                                                                                                                                    Option 4 (04/01/2012-
                                                                                                                                     03/31/2013)

8................................  HSCECA-07-A-70005...  SCG, INC............  GUARD SVC NORTH          $2,479,996        $495,999  Option 2 (04/01/2009-
                                                                                DAKOTA.                                              03/31/2010)
                                                                                                                                    Option 3 (04/01/2011-
                                                                                                                                     03/31/2012)
                                                                                                                                    Option 4 (04/01/2012-
                                                                                                                                     03/31/2013)

8................................  HSCECA-07-A-70007...  SCG, INC............  GUARD SVC UTAH.....     $15,189,018      $3,037,804  Option 2 (04/01/2009-
                                                                                                                                     03/31/2010)
                                                                                                                                    Option 3 (04/01/2011-
                                                                                                                                     03/31/2012)
                                                                                                                                    Option 4 (04/01/2012-
                                                                                                                                     03/31/2013)

9................................  HSCECA-07-F-00046...  TRINITY PROTECTION    Guard Services<         $58,998,706     $11,799,741  Option 3 10/1/09-9/
                                                          SERVICES, INC.        Northern CA.                                         30-10
                                                                                                                                    Option 4 10/1/2010-9/
                                                                                                                                     30/2011

9................................  HSCECA-07-F-00047...  SECURITY CONSULTANTS  Guard Services<         $55,220,811     $11,044,162  Option 3 10/1/09-9/
                                                          GROUP INC.            Central CA.                                          30/10
                                                                                                                                    Option 4 10/1/2010-9/
                                                                                                                                     30/2011

9................................  HSCEW9-08-F- 00002..  SECURITY CONSULTANTS  Guard Services, NV.     $19,753,663      $3,950,733  Option 3-10/1/10-9/
                                   (FSS No. GS07F0267L)   GROUP.                                                                     30/11
                                                                                                                                    Option 4-10/1/11-9/
                                                                                                                                     30/12

9................................  HSCEW9-09-A-00002...  Security Consultants  Arizona Guard           $24,962,312      $4,992,462  Option 2 (10/1/10-09/
                                                          Group.                Contract.                                            30/11)
                                                                                                                                    Option 3 (10/1/11-09/
                                                                                                                                     30/12)
                                                                                                                                    Option 4 (10/1/12-09/
                                                                                                                                     30/13)

9................................  BPA No. HSCEW9-09-A-  Paragon Systems, Inc  Armed Guard Service-    $99,396,497     $19,879,299  Option 1 (10/1/09-09/
                                    00003.                                      Los Angeles, CA.                                     30/10)
                                   (FSS No. GS07F0418K)                                                                             Option 2 (10/1/10-09/
                                                                                                                                     30/11)
                                                                                                                                    Option 3 (10/1/11-09/
                                                                                                                                     30/12)
                                                                                                                                    Option 4 (10/1/12-09/
                                                                                                                                     30/13)

9................................  BPA No. HSCEW9-09-A-  Paragon Systems, Inc  Armed Guard Service-    $49,205,673      $9,841,135  Option 1 (10/1/09-09/
                                    00004.                                      San Diego, CA.                                       30/10)
                                   (FSS No. GS07F0418K)                                                                             Option 2 (10/1/10-09/
                                                                                                                                     30/11)
                                                                                                                                    Option 3 (10/1/11-09/
                                                                                                                                     30/12)
                                                                                                                                    Option 4 (10/1/12-09/
                                                                                                                                     30/13)

10...............................  HSCECA-07-A-70010...  PARAGON SYSTEMS.....  ARMED GUARD             $28,698,099      $5,739,620  Option 4 (5/16/2010-
                                                                                SERVICES FOR                                         5/15/2011)
                                                                                NORTHERN                                            Option 5 (5/16/2011-
                                                                                WASHINGTON.                                          5/15/2012)

10...............................  HSCECA-07-A-70009...  PARAGON SYSTEMS.....  ARMED GUARD             $20,133,234      $4,026,647  Option 4 (7/1/2010-6/
                                                                                SERVICES FOR                                         30/2011)
                                                                                OREGON STATEWIDE                                    Option 5 (7/1/2011-6/
                                                                                AND SOUTH                                            30/2012)
                                                                                WASHINGTON.

10...............................  HSCEXP06CF00004.....  PARAGON SYSTEMS.....  ARMED GUARD              $5,284,105      $1,056,821  Option 4 (4/1/2010-3/
                                                                                SERVICES FOR                                         31/2011)
                                                                                SOUTHWESTERN
                                                                                WASHINGTON.

10...............................  HSCECA07A70000......  GUARDIAN SECURITY     ARMED GUARD                $238,907         $47,781  Option 3 (10/1/2009-
                                                          SYSTEMS, INC.         SERVICES FOR                                         9/30/2010)
                                                                                KETCHIKAN.                                          Option 4 (10/1/2010-
                                                                                                                                     9/30/2011)

10...............................  HSCEWA09A00003......  SCG.................  ARMED GUARD              $2,945,145      $2,945,145  Contract Expires 2/
                                                                                SERVICES FOR IDAHO                                   28/10
                                                                                AND EASTERN
                                                                                WASHINGTON.

11...............................  HSCEEC-10-A-00001...  Coastal               Guard Services, NCR    $116,000,000     $23,200,000  BPA through 12/3/
                                                          International                                                              2014
                                                          Security.

11...............................  GS11P04MPC0037......  Kingdom Security      Guard Services, NCR      $1,516,933        $303,387  Expires 2/28/10
                                                          Services.

11...............................  HSCEEC08A00001......  USEC Services Corp..  Guard Services, NCR     $19,000,000      $3,800,000  BPA through 11/30/
                                                                                                                                     2012

11...............................  HSCEEC08A00004......  SecTek..............  Guard Services, NCR      $7,324,629      $1,464,926  BPA through 1/3/2012

11...............................  HSCEEC08A00005......  DTM Corporation.....  Guard Services, NCR     $21,700,000      $4,340,000  BPA through 1/3/2012

11...............................  HSCEEC08A00006......  Allied Barton         Guard Services, NCR     $11,196,000      $2,239,200  BPA through 1/13/13
                                                          Security.

11...............................  HSCEEC08A00007......  Ares Protective       Guard Services, NCR      $2,093,000        $418,600  BPA through 01/11/
                                                          Service.                                                                   113

11...............................  HSCEEC08A00008......  DTM Corporation.....  Guard Services, NCR      $2,700,000        $540,000  BPA through 1/11/
                                                                                                                                     2013

11...............................  HSCEEC08A00009......  SecTek..............  Guard Services, NCR     $29,200,000      $5,840,000  BPA through 3/31/
                                                                                                                                     2013

11...............................  HSCEEC08A00015......  Paragon Systems.....  Guard Services, NCR     $52,000,000     $10,400,000  BPA through 5/31/
                                                                                                                                     2013

11...............................  HSCEEC08A00016......  Coastal               Guard Services, NCR     $32,000,000      $6,400,000  BPA through 5/31/
                                                          International                                                              2013
                                                          Security.

11...............................  HSCEEC08A00017......  Jenkins Security      Guard Services, NCR      $5,000,000      $1,000,000  BPA through 5/31/
                                                          Consultants.                                                               2013

11...............................  HSCEEC08A00019......  MVM.................  Guard Services, NCR     $41,500,000      $8,300,000  BPA through 9/30/
                                                                                                                                     2014

11...............................  HSCEEC08A00020......  Elite Protective      Guard Services, NCR     $43,000,000      $8,600,000  BPA through 5/31/
                                                          Services.                                                                  2013

11...............................  HSCEEC08A00021......  Frontier Systems      Guard Services, NCR      $7,898,216      $1,579,643  BPA through 8/17/
                                                          Integrators.                                                               2013

11...............................  HSCEEC08A00022......  Coastal               Guard Services, NCR     $14,628,434      $2,925,687  BPA through 9/30/
                                                          International                                                              2013
                                                          Security.

11...............................  HSCEEC08C00001......  Jenkins Security      Guard Services, NCR      $5,811,748      $1,162,350  Option II 10/1/2009-
                                                          Consultants.                                                               9/30/2010
                                                                                                                                    Option III 10/1/2010-
                                                                                                                                     9/30/2011
                                                                                                                                    Option IV 10/1/2011-
                                                                                                                                     9/30/2012
                                                                                                                                    Option V 10/1/2012-7/
                                                                                                                                     31/2013

11...............................  HSCEEC08D00001......  DTM Corporation.....  Guard Services, NCR        $481,632         $96,326  Option I 12/1/2008-
                                                                                                                                     11/30/2009
                                                                                                                                    Option II 12/1/2009-
                                                                                                                                     11/30/2010
                                                                                                                                    Option III 12/1/2010-
                                                                                                                                     11/30/2011

11...............................  HSCEEC08D00002......  Special Operations    Guard Services, NCR      $6,623,493      $1,324,699  Option I 12/1/2008-
                                                          Group.                                                                     11/30/2009
                                                                                                                                    Option II 12/1/2009-
                                                                                                                                     11/30/2010
                                                                                                                                    Option III 12/1/2010-
                                                                                                                                     11/30/2011
                                                                                                                                    Option IV 12/1/2011-
                                                                                                                                     11/30/2012

11...............................  HSCEEC08D00003......  Jenkins Security      Guard Services, NCR      $8,227,876      $1,645,575  Option I 12/1/2008-
                                                          Consultants.                                                               11/30/2009
                                                                                                                                    Option II 12/1/2009-
                                                                                                                                     11/30/2010
                                                                                                                                    Option III 12/1/2010-
                                                                                                                                     11/30/2011
                                                                                                                                    Option IV 12/1/2011-
                                                                                                                                     11/30/2012

11...............................  HSCEEC08D00004......  Master Security.....  Guard Services, NCR     $21,155,585      $4,231,117  Option I 12/1/2008-
                                                                                                                                     11/30/2009
                                                                                                                                    Option II 12/1/2009-
                                                                                                                                     11/30/2010
                                                                                                                                    Option III 12/1/2010-
                                                                                                                                     11/30/2011
                                                                                                                                    Option IV 12/1/2011-
                                                                                                                                     11/30/2012

11...............................  HSCEEC08D00005......  Jenkins Security      Guard Services, NCR     $23,889,389      $4,777,878  Base Period 8/1/2008-
                                                          Consultants.                                                               7/31/2009
                                                                                                                                    Option I 8/1/2009-7/
                                                                                                                                     31/2010
                                                                                                                                    Option II 8/1/2010-7/
                                                                                                                                     31/2011
                                                                                                                                    Option III 8/1/2011-
                                                                                                                                     7/31/2012
                                                                                                                                    Option IV 8/1/2012-7/
                                                                                                                                     31/2013

11...............................  HSCEEC08D00006......  DTM Corporation.....  Guard Services, NCR      $3,489,230        $697,846  Base Period 9/1/2008-
                                                                                                                                     8/31/2009
                                                                                                                                    Option I 9/1/2009-8/
                                                                                                                                     31/2010
                                                                                                                                    Option II 9/1/2010-8/
                                                                                                                                     31/2011
                                                                                                                                    Option III 9/1/2011-
                                                                                                                                     8/31/2012
                                                                                                                                    Option IV 9/1/2012-8/
                                                                                                                                     31/2013

11...............................  HSCEEC08D00007......  Jenkins Security      Guard Services, NCR     $10,324,000      $2,064,800  Base Period 11/1/
                                                          Consultants.                                                               2008-10/31/2009
                                                                                                                                    Option I 11/1/2009-
                                                                                                                                     10/31/2010
                                                                                                                                    Option II 11/1/2010-
                                                                                                                                     10/31/2011
                                                                                                                                    Option III 11/1/2011-
                                                                                                                                     10/31/2012
                                                                                                                                    Option IV 11/1/2012-
                                                                                                                                     10/31/2013

11...............................  HSCEEC08D00008......  Jenkins Security      Guard Services, NCR      $7,873,830      $1,574,766  Base Period 10/1/
                                                          Consultants.                                                               2008-9/30/2009
                                                                                                                                    Option I 10/1/2009-9/
                                                                                                                                     30/2010
                                                                                                                                    Option II 10/1/2010-
                                                                                                                                     9/30/2011
                                                                                                                                    Option III 10/1/2011-
                                                                                                                                     9/30/2012
                                                                                                                                    Option IV 10/1/2012-
                                                                                                                                     9/30/2013

11...............................  HSCEEC09A00001......  Coastal               Guard Services, NCR     $34,533,841      $6,906,768  BPA through 9/30/
                                                          International                                                              2013
                                                          Security.

11...............................  HSCEEC09A00002......  Master Security.....  Guard Services, NCR        $872,445        $174,489  BPA through 12/31/
                                                                                                                                     2009

11...............................  HSCEEC09A00004......  Sectek..............  Guard Services, NCR     $15,300,000      $3,060,000  BPA through 3/31/
                                                                                                                                     2014

11...............................  HSCEEC09A00005......  Coastal               Guard Services, NCR      $9,637,499      $1,927,500  BPA through 8/31/
                                                          International                                                              2014
                                                          Security.

11...............................  HSCEEC09A00006......  Elite Protective      Guard Services, NCR     $10,559,593      $2,111,919  BPA through 11/30/
                                                          Services.                                                                  2014

11...............................  HSCEEC09D00004......  Jenkins Security....  Guard Services, NCR     $13,387,895      $2,677,579  Base Period 12/1/08-
                                                                                                                                     11/30/09
                                                                                                                                    Option 1 12/1/09-11/
                                                                                                                                     30/10
                                                                                                                                    Option 2 12/1/10-11/
                                                                                                                                     30/11
                                                                                                                                    Option 3 12/1/11-11/
                                                                                                                                     30/12
                                                                                                                                    Option 4 12/1/12-11/
                                                                                                                                     30/13

11...............................  HSCEEC09D00005......  AmPro International.  Guard Services, NCR     $10,295,260      $2,059,052  Base Period 1/1/2009-
                                                                                                                                     12/31/2009
                                                                                                                                    Option Period I 1/1/
                                                                                                                                     2010-12/31/2010
                                                                                                                                    Option Period II 1/1/
                                                                                                                                     2011-12/31/2011
                                                                                                                                    Option Period III 1/
                                                                                                                                     1/2012-12/31/2012
                                                                                                                                    Option Period IV 1/1/
                                                                                                                                     2013-12/31/2013

11...............................  HSCEEC09D00006......  The Whitestone Group  Guard Services, NCR     $13,709,585      $2,741,917  Base Period 2/1/2009-
                                                                                                                                     1/31/2010
                                                                                                                                    Option Period I 2/1/
                                                                                                                                     2010-1/31/2011
                                                                                                                                    Option Period II 2/1/
                                                                                                                                     2011-1/31/2012
                                                                                                                                    Option Period III 2/
                                                                                                                                     1/2012-1/31/2013
                                                                                                                                    Option Period IV 2/1/
                                                                                                                                     2013-1/31/2014

11...............................  HSCEEC09D00007......  Knight Protective     Guard Services, NCR     $49,573,882      $9,914,776  Base Period 4/1/2009-
                                                          Service.                                                                   11/30/2009
                                                                                                                                    Option Period I 12/1/
                                                                                                                                     2009-11/30/2010
                                                                                                                                    Option Period II 12/
                                                                                                                                     1/2010-11/30/2011
                                                                                                                                    Option Period III 12/
                                                                                                                                     1/2011-11/30/2012
                                                                                                                                    Option Period IV 12/
                                                                                                                                     1/2012-11/30/2013

11...............................  HSCEEC09D00008......  American Security     Guard Services, NCR     $17,070,918      $3,414,184  Base Period 2/1/2009-
                                                          Programs.                                                                  1/31/2010
                                                                                                                                    Option Period I 2/1/
                                                                                                                                     2010-1/31/2011
                                                                                                                                    Option Period II 2/1/
                                                                                                                                     2011-1/31/2012
                                                                                                                                    Option Period III 2/
                                                                                                                                     1/2012-1/31/2013
                                                                                                                                    Option Period IV 2/1/
                                                                                                                                     2013-1/31/2014

11...............................  HSCEEC09D00009......  C&D Security........  Guard Services, NCR     $24,539,905      $4,907,981  Base Period 6/1/2009-
                                                                                                                                     5/31/2010
                                                                                                                                    Option Period I 6/1/
                                                                                                                                     2010-5/31/2011
                                                                                                                                    Option Period II 6/1/
                                                                                                                                     2011-5/30/2012
                                                                                                                                    Option Period III 6/
                                                                                                                                     1/2012-5/31/2013
                                                                                                                                    Option Period IV 6/1/
                                                                                                                                     2013-5/30/2014

11...............................  HSCEEC09D00010......  Master Security.....  Guard Services, NCR      $3,212,715        $642,543  Base Period 5/1/2009-
                                                                                                                                     4/30/2010
                                                                                                                                    Option Period I 5/1/
                                                                                                                                     2010-4/30/2011
                                                                                                                                    Option Period II 5/1/
                                                                                                                                     2011-4/30/2012
                                                                                                                                    Option Period III 5/
                                                                                                                                     1/2012-4/30/2013
                                                                                                                                    Option Period IV 5/1/
                                                                                                                                     2013-4/30/2014

11...............................  HSCEEC09D00011......  Master Security.....  Guard Services, NCR      $3,707,607        $741,521  Base Period 5/1/2009-
                                                                                                                                     4/30/2010
                                                                                                                                    Option Period I 5/1/
                                                                                                                                     2010-4/30/2011
                                                                                                                                    Option Period II 5/1/
                                                                                                                                     2011-4/30/2012
                                                                                                                                    Option Period III 5/
                                                                                                                                     1/2012-4/30/2013
                                                                                                                                    Option Period IV 5/1/
                                                                                                                                     2013-4/30/2014

11...............................  HSCEEC09D00012......  C&D Security........  Guard Services, NCR     $12,816,165      $2,563,233  Base Period 6/1/2009-
                                                                                                                                     5/31/2010
                                                                                                                                    Option Period I 6/1/
                                                                                                                                     2010-5/31/2011
                                                                                                                                    Option Period II 6/1/
                                                                                                                                     2011-5/30/2012
                                                                                                                                    Option Period III 6/
                                                                                                                                     1/2012-5/31/2013
                                                                                                                                    Option Period IV 6/1/
                                                                                                                                     2013-5/30/2014

11...............................  HSCEEC09D00013......  Knight Protective     Guard Services, NCR     $34,720,713      $6,944,143  Base Period 12/1/08-
                                                          Service.                                                                   11/30/09
                                                                                                                                    Option 1 12/1/09-11/
                                                                                                                                     30/10
                                                                                                                                    Option 2 12/1/10-11/
                                                                                                                                     30/11
                                                                                                                                    Option 3 12/1/11-11/
                                                                                                                                     30/12
                                                                                                                                    Option 4 12/1/12-11/
                                                                                                                                     30/13

11...............................  HSCEEC10A00001......  Coastal               Guard Services, NCR     $65,410,402     $13,082,080  BPA Through 9/30/
                                                          International                                                              2014
                                                          Security.

11...............................  HSCEEC10D00001......  Master Security.....  Guard Services, NCR      $3,738,474        $747,695  Base Period 1/1/10-
                                                                                                                                     12/31/10
                                                                                                                                    Option 1 1/1/11-12/
                                                                                                                                     31/11
                                                                                                                                    Option 2 1/1/12-12/
                                                                                                                                     31/12
                                                                                                                                    Option 3 1/1/13-12/
                                                                                                                                     31/13
                                                                                                                                    Option 4 1/1/14-12/
                                                                                                                                     31/14
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Question 10a. GAO has provided the committee a list of all 
recommendations GAO has made to FPS since FPS was transferred to DHS. 
For each recommendation, GAO noted whether FPS has fully addressed the 
issue, or whether the issue remains open. For each open GAO 
recommendation, please provide the following information:
    Where the agency concurs with the recommendation, but has not 
completed actions to address the recommendation, please provide a 
listing of tasks remaining, the title of the individual overseeing 
completion of the recommendation and the expected completion date.
    Question 10b. Where the agency does not concur with the 
recommendation, please provide a narrative explanation stating the 
reasons for the failure to concur.
    Answer. Please see the attached spreadsheet, GAO/OIG Status Report.

                                                                  GAO/OIG STATUS REPORT
                                    Recommended Performance Reporting for Period [Enter Current Period's Dates Here]
--------------------------------------------------------------------------------------------------------------------------------------------------------
            Report Number                                                    Report Title                                             Schedule Status
--------------------------------------------------------------------------------------------------------------------------------------------------------
              OIG 09-51                       Federal Protective Service Contract Guard Procurement and Oversight Process                On Track
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                             FPS Est. Start     FPS Est. Due
             Milestones                            Description                    Date              Date        Percent Complete         Assignee
--------------------------------------------------------------------------------------------------------------------------------------------------------
1.0.................................  Refine and complete standardized             6/12/2008         4/30/2009               100  Division Director
                                       procedures and templates to ensure
                                       that the Federal Protective Service
                                       consistently solicits and awards
                                       guard contracts in the Government's
                                       best interests.
2.0.................................  Allocate sufficient Consolidated              6/5/2008         9/22/2009               100  Division Director
                                       Contracting Group and regional
                                       program office staff to perform
                                       thorough technical evaluations and
                                       award timely follow-on guard
                                       contracts that are in the
                                       Government's best interests.
3.0.................................  Provide training to the regional              2/5/2009         4/30/2009               100  Division Director
                                       program office personnel who
                                       participate in technical
                                       evaluations so that they can
                                       successfully evaluate contractor
                                       technical proposals to award best
                                       value guard contracts.
4.0.................................  Develop standardized policies and            4/30/2009         10/1/2009               100  Division Directors
                                       procedures to ensure that FPS
                                       personnel provide effective
                                       contract oversight. At a minimum,
                                       policies and procedures need to
                                       include performing and documenting
                                       inspections, reviewing invoices,
                                       assessing monetary deductions,
                                       evaluating contractor performance,
                                       and testing quality control plans.
5.0.................................  Develop an agency-wide information            8/1/2008        11/16/2009               100  Division Director
                                       system to collect and report the
                                       frequency of all inspections and
                                       their results to provide Nation-
                                       wide FPS managers with the
                                       necessary information to evaluate
                                       building security and contractor
                                       performance.
6.0.................................  Increase staffing and resources at           3/10/2008        12/30/2009                97  Asst. Director
                                       the regional program offices to
                                       perform the necessary contract
                                       administration and oversight
                                       function over guard services.
6.1.................................  Increase the number of Law                   3/10/2008          5/1/2009               100  Division Director
                                       Enforcement personnel to the 900
                                       level to increase oversight of the
                                       contract guard services.
6.2.................................  Increase the number of Mission               3/10/2008          5/1/2009               100  Division Director
                                       Support personnel to 300 to assist
                                       in the administration of guard
                                       support services.
6.3.................................  Establish a Level III Program                1/14/2009         4/29/2009               100  Asst. Director
                                       Manager in the FPS Operations
                                       Directorate.
6.4.................................  Establish positions for, and hire,           1/14/2009        12/30/2009                80  Asst. Director
                                       Program Managers within each region
                                       and at the FPS HQ for guard
                                       contract administrative expertise.
6.5.................................  Increase the number of trained               3/10/2008        12/30/2009               100  Asst. Director
                                       Contracting Officer Technical
                                       Representatives (COTRs) to ensure
                                       qualified guard contract oversight.
6.6.................................  Implement FPS Policy to ensure the           10/1/2008          8/1/2009               100  Division Director/
                                       proper resourcing of Technical                                                              Regional Directors
                                       evaluation teams. Note: Addressed
                                       in section 6.6a of the Security
                                       Guard Acquisition Planning and Pre-
                                       Award policy.
--------------------------------------------------------------------------------------------------------------------------------------------------------

 Questions From Honorable Charles W. Dent of Pennsylvania for Gary W. 
  Schenkel, Director, Federal Protective Service, National Protection 
         Programs Directorate, Department of Homeland Security

    Question 1. Some have proposed moving away from a system where FPS 
is reliant on funding from other agencies to support its staff. Have 
you looked at the fee-funding system and are you satisfied that it best 
supports FPS's needs?
    Answer. The Federal Protective Service (FPS) continues to be funded 
through revenues and collections in the same manner that existed when 
FPS was under the General Services Administration (GSA) prior to its 
transfer to the Department of Homeland Security (DHS).
    FPS has initiated a study of funding strategies that will support 
the security and protection mission of FPS within DHS using the 
preliminary data being obtained from the recently deployed ABC Model 
and risk-based workforce performance metrics obtained from FPS subject-
matter experts. A preliminary report will be completed in the first 
quarter of fiscal year 2010. Based on the preliminary findings, the 
most promising fee methodologies, along with options that include 
combinations of different fees with other funding sources, will be 
presented to departmental management for further consideration.
    Question 2. What is the benefit of a universal per square foot 
approach, as opposed to a fee for service per building approach?
    Answer. The method to assess and collect the basic security charge 
is similar to a flat tax based on square feet, while the overhead 
charges for building-specific and SWA services are based on the 
additional security services delivered at the specific building or 
requested by a specific tenant agency in the building.
    This approach is not very different from the property taxes 
assessed by State, local, and municipal authorities to establish 
adequate levels of public safety services to protect the residents that 
they serve. The majority of taxpayers will not require public safety 
services during a tax year, but the jurisdiction must still maintain 
sufficient resources to respond to all emergencies. Likewise, FPS is 
required to maintain a sufficient force to provide law enforcement and 
security services across the entire GSA real property inventory.
    FPS will be looking at alternative funding methodologies that may 
better support the FPS law enforcement and security mission.

Questions From Chairman Bennie G. Thompson of Mississippi for Robert A. 
    Peck, Commissioner, Public Buildings Service, General Services 
                             Administration

    Question 1. What role did GSA play in transition planning? What 
input did you provide to NPPD to facilitate a successful transition?
    Answer. Response was not received at the time of publication.
    Question 2. GAO reported that GSA and FPS have not completed 
renegotiating the Memorandum of Agreement that governs the agencies' 
relationship. This agreement also addresses information sharing. How 
will you work with NPPD and FPS during the transition to ensure that 
this renegotiation is completed in a timely manner?
    Answer. Response was not received at the time of publication.
    Question 3. Please provide a narrative of all security 
countermeasure recommendations FPS issued to GSA or GSA tenants in the 
past year, and the corresponding GSA or tenant agency response to each 
FPS recommendation. For instances in which GSA or the tenant agency 
declined to implement the recommended security countermeasure, specify 
the basis for this decision.
    Answer. Response was not received at the time of publication.

 Question From Honorable Charles W. Dent of Pennsylvania for Robert A. 
    Peck, Commissioner, Public Buildings Service, General Services 
                             Administration

    Question. Has GSA examined altering the process by which FPS 
recommendations are reviewed, appropriated and implemented?
    Should building security committees be making security-related 
decisions?
    Answer. Response was not received at the time of publication.

 Questions From Chairman Bennie G. Thompson of Mississippi for Mark L. 
    Goldstein, Director, Physical Infrastructure Issues, Government 
                         Accountability Issues

    Question 1. You recommended that FPS and GSA coordinate better on 
sharing security and threat information. What steps should NPPD take 
during the transition to improve information sharing between FPS and 
GSA?
    Answer. NPPD should ensure that FPS reaches consensus with GSA on 
what information contained in facility security assessments are needed 
for GSA to fulfill its responsibilities related to the protection of 
Federal buildings and its occupants. In addition, NPPD should require 
that FPS and GSA establish internal controls to ensure that shared 
information is adequately safeguarded.
    Question 2. In your opinion, how can NPPD best contribute its 
knowledge and expertise to improve FPS physical protection of Federal 
facilities?
    Answer. While we have not conducted any reviews of NPPD, we think 
that NPPD's knowledge and experience in securing the Nation's critical 
infrastructure should help improve FPS's ability to protect Federal 
facilities.

Questions From Chairman Bennie G. Thompson of Mississippi for David L. 
 Wright, President, American Federation of Government Employees--Local 
                                  918

    Question 1. In your testimony, you recommend that FPS federalize 
contract guard positions at high-risk facilities. How would this 
improve the safety of Federal buildings?
    Answer. A properly trained Federal Police Officer has a higher 
level of qualifications and training than a contract security guard, is 
held to a higher level of responsibility, is supervised by other 
trained law enforcement officers, and typically has a lower turnover 
rate than a contract guard. This substantially increases the likelihood 
that they will recognize a threat and take appropriate enforcement 
action when compared to a contract guard. Additionally, their basic 
training is standardized through the Federal Law Enforcement Training 
Center (FLETC) and the FPS National training staff, where contractor 
basic training is taught by each guard company and often has an undue 
focus on avoiding liability to the company. Just as the use of Federal 
Police Officers has improved the safety of Congressional facilities, 
the White House, and the Pentagon, their use at our highest risk GSA 
facilities would have the same result.
    Question 2a. How much training do FPS inspectors receive on risk 
assessment?
    Answer. With the implementation of the new Risk Assessment 
Management Program (RAMP) the assessment training has changed. Prior to 
RAMP, all inspectors have received 4 weeks of Physical Security 
Training, including the assessment process. Now inspectors and police 
officers Nation-wide are receiving 2 weeks of instruction on RAMP and 
all are expected to complete this training by the end of March. New 
inspectors will now complete a 6-week initial Security Academy. 
Additionally, one of the 30 areas trained and evaluated during the 12-
week field training and evaluation program is the risk assessment 
process.
    Question 2b. How much law enforcement training do FPS inspectors 
receive?
    Answer. New inspectors must successfully complete the 12-week 
Uniformed Police Training Program at FLETC, 3 weeks of FPS orientation/
advanced FPS specific training, and a 12-week field training and 
evaluation program.
    Question 2c. What percentage of an FPS inspector's time is spent 
performing risk assessment duties?
    Answer. The percentage varies based on the number of inspectors and 
the number and mix of facilities assigned to each. Many of our 
inspectors have reported it was not unusual to spend 18 to 20 weeks of 
the year (38 percent) conducting assessments.
    This year the ISC changed the interval between assessments for 
high-risk (Level 4) buildings from every 2 to every 3 years; and low-
risk (Level 1 & 2) buildings from every 4 years to every 5 years, 
reducing the number of assessments required each year. However, with 
the advent of RAMP and its highly detailed risk evaluation process, the 
time required to complete the average assessment will increase. Our 
inspectors estimate at the current staffing level they will spend an 
average of 13 to 15 weeks a year (25 percent) conducting assessments.
    On average an inspector should spend no more than 6 weeks (12 
percent) spread over the year on assessments, which is ultimately only 
a planning document. In order to implement the security plan from the 
assessment, provide law enforcement response and proactive patrol; 
ensure human, electronic, physical, and procedural countermeasures work 
as intended; and monitor and mentor contract guard performance, 
significant proactive time and effort is absolutely necessary for 
success. As GAO has reported FPS does not have sufficient inspectors 
and police officers to provide proactive patrol, ensure its 
countermeasures are working, and monitor to ensure guards and guard 
companies are complying with their contractual obligations.
    Question 2d. How does this compare to the amount of time spent on 
law enforcement duties?
    Answer. At current inadequate staffing levels, our inspectors are 
severely challenged to allocate sufficient time for law enforcement 
duties, including proactive patrol, while meeting mandates for 
assessments and guard monitoring. Estimates on the amount of time spent 
on law enforcement duties from our field staff in many locations range 
from 10 percent to 25 percent, even with overtime use for some guard 
training monitoring and off-hour inspections.
    Question 2e. Since FPS inspectors are primarily trained in law 
enforcement, what steps would you recommend NPPD take to ensure 
inspectors are able to devote more time to law enforcement duties?
    Answer. First, recognize that inspectors are essentially community 
police officers by increasing FPS field staff so sufficient inspectors 
and police officers are available, to provide necessary service. This 
increase in staff will reduce the number of buildings assigned to each 
inspector to a level where they can successfully complete their duties 
while reducing the documented risk to facilities inherent in an 
understaffed FPS. Recommend Congress confer law enforcement retirement 
benefits on FPS law enforcement personnel on the same basis as Customs 
and Border Protection officers.
    Second, extend service hours in the largest cities to include night 
and weekend service--criminals and terrorists don't work only during 
business hours, and neither should FPS. Authorize administratively 
uncontrollable overtime for inspectors and officers to ensure they 
accomplish the myriad of tasks inherent in their community police 
officer role.
    Third, increase staffing in smaller cities to provide minimum 
service to urban communities and border stations. These three steps 
would increase resources in our highest-risk cities and provide minimal 
service coincident to risk for facilities located in lower-risk cities/
rural areas.
    In order to accomplish these steps Congressional mandates will be 
necessary to encourage OMB approval of the necessary funding, when 
requested by DHS.
    Question 3. NPPD chairs the operations of the Interagency Security 
Committee, which has responsibility for establishing Government-wide 
security policies for Federal facilities. In your opinion, how will FPS 
benefit from becoming a part of the agency that chairs this committee?
    Answer. FPS will undoubtedly benefit from the synergy of being in 
the same organization as the ISC Secretariat. However, FPS is still not 
a member of the committee as they were prior to transfer to DHS, nor do 
they have the honest broker compliance monitoring role they had prior 
to the 2003 revisions to the ISC Executive Order. Additionally, the ISC 
was formed by an Executive Order that predates the establishment of DHS 
and the Secretary's mandate to be primarily responsible for the 
protection of Federal facilities. The overall security of all 
facilities will be improved if Congress codifies the role, functions, 
and mission of the ISC as part of DHS under the supervision of the 
Secretary, to help her accomplish the facilities protection mission 
mandated by the Homeland Security Act. The ISC as currently managed and 
structured, has in some ways increased risk to Federal facilities 
through its practice of placing the non-professional Facility Security 
Committees in charge of determining which security measures, weapons 
screening and access control measures they will accept. Additionally, 
the ISC promulgates standards and guidelines based on the consensus of 
its members. Under this concept neither the DHS Secretary nor FPS can 
even mandate minimum access control and weapons screening standards for 
any facilities. The ISC, as presently constituted, is broken and needs 
to be fixed by Congress.
    Question 4. FPS is developing a new risk assessment tool called the 
Risk Assessment Management Program (RAMP). In your opinion, will RAMP 
streamline and improve the risk assessment process?
    Answer. RAMP improves the risk assessment process by considering 
all aspects of the facility and its buffer zone to determine threats, 
vulnerability, and consequence. It will streamline the management of 
countermeasures, the overall assessment process, and bring together 
legacy GSA systems. RAMP will not save time since it incorporates many 
assessment best practices that require additional effort by our 
inspectors to properly conduct assessments and validate countermeasure 
effectiveness. While RAMP may greatly improve our ability to 
standardize and document risks to each facility, right now FPS simply 
does not have enough inspectors to do this critical job right, without 
creating vulnerabilities in other areas.
    Question 5. Did NPPD consult with AFGE when preparing its 
transition plan, specifically with regard to their plans for managing 
human capital at FPS?
    Answer. Neither ICE nor NPPD consulted with AFGE while preparing 
its transition plan, and did not share any element of the plan with 
AFGE. I became aware of the ``plans'' for managing human capital when 
they were publically announced after the transfer. Additionally, we 
understand the transition plan requires FPS to pay NPPD over $25 
million, from its security charge revenue, for services previously 
provided by ICE from its appropriation without cost to FPS. It seems to 
me that if ICE paid for the service from its appropriation the 
Secretary should be directed to reprogram these oversight and 
administration funds from ICE to NPPD. Paying these costs from FPS 
security collections effectively reduces FPS direct services and 
capital investment to the detriment of the security of Federal 
employees and facilities, as well as the FPS field force.

 Questions From Honorable Charles W. Dent of Pennsylvania for David L. 
 Wright, President, American Federation of Government Employees--Local 
                                  918

    Question 1. In your testimony you cite inadequate staffing levels 
as a reason for some of the problems we discussed. Please estimate how 
many additional FPS staff would be needed to meet its current mandates?
    Answer. To meet the current FPS mandate to protect only GSA owned 
and leased facilities (about half of the Non-DOD Federal facilities) at 
least 490 additional non-supervisory inspectors and police officers are 
required. I estimate this increase in direct service staff would also 
require about 120 more supervisors, managers, and mission support 
staff. The total additional staff requirement would be approximately 
610. Under the current security charge funding scheme, this could be 
achieved while maintaining only a pennies basic per square foot law 
enforcement and security charge of .88, coupled with an administrative 
charge of 10 percent (which was 8 percent in 2009 and 15 percent in 
2007) on guard services to pay for the contract guard monitoring 
functions.
    A total Nation-wide FPS staff of 1,860 would still be less than 75 
percent of the 2,500 police officers the VA uses to police and secure 
its medical centers, and barely 200 more than the Capitol Police use to 
secure Congressional facilities in Washington, DC. With a total staff 
of 1,860 there would be sufficient officers and inspectors in all major 
cites with significant concentrations of Federal employees and high-
risk buildings, and minimal effective service for facilities in lower 
risk rural communities.
    Question 2. In your testimony you also raise the specter of 
abolishing the fee-funding system, in which FPS charges tenant agencies 
a flat rate of .66/square foot to protect buildings. What system would 
you propose to generate revenues for FPS to adequately protect these 
tenant agencies other than appropriations?
    Answer. Security at GSA buildings is funded through four sources, 
all of which are funds already appropriated to other Federal agencies, 
so we really are not ``fee-funded''. Funding is currently billed on a 
monthly basis based on annual security charges.
    The .66/square foot is only for basic services. Those facilities 
with complex security needs often pay an additional $3 to $4/square 
foot for the cost of guards and other security countermeasures. Many 
also pay additional square foot charges to GSA to amortize the cost of 
security fixtures like vehicle barriers and window protection.
    One simple alternative would be to transfer the basic, building 
specific, and fixture charges to create a FPS appropriation, thus 
providing Congress ready visibility on facility security costs and 
allowing DHS to prioritize security measures where there is the highest 
risk. Optional security services that are not required by an ISC 
standard, such as guards at each Social Security Office, would continue 
to be funded by agencies on a reimbursable basis through Security Work 
Authorizations.
    Other alternatives that maintain the fee-funded myth could include 
an annual technical transfer of projected costs by OMB so FPS does not 
have to bill each agency on a monthly basis; or a transfer from GSA at 
the beginning of each year of all projected security costs with GSA 
collecting the costs, as necessary, from their tenants. Both these and 
other similar alternatives would require legislative direction.
    Question 3. GAO has cited a lack of training and recertification by 
FPS contract guards. Short of federalizing the FPS, what are ways to 
improve security at Federal buildings, or is it possible to improve 
oversight and training alone?
    Answer. If Congress chooses to accept the inherent risks of using a 
mix of 15,000 contract guards and approximately 1,250 Federal employees 
in FPS, there are several ways to improve security. While contract 
guards will never achieve the same effectiveness as the Federal Police 
Officers used to protect the Capitol, White House, and Pentagon, 
rigorous performance and training monitoring coupled with consistent 
observation and mentoring by FPS inspectors and police officers can 
mitigate some of this risk. However, there was no real mitigation of 
these inherent risks when the number of guards increased from 5,000 to 
15,000 while FPS was forced to significantly decrease its inspectors 
and officers. Also there are numerous facilities where agencies procure 
their own contract guards who do not operate under any FPS supervision, 
DHS should revoke the delegations of authority for these facilities and 
bring them fully under the FPS protective mantle. Additionally, 
Congress could provide statutory procurement authorizations to ensure 
guard companies are held accountable for their performance and to 
streamline the acquisition process for these critical services. If FPS 
is to continue using contract guards in their current roles a separate 
part of the Federal Acquisition Regulation for FPS procured guard 
services to implement the statutory procurement guidance would be 
necessary.
    The improvement of oversight, training, and acquisition procedures 
are only a viable alternative with significant increases in FPS law 
enforcement staff to function in a true community police role to 
protect Federal facilities while using properly trained and monitored 
contract guards as a force multiplier.

 Questions From Chairman Bennie G. Thompson of Mississippi for Stephen 
    D. Amitay, Federal Legislative Counsel, National Association of 
                           Security Companies

    Question 1. Given the systemic problems GAO uncovered, are 
companies changing their approach to hiring or oversight of contract 
guards? Are companies working together to make industry-wide 
improvements?
    Answer. NASCO fully believes that FPS and contract security 
companies with FPS contracts must address the hiring, certification, 
and oversight problems uncovered by the GAO and make changes and 
improvements where necessary. It is a core mission of NASCO and its 
member companies to work together industry-wide to improve the hiring 
and performance of contract security officers including efforts to 
enact better licensing, training, and background checks standards. 
NASCO has proactively discussed with FPS and made suggestions on 
possible ways to improve FPS guard training and performance, as 
mentioned in the written testimony.
    Question 2. You testified that you are aware of FPS contracts that 
require security guards to be trained as special police officers 
(SPOs), and that SPOs have arrest power, unlike other security guards. 
Please identify which FPS security guard contracts require contract 
guards to be qualified or trained as SPOs. Include the name of the 
company that holds each contract, and the locations where the guards 
stand post.
    Answer. NASCO does not have access to FPS contracting records that 
would provide information on which FPS security guard contracts require 
contract guards to be qualified or trained as SPO's. FPS has indicated 
that SPO's currently are, or have been in the past, required in FPS 
guard contracts. The committee should contact FPS for more information 
on this issue.
    Question 3. According to news reports, contract security guards at 
private facilities have staged walk-outs to protest unfair pay. How 
have contract guard companies resolved these labor issues?
    Answer. NASCO does not monitor or involve itself in the resolution 
of labor-management issues at contract security companies. Each 
contract security company handles labor issues on their own and NASCO 
is not in a position to generally characterize how companies have 
resolved certain labor issues such as ``unfair pay.''

Questions From Honorable Charles W. Dent of Pennsylvania for Stephen D. 
 Amitay, Federal Legislative Counsel, National Association of Security 
                               Companies

    Question 1. What additional steps would improve security at FPS 
buildings?
    What are some of the challenges associated with doing so?
    Answer. In the NASCO written testimony, several current efforts 
underway at FPS to improve the contract guard program were highlighted 
that NASCO believes can improve security at FPS building. In terms of 
additional steps that could be taken to improve security, again, the 
written testimony mentions better firearms training, better 
communication between FPS offices and contractors, and the inclusion of 
higher performance-related standards in contracts. One security-related 
issue that remains problematic and requires attention and improvement 
on the part of FPS is the need for written guidelines or standard 
operating procedures providing security guards with clear instructions 
and guidance regarding detention authority and related procedures. 
NASCO also believes that steps should be taken to ensure that the 
quality of a company's training, personnel, management, and operational 
procedures--which result in a higher bid--are adequately considered 
during the procurement process. The challenge is for FPS to be able to 
have the resources to spend more money for better security officer 
services.
    Question 2. In your testimony you cite significant reductions in 
the FPS inspector and law enforcement officer force having exacerbated 
problems at FPS. Going forward, do you believe FPS has the resources it 
needs to make strides and rectify the agency's problems?
    If not, what increase in resources would you recommend?
    Answer. NASCO does believe that the current initiatives under way 
at FPS, in combination with the Congressionally-mandated FPS personnel 
levels, can help to rectify the agency's problems. As mentioned above, 
more resources could be utilized to provide for higher performance 
standards in FPS security guard contracts and to account for better 
management, training, and other company qualifications in the contract 
award process. Resources are needed so that FPS contracts to be truly 
awarded based on ``best value'' and not solely ``lowest cost'', which 
would lead to better performance by security contractors and could 
resolve problems in the FPS Contract Guard Program.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
